APPENDIX

1a
APPENDIX A
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
________________________
PROMPTU SYSTEMS CORPORATION,
Appellant
v.
COMCAST CABLE COMMUNICATIONS, LLC,
Appellee
ANDREI IANCU, Director, U.S. Patent and
Trademark Office,
Intervenor
________________________
2019-2368, -2369
________________________
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2018-00342 and IPR2018-00343.
________________________
ON MOTION
________________________
Before LOURIE, MOORE, and CHEN, Circuit Judges.
PER CURIAM.
ORDER

2a
Promptu Systems Corporation moves to vacate
the decisions of the Patent Trial and Appeal Board
and remand for further proceedings in light of Arthrex, Inc. v. Smith & Nephew, Inc., 941 F.3d 1320
(Fed. Cir. 2019). Comcast Cable Communications,
LLC and the Director of the United States Patent and
Trademark Office oppose the motion.
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The motion to vacate and remand is granted.
The Patent Trial and Appeal Board’s decisions are vacated, and the cases are remanded to the Board for
proceedings consistent with this court’s decision in Arthrex.
(2) Each side shall bear its own costs.
FOR THE COURT
February 27, 2020
Date
s24

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
________________________
PROMPTU SYSTEMS CORPORATION,
Appellant
v.
COMCAST CABLE COMMUNICATIONS, LLC,
Appellee
ANDREI IANCU, Director, U.S. Patent and
Trademark Office,
Intervenor
________________________
2020-1253
________________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. CBM2018-00034.
________________________
ON MOTION
________________________
Before LOURIE, MOORE, and CHEN, Circuit Judges.
PER CURIAM.
ORDER

4a
Promptu Systems Corporation moves to vacate
the Patent Trial and Appeal Board’s decision and remand in light of Arthrex, Inc. v. Smith & Nephew, Inc.,
941 F.3d 1320 (Fed. Cir. 2019). Comcast Cable Communications, LLC and the Director of the United
States Patent and Trademark Office oppose.
Upon consideration thereof,
IT IS ORDERED THAT:
(1) The motion to vacate and remand is granted.
The Patent Trial and Appeal Board’s decision is vacated, and the case is remanded to the Board for proceedings consistent with this court’s decision in Arthrex.
(2) Each side shall bear its own costs.
FOR THE COURT
February 27, 2020
Date
s31

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

5a
APPENDIX C
UNITED STATES PATENT AND
TRADEMARK OFFICE
______________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
______________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORPORATION,
Patent Owner.
______________
Case IPR2018-00342
Patent RE44,326 E
______________
Before JAMESON LEE, ROBERT L. KINDER, and
ALEX S. YAP, Administrative Patent Judges
KINDER, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) AND 37 C.F.R. § 42.73

6a
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC.
(“Comcast”), filed a Petition (Paper 10, 1 “Pet.”) requesting an inter partes review of claims 1– 9, 11–19,
and 21 of U.S. Patent RE44,326 E (Ex. 1001, “the ’326
patent”). Patent Owner, Promptu Systems Corporation (“Promptu”), filed a Preliminary Response (Paper
12, “Prelim. Resp.”).
Pursuant to 35 U.S.C. § 314 and 37 C.F.R.
§ 42.4(a), we issued an Initial Decision (Paper 13,
“Dec.”) on July 19, 2018, instituting an inter partes review of all challenged claims (1–9, 11–19, and 21) of
the ’326 patent, based on all grounds raised in the Petition. Dec. 28. See also U.S. Patent and Trademark
Office, Guidance on the Impact of SAS on AIA Trial
Proceedings (Apr. 26, 2018) (“SAS Guidance”). 2
After institution of trial, Patent Owner filed a Patent Owner Response (Paper 22, “PO Resp.”), to which
Petitioner replied (Paper 31, “Pet. Reply”). Patent
Owner also filed a Sur-Reply (Paper 39, “PO Sur-Reply”).
Petitioner filed a Motion to Exclude evidence (Paper 38), which Patent Owner opposed (Paper 44),
which Petitioner replied (Paper 47). Petitioner’s Motion to Exclude is decided below.

On April 12, 2018, we granted Petitioner’s Unopposed Motion to Correct Petition (Paper 8). Paper 9. Our citations and
quotations are to the Corrected Petition – Paper 10.
1

Available at https://www.uspto.gov/patents-application-process/patent-trial-and-appeal-board/trials/guidance-impact-sasaia-trial.
2

7a
Oral argument was conducted on January 28,
2019, and the transcript of the hearing has been entered as Paper 52 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 318(a). After considering the evidence and arguments of both
parties, and for the reasons set forth below, we determine that Petitioner has shown, by a preponderance
of the evidence, that claims 1–9, 11–19, and 21 of the
’326 patent are unpatentable.
A. Related Matter
The ’326 patent is the subject of a pending civil
action, Promptu Systems Corp. v. Comcast Corp. and
Comcast Cable Communications, LLC, Case No. 2:16cv-06516 (E.D. Pa.). Patent Owner’s Mandatory Notices (Paper 4), 2. Petitioner filed a related petition
for inter partes review of the ’326 patent. Pet. viii; see
also IPR2018-00343. The final decision in IPR201800343 is being issued concurrently with this decision.
The Board also instituted trial of the ’326 patent in a
covered business method patent review on October 9,
2018. CBM2018-00034, Paper 9. Patent Owner also
identifies IPR2017-00344 and IPR2017-00345, as
challenging related U.S. Patent No. 7,047,196. Paper
4, 2.
B. The ’326 Patent
The ’326 patent, titled “System and Method of
Voice Recognition Near a Wireline Node of a Network
Supporting Cable Television and/or Video Delivery,”
was issued on June 25, 2013. Ex. 1001, [45]. It issued
as a reissued patent from U.S. Patent No. 7,685,523,
which issued on March 23, 2010. The ’326 patent was
filed on November 3, 2011, and claims benefit back to
U.S. Provisional Application No. 60/210,440 filed on
June 8, 2000. Id. at [21], [22], [60]. The ’326 patent

8a
relates to using a first network path to transfer speech
information to a speech recognition engine, which recognizes the speech information and effects information delivery to a second device via a second network path. See Ex. 1001, 50:23–44.
The ’326 patent describes a “method and system
of speech recognition presented by a back channel
from multiple user sites within a network supporting
cable television and/or video delivery.” Id. at Abstract. As noted below however, the claims of the ’326
patent do not require a back channel or address multiple user sites. According to the Specification, “a centralized wireline node refers to a network node providing video or cable television delivery to multiple users
using a wireline physical transport between those users at the node.” Id. at 2:8–11. The Specification
states that “the problems of voice recognition at a centralized wireline node in a network supporting video
delivery or cable television delivery have not been addressed by [the] prior art.” Id. at 2:5–8. The Specification describes how one embodiment of the invention
provides speech recognition services to a collection of
users over a network that supports cable television
and/or video delivery. Id. at 4:66–5:1. In addition,
“user identification based upon speech recognition is
provided over a cable television and/or video delivery
network.” Id. at 4:66–5:3.
Even though the specification relates to a centralized voice recognition system in some places, voice
recognition may occur at or near any node in the system: “This invention relates to voice recognition performed near a wireline node of a network supporting
cable television and/or video delivery.” Id. at 1:38–40
(emphases added). “A speech processor system may
be centrally located in or near a wireline node, which

9a
may include a Cable Television (CATV) central location.” Id. at 18:16–18 (emphasis added).
“User identification based upon speech recognition is provided over a cable television and/or video
delivery network.” Id. at 5:1–3. Figure 3 of the ’326
patent is reproduced below.

Figure 3 illustrates:
a remote control unit 1000 coupled 1002 to settop apparatus 1100, communicating via a twostage wireline communications system containing a wireline physical transport 1200
through a distributor node 1300, and through

10a
a high speed physical transport 1400, possessing various delivery points 1510 and entry
points 1512–1518 to a tightly coupled server
farm 3000, with one or more gateways 3100,
and one or more tightly coupled server arrays
3200[.]
Ex. 1001, 7:13–20.
Server farm 3000 includes a central “speech recognition processor system 3200” for processing speech
signals from user sites, such as from subscribers’ settop boxes. Id. at Fig. 3. In one example embodiment,
a set-top appliance 1100 may receive a wireless signal
1002 from remote 1000 and then re-modulate it for upstream transmission 1200 on a cable return path. Id.
at 11:10–13.
The disclosed invention may involve multiple user
sites and multiple channels: “The back channel is
from a multiplicity of user sites and is presented to a
speech processing system at the wireline node in the
network.” Id. at 22:2–4. At each user site, “[t]he
speech signal transmitted from a subscriber’s set-top
box, or set-top appliance, 1100[,] is received [at the]
1510 [entry points] by the five to 40 MHz data receiving equipment.” Id. at 12:14–17.
To begin the process of obtaining content through
a system such as that depicted in Figure 3 above, “[i]n
the subscriber’s premises, a speech-enabled remote
control [1000] may be employed, e.g. containing a microphone, as well as traditional universal remote control functionality.” Id. at 13:46–48. “The speech output may be wirelessly transmitted to a set[-]top pod,
module, or appliance located at the set-top box.” Id.
at 13:51–53. “The function of the set-top appliance
1100 may be to receive the RF signal from the remote

11a
control and then digitize and compress the speech signal and prepare it for upstream transmission.” Id. at
11:34–36. “The invention supports unidirectional
communication via coupling 1002, supporting communicative transfer from the remote 1000 via coupling
1002 to set-top apparatus 1100.” Id. at 26:13–15.
Regarding example content derived by using the
microphone, “[i]n . . . embodiments of the invention,
spoken commands from a cable subscriber are recognized and then acted upon to control the delivery of
entertainment and information services, such as
Video On Demand, Pay Per View, Channel control, online shopping, and the Internet.” Id. at 5:14–22.
C. Challenged Claims
Claims 1 and 12 are independent. Claim 1 is a
method claim “for speech directed information delivery, comprising” (id. at 50:23–27), and claim 12 is similarly directed to a “[a] method for speech directed information delivery” (id. at 52:29–30). Claims 2–9 and
11 depend directly or indirectly from claim 1, while
claims 13–19 and 21 depend directly or indirectly from
claim 12. Independent claim 1, reproduced below, is
illustrative of the challenged claims.
1. A method for speech directed information delivery, comprising:
receiving speech information at a first device,
wherein said first device is a wireless device;
transferring said speech information from
said first wireless device via a first network
path to a speech recognition engine; and

12a
at said speech recognition engine, recognizing
said speech information and effecting information delivery to a second device via a second
network path.
Ex. 1001, 50:23–44 (excluding text deleted in the reissue patent).
D. Evidence Relied Upon
Petitioner relies on the following references:
Exhibit

Reference

1012

United States Patent No. 5,774,859, issued June 30, 1998 (“Houser”).

1016

United States Patent No. 5,477,262, issued December 19, 1995 (“Banker”).

1017

United States Patent No. 6,314,573 B1,
issued November 6, 2001 (“Gordon”).

1018

United States Patent No. 5,500,691, issued March 19, 1996 (“Martin”).

1019

United States Patent No. 5,663,756, issued September 2, 1997 (“Blahut”).

Pet. 3. Petitioner also relies on the Declarations of
Christopher Schmandt (Ex. 1023, “Schmandt Declaration”; Ex. 1033, “Schmandt Reply Declaration”), and
on the Declaration of Winston Liaw (Ex. 1022, “Liaw
Declaration”). Patent Owner relies on the Declaration
of David Chaiken (Ex. 2032, “Chaiken Declaration”)
and the Declaration of Paul Cook (Ex. 2042, “Cook
Declaration”). Below, we provide an overview of each
reference relied upon by Petitioner.

13a
1. Houser (Ex. 1012)
Houser describes a “system for controlling a device such as a television and for controlling access to
broadcast information such as video, audio, and/or
text information.” Ex. 1012, Abstract. Figure 1 of
Houser is reproduced below.

Figure 1 of Houser “is a generalized block diagram of
an information system in accordance with” the
claimed invention. Ex. 1012, 4:60–61. A remote control, which includes a microphone, captures “sounds
and words spoken by a user” and transmits the sound
data signals to terminal unit 16. Id. at 6:33–7:24.
“Terminal unit 16 includes a processor for executing a
speech recognition algorithm . . . to recognize, for example, commands for controlling device 18 or commands for accessing information transmitted by information distribution center 12.” Id. at 5:62–67. The

14a
information is then retrieved from “information distribution center 12[,] which receives information from
one or more remotely located information providers
14-1, . . . 14-n[,] and supplies or broadcasts this information to a terminal unit 16.” Id. at 5:39–44. “Terminal unit 16 then [] generates a command for controlling device 18.” Id. at 5:67–6:2. “Device 18 may be
any device [that] is capable of being operated in response to user supplied commands.” Id. at 7:27–29.
2. Banker (Ex. 1016)
Banker describes an apparatus “for providing a
user friendly interface to a subscription television terminal.” Ex. 1016, Abstract. Banker describes a number of user interface features such as “messaging,” establishing a favorite channel list, “pay-per-view,”
“program timing,” and “terminal control.” Id.; see also
id. at 4:1–5, 16–18. Figures 6E and 6F of Banker are
reproduced below.

15a

Figures 6E and 6F illustrate a sequence of screens a
user would navigate through in order to purchase a
pay-per-view event. Id. at 16:54–17:3. Banker also
discusses how customers can be billed for using the
subscription television terminal. See id. at 7:58–8:3,
12:1–15.
3. Gordon (Ex. 1017)
Gordon describes a “method and apparatus for
providing subscription-on-demand (SOD) services for
a[n] interactive information distribution system,
where a consumer may subscribe to packages of ondemand programs for a single price[.]” Ex. 1017, Abstract. Figure 8 of Gordon is reproduced below.

Figure 8 of Gordon shows “a menu that allows a consumer to subscribe to a selected subscription-on-demand service.” Id. at 3:40–41. According to Gordon,
“through manipulation of the menus, the consumer

16a
[can] select[] a programming package [and] become[]
a subscriber to that package and [will be] billed accordingly.” Id. at 2:61–63.
4. Martin (Ex. 1018)
Martin is titled “Remote Control Identifier Setup
in a Video System Having Both IR and RF Transmitters,” and it describes “[a] video system . . . including
a receiver that generates a remote identifier setup display on a television monitor and further including a
remote control unit having a radio frequency transmitter and an infrared transmitter.” Ex. 1018, [57],
Abstract. Petitioner relies on Martin for its teaching
of remote control devices that transmit identifiers.
See Pet. 45 (analysis of claims 11 and 21). As explained by Martin, “[t]he video system enables a user
to enter a remote control identifier for the radio frequency transmitter through the remote identifier
setup display using the infrared transmitter.” Ex.
1018, Abstract.
5. Blahut (Ex. 1019)
Blahut is titled “Restricted Access Remote Control
Unit,” and it describes a “device for restricting access
to certain programs.” Exhibit 1019, [54], Abstract.
Blahut describes the use of remote control units
(“RCUs”), as well as RCUs that may be used in an interactive television environment. Id. at 1:8–11. Petitioner relies on Blahut for its teaching of remote control devices that transmit identifiers. See Pet. 45
(analysis of claims 11 and 21).
E. Instituted Grounds of Unpatentability
Petitioner challenges claims 1–9, 11–19, and 21 of
the ’326 patent based on the asserted grounds of unpatentability set forth in the following table. Pet. 3–
4, 14–67.

17a
Asserted Grounds
Basis 3

Reference(s)

Claims
Challenged

Houser

§ 103(a) 1–7 and 12–17 4

Houser and Banker or
Gordon

§ 103(a)

8, 9, 18, and 19

Houser and Martin or
Blahut

§ 103(a)

11 and 21

We instituted inter partes review of claims 1–9, 11–19,
and 21 on all grounds set forth in the above table for
these claims. Dec. 28.
II. ANALYSIS
A. Level of Ordinary Skill in the Art
In determining the level of ordinary skill in the
art, various factors may be considered, including the
“type of problems encountered in the art; prior art solutions to those problems; rapidity with which innovations are made; sophistication of the technology; and
educational level of active workers in the field.” In re

The relevant section of the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112–29, took effect on March 16, 2013. Because the application from which the ’326 patent issued was filed
before that date, the pre-AIA statutory framework applies.
3

The Petition states at page 3 that “[a]ll challenged claims
(i.e., claims 1-9, 11-19, and 21) are unpatentable as obvious over
Houser (Ex. 1012) alone,” but at page 18, and thereafter, the Petition only challenges claims 1–7 and 12–17 as obvious based on
Houser alone. We read the Petition as challenging only claims
1–7 and 12–17 based on Houser alone. This is the same position
taken in the Decision instituting trial. Dec. 12.
4

18a
GPAC, Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995) (citation omitted). In that regard, Petitioner and Mr.
Schmandt contend that a person of ordinary skill in
the relevant art would have:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least three years of
professional work experience in the field of
multi-media systems including in particular
speech recognition and control technologies;
or (ii) an advanced degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least one year of
post-graduate research or work experience in
the field of multi-media systems including in
particular speech recognition and control
technologies.
Pet. 8–9 (emphases added) (citing Ex. 1023 ¶¶ 81–83).
Patent Owner does not propose an alternative definition nor does Patent Owner respond to Petitioner’s
proposal. See generally PO Resp.
Based on the final record, we adopt, with modification (e.g., removal of the qualifier “at least,” which
broadens ordinary skill to include expert level
knowledge and skill), Petitioner’s definition of a person of ordinary skill in the art:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and three years of professional work experience in the field of multimedia systems including in particular speech
recognition and control technologies; or

19a
(ii) [a Master’s of Science] degree (or equivalent) in electrical engineering, computer science, or a comparable subject and []one year
of post-graduate research or work experience
in the field of multi-media systems including
in particular speech recognition and control
technologies.
We further note that the prior art in the instant proceeding reflects the level of ordinary skill in the art at
the time of the invention. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001). For example, as
reflected in Houser, a person of ordinary skill in the
art would have familiarity with decreasing the complexity of user interfaces by “add[ing] a speech recognition interface to a subscriber terminal unit in an information system for implementing spoken control of
electronic devices at the subscriber location.” See Ex.
1012, 1:59–2:16, 2:19–23.
B. Claim Construction
In an inter partes review based on a petition filed
prior to November 13, 2018, claim terms in an unexpired patent are given their broadest reasonable construction in light of the specification of the patent in
which they appear. See 37 C.F.R. § 42.100(b) (2017);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016) (upholding the use of the broadest reasonable interpretation standard as the claim construction standard to be applied in an inter partes review proceeding). Under the broadest reasonable interpretation standard, 5 claim terms generally are
The claim construction standard to be employed in an inter
partes review recently has changed. See Changes to the Claim
Construction Standard for Interpreting Claims in Trial Proceedings Before the Patent Trial and Appeal Board, 83 Fed. Reg.
5

20a
given their ordinary and customary meaning as would
be understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Petitioner proposes constructions for two terms:
“speech recognition engine” and “STB.” Pet. 9–11. Patent Owner argues that “[t]he Board need not construe either of these terms because construction is unnecessary to resolve to dispute between the parties.”
PO Resp. 8. We agree that the claim construction of
these two terms is not necessary to resolve the current
dispute.
Patent Owner instead proposes that one other
term—“network path”—“must be construed to resolve
the dispute between the parties.” Id. We agree. Patent Owner argues that “network path” should be construed as a physical route through which data is
transmitted from a source to a destination. Id. at 11.
Patent Owner notes that this was a “compromise” definition agreed to by the parties in district court litigation. Id. (citing Ex. 2039, 23). As discussed below, we
agree with this “compromise” definition. Petitioner
notes that adopting Patent Owner’s construction does
not change the result. See Pet. Reply 3 (“Nevertheless, even under Patent Owner’s proposed construction, the prior art discloses the same ‘first network
path’ and ‘second network path.’ Schmandt Reply
Decl. ¶ 5.”).
The main claim construction issue arises in Patent Owner’s attempt to differentiate the asserted
51,340 (Nov. 13, 2018) (codified at 37 C.F.R. pt. 42). That new
standard, however, applies only to proceedings in which the petition is filed on or after November 13, 2018. This Petition was
filed on December 19, 2017.

21a
prior art from the claimed invention. Thus, examining the term “network path” requires not just consideration of the arguments made by Patent Owner in its
claim construction section, but also a consideration of
the arguments made to differentiate the prior art. A
point of contention between the parties is that Patent
Owner additionally argues that the “network path”
must have two nodes. For instance, Patent Owner argues a “network path” also requires a path or physical
route between two nodes within a network. PO Resp.
8, 14–15. Patent Owner then adds an additional requirement, arguing that a “node” must be a device
that can both send and receive messages. Id. at 15.
Based on the final record before us, we do not agree
with Patent Owner that a network path must have
nodes that can both send and receive messages.
Petitioner argues that the “broadest reasonable
interpretation of the claim term ‘network path’ in
light of the specification is simply a path that a signal
takes through a network of devices.” Pet. Reply 2 (citing Ex. 1033 ¶ 4). Petitioner contends that the “compromise” definition adopted in the related district
court proceeding should not be adopted. Id. Petitioner then argues, that
[n]evertheless, even under Patent
Owner’s proposed construction, the prior art
discloses the same “first network path” and
“second network path.” Schmandt Reply Decl.
¶ 5. Patent Owner’s proposed construction of
“network path” is a “physical route through
which data is transmitted from [a] source to
[a] destination,” which a person of ordinary
skill in the art would understand to include
the network paths Petitioner identified in

22a
Houser. Id.; Schmandt Decl. ¶¶ 136, 140–145
(Ex. 1023).
Id. at 3. As addressed more below, we agree with Petitioner that Patent Owner’s proposed construction
does not change the result here—the challenged
claims are invalid in view of the prior art under either
proposed definition of “network path.”
The main dispute, as noted above, is not with Patent Owner’s basic proposed claim construction for
“network path”—a physical route through which data
is transmitted from a source to a destination—but instead with Patent Owner’s additional proposals that
further restrict this limitation. See PO Resp. 11 (citing Ex. 2039, 20). In its analysis of the prior art, Patent Owner further requires that a “network path”
must consist of “(1) a ‘path’ or physical route of travel
between two nodes (2) within a ‘network.’” Id. at 14–
15. Patent Owner then argues that Houser’s wireless
remote cannot be a node on the network because it
“cannot ‘receive[] messages from the network and . . .
put messages on the network,’ . . . and thus cannot be
a node.” Id. at 15 (citing Ex. 2034); PO Sur-Reply 1.
We disagree with this last point of contention.
We have considered the intrinsic evidence and
find no support in the Specification for requiring every
node to be capable of both receiving and sending messages on the network. First, we agree with Mr.
Schmandt that a skilled artisan would have known
that a “physical” route in a network includes both
wireline connections (e.g., signals traveling through
wire) and wireless connections (e.g., signals traveling
through air). Ex. 1033 ¶ 7; see also Ex. 1001, Fig. 3
(illustrating the signal path from the user through the
network and ultimately to the voice recognition processors), 9:42–51, 10:16–22. Second, the word “node”

23a
does not appear in the challenged claims of the ’362
patent. Third, even if nodes were required, the Specification reveals that the wireless connection between
the remote and set-top box can be bi-directional or
“strictly from remote control 1000 to set-top box or appliance 1100.” Ex. 1001, 10:63–67; see also id. at
26:13–15 (“The invention supports unidirectional
communication via coupling 1002, supporting communicative transfer from the remote 1000 via coupling
1002 to set-top apparatus 1100.” (emphasis added)),
28:36–41 (a node “may also support bi-directional
communication” but does not otherwise suggest that
such a requirement would be necessary in all situations).
Mr. Schmandt’s clarifying testimony is also persuasive.
Patent Owner’s argument appears to interpret my testimony to define a “node” as
something that both puts messages on the
network and also receives messages from the
network. In my opinion, that is not a reasonable reading of my testimony particularly in
light of my explanation that a network includes nodes that are endpoints. In the context of the ’326 Patent and the cited prior art,
such end points include the television remote
control and the television (i.e., nodes with only
one path into it).
Ex. 1033 ¶ 14. We agree with Mr. Schmandt that
nothing in the record limits a node to a device that
both sends and receives messages because “[a] person
of ordinary skill in the art would understand that a
‘network’ includes unidirectional nodes (i.e., nodes
that send or receive messages but not both).” Id. ¶ 16.

24a
Accordingly, we agree with Patent Owner that a
“network path” means a physical route through which
data is transmitted from a source to a destination. We
do not agree with Patent Owner that a “network path”
also requires nodes that both send and receive messages. Based on our review of the final record before
us, we determine that no additional claim terms require express construction to resolve the controversy.
See Nidec Motor Corp. v. Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017); Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795,
803 (Fed. Cir. 1999) (holding that only claim terms
that “are in controversy” need to be construed and
“only to the extent necessary to resolve the controversy”).
C. Obviousness
1. General Principles
A claim is unpatentable under § 103(a) if the differences between the claimed subject matter “and the
prior art are such that the subject matter, as a whole,
would have been obvious at the time the invention
was made to a person having ordinary skill in the art
to which said subject matter pertains.” KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the
level of skill in the art; and (4) when in evidence, objective indicia of non-obviousness (i.e., secondary considerations). Graham v. John Deere Co., 383 U.S. 1,
17– 18 (1966).
An invention “composed of several elements is not
proved obvious merely by demonstrating that each of

25a
its elements was, independently, known in the prior
art.” KSR, 550 U.S. at 418. Rather, to establish obviousness, it is petitioner’s “burden to demonstrate both
that a skilled artisan would have been motivated to
combine the teachings of the prior art references to
achieve the claimed invention, and that the skilled artisan would have had a reasonable expectation of success in doing so.” In re Magnum Oil Tools Int’l, Ltd.,
829 F.3d 1364, 1381 (Fed. Cir. 2016) (quotations omitted); see KSR, 550 U.S. at 418. Moreover, a petitioner
cannot satisfy this burden by “employ[ing] mere conclusory statements” and “must instead articulate specific reasoning, based on evidence of record” to support
an obviousness determination. Magnum Oil, 829 F.3d
at 1380. Stated differently, there must be “articulated
reasoning with some rational underpinning to support
the legal conclusion of obviousness.” KSR, 550 U.S. at
418 (quoting In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006)). The “factual inquiry” into the reasons for
“combin[ing] references must be thorough and searching, and [t]he need for specificity pervades . . . .” In re
NuVasive, Inc., 842 F.3d 1376, 1381–82 (Fed. Cir.
2016) (quotations omitted). We analyze the asserted
grounds with these principles in mind.
2. Obviousness Ground Based on Houser Alone
Petitioner contends that claims 1–7 and 12–17 are
unpatentable over Houser under 35 U.S.C. § 103(a),
relying on the supporting testimony of Mr. Schmandt.
Pet. 18–23 (citing Ex. 1023). For the reasons set forth
above and below, Petitioner’s explanations and evidence establish by a preponderance of the evidence
that claims 1–7 and 12–17 would have been unpatentable pursuant to this ground. We begin our analysis
with an overview of the parties’ contentions related to
independent claims 1 and 12, followed by our analysis

26a
for claims 1 and 12. We then address the parties’ contentions related to the remaining claims, followed by
our analysis.
i. Petitioner’s Challenge (Claims 1 and 12)
In challenging the claims, Petitioner submits that
“Houser discloses a method for speech directed information delivery.” Pet. 18 (quoting Ex. 1012, Abstract,
1:6–11, 2:19–23). Petitioner quotes Houser’s disclosure of “[t]he present invention adds a speech recognition interface to a subscriber terminal unit in an
information system for implementing spoken control
of electronic devices at the subscriber location and of
access to information transmitted to the subscriber terminal unit.” Id. (quoting with emphasis
added, Ex. 1012, 2:19–23).
Petitioner identifies claim 1’s “receiving speech information at a first device, wherein said first device is
a wireless device,” as being taught by Houser’s “disclos[ure of] a wireless remote control with a microphone for receiving spoken commands.” Id. (quoting
Ex. 1012, 4:16–25). According to Petitioner, “Houser’s
remote control constitutes the ‘first device’ recited in
claim 1,” and the remote control includes a transmitter for transmitting the spoken sounds or words to
subscriber terminal unit using radio frequency transmission. Id. at 19.
Claim 1 next requires “transferring said speech
information from said first wireless device via a first
network path to a speech recognition engine.” Petitioner contends that “Houser discloses an embodiment
in which voice recognition processing is performed at
a remote network node (e.g., a remote server),” and
within “this embodiment, the user’s speech commands

27a
are transmitted from the remote control (‘first wireless device’) to the terminal unit and then to ‘node 517’
for processing by speech recognition circuitry.” Pet.
20 (citing Ex. 1012, 33:49–67, Fig. 15; Ex. 1023
¶¶ 136–137).
Relying on the testimony of Mr.
Schmandt, Petitioner reasons that “[a] person of ordinary skill in the art would understand that the extensive discussion of speech recognition in Houser would
apply equally to speech recognition carried out at the
remote node (i.e., node 517),” and, as such, “the speech
recognition circuitry at node 517 constitutes a ‘speech
recognition engine’ as recited in the claim.” Id. (citing
Ex. 1023 ¶ 137).
To illustrate this position, Petitioner submits an
annotated version of Houser’s Figure 15 (id. at 21),
which we reproduce below:

House Fig. 15 (annotated)
Petitioner’s annotated Figure 15 (Pet. 21) depicts a
first wireless device and first network path. Petitioner identifies the network path disclosed by Houser
from the remote control through the terminal unit and
then to node 517 (with the “speech recognition engine”) as teaching the claimed “first network path.”

28a
Pet. 21 (citing Ex. 1023 ¶ 136). Mr. Schmandt identifies the first network path as depicted above and the
claimed speech recognition engine as the speech
recognition circuitry described in Houser. Ex. 1023
¶ 136 (citing Ex. 1012, 33:49–67).
In its Reply, Petitioner argues again that Houser
discloses a first network path because “the user’s
speech commands are transmitted from the remote
control (‘first wireless device’) to the terminal unit and
then to ‘node 517’ for processing by speech recognition
circuitry.” Pet. Reply 5 (citing Ex. 1012, 33:56–61).
Petitioner disagrees with Patent Owner’s assessment
that the transmission source is terminal 519, not the
remote. Id. at 6. Instead, according to Petitioner,
“Houser discloses a ‘remote control’ that includes a
‘conventional wireless microphone’ and a ‘transmitter’
for transmitting spoken words to the ‘subscriber terminal unit.’ Houser at 15:19-24, Fig. 4 (illustrating
the voice remote control transmitting to the set-top
box).” Id. Petitioner also points to a description in
Houser “in which ‘[s]ound or spoken words are received by a subscriber terminal unit’ and then ‘transmitted from subscriber terminal unit 519 to node 517
which includes speech recognition circuitry.’” Id. (citing Ex. 1012, 33:55–61, Fig. 15). “Thus,” according to
Petitioner, “the remote control is the source of the
voice data and node 517 is the destination,” and “[t]he
path between them . . . is the ‘first network path’ even
under Patent Owner’s proposed construction.” Id.
Petitioner next argues in Reply that Houser’s
wireless remote need not be considered a node on the
network, because “the word ‘node’ does not appear in
any of the challenged claims or even in Patent
Owner’s proposed construction of ‘network path.’” Id.

29a
at 7. Petitioner points out that Patent Owner attempts “to make ‘node’ relevant to ‘first network path’
by citing a proposed construction from related litigation that includes the word ‘node’— a proposal that
Patent Owner itself opposed and that was never
agreed to or adopted.” Id. Petitioner further contends
that “[t]here is simply no basis to apply Patent
Owner’s unreasonable alternative construction of a
‘network path,’ which excludes any device that does
not both transmit and receive messages.” Id. Petitioner relies on the testimony of Mr. Schmandt, who
testifies “that a network includes nodes that are endpoints,” such as “the television remote control and the
television.” Ex. 1033 ¶ 14. Mr. Schmandt similarly
testifies that
I certainly do not understand, and one of ordinary skill in the art would not understand,
that a node is limited to a device that both
sends and receives messages, and I did not interpret the term “network path” in the challenged claims to exclude devices that cannot
both send and receive messages. It would be
unreasonable to impose such a limitation. A
person of ordinary skill in the art would understand that a “network” includes unidirectional nodes (i.e., nodes that send or receive
messages but not both). For example, a person of ordinary skill in the art would understand televisions in a broadcast television network to be network nodes (i.e., part of the network) though they only receive television signals. Similarly, a person of ordinary skill in
the art would understand that video cameras
are part of a security network though they
only transmit data to the central location.

30a
Id. ¶ 16; Pet. Reply 8. As explained more below, we
find Mr. Schmandt’s testimony as to this issue persuasive.
Petitioner also relies on the Specification of the
’326 patent, “which states that the wireless connection
between the remote and set-top box can be bi-directional or ‘strictly from remote control 1000 to set-top
box or appliance 1100.’” Pet. Reply 8 (quoting Ex.
1001, 10:63–67). “Thus,” according to Petitioner, “the
remote is in the ‘first network path’ even though it can
be a unidirectional device.” Id.
As for claim 1’s additional requirement of “recognizing said speech information and effecting information delivery to a second device via a second network path,” Petitioner identifies Houser’s recognition
of speech commands using speech recognition circuitry (“speech recognition engine”) at network node
517. Pet. 21 (quoting Ex. 1012, 33:56–61). Petitioner
identifies “controlled device 521” as the claimed second device, and further provides annotated Figure 15
below to identify the second network path.

Houser Fig. 15 (annotated)
Petitioner’s annotated Figure 15 (Pet. 22) depicts a
highlighted second network path leading to device
521, which Petitioner identifies as the claimed second

31a
device. Relying on the testimony of Mr. Schmandt,
Petitioner identifies the second network path as the
path from node 517 through terminal unit 519 to controlled device 521. Pet. 22 (citing Ex. 1023 ¶ 140). Mr.
Schmandt testifies that a person of ordinary skill in
the art would have recognized that “Houser discloses
transmitting commands (‘effecting information delivery’) from node 517 to controlled device 521 (‘second
device’)” because Houser describes “that once the
speech recognition circuitry generates ‘commands according to the sounds or spoken words,’ ‘[n]ode 517
transmits the command(s) to controlled device 521 via
subscriber terminal unit 519 to controlled device
521.’” Id.; Ex. 1023 ¶ 140 (quoting Ex. 1012, 33:56–
53).
In its Reply, Petitioner again stresses that nothing prevents Houser’s device 521 from being the
claimed second device because unidirectional devices
are not excluded from the proper definition of a network. Pet. Reply 10. Petitioner reiterates that “Patent Owner’s unreasonably narrow definition of ‘network’ is not consistent with the understanding of a
person of ordinary skill in the art and is contradicted
by the ’326 Patent and Patent Owner’s own evidence.”
Id. (citing Ex. 1033 ¶¶ 12–16).
Petitioner, and Mr. Schmandt, alternatively contend that “the claimed second device could also be terminal unit 519,” wherein “the second network path
would be the path from node 517 to terminal unit
519,” “because node 517 transmits the recognized
commands to device 521 ‘via subscriber terminal unit
519,’” as disclosed by Houser. Ex. 1023 ¶ 141. Mr.
Schmandt also testifies that “the second device could
be the combination of the subscriber terminal unit
and the device (e.g., set-top box and television), in

32a
which case the second network path would be the path
from node 517 to the combination of terminal unit 519
and controlled device 521.” Id.
Petitioner also contends that in addition to the
“second network path” examples illustrated above, an
alternative “second network path” exists in Houser
from “information distribution center 515” (source) to
“device 521” (destination). Pet. 22–23; Pet. Reply 10
(citing Ex. 1023 ¶¶ 142–143; Ex. 1033 ¶ 5). Petitioner
focuses on the claim language, noting that the challenged claims require “effecting information delivery
to a second device via a second network path.” Pet.
Reply 10 (quoting Ex. 1001, 50:43–44 (claim 1), 52:48–
49 (claim 12)). Thus, according to Petitioner, “[e]ven
if all channels are broadcast from the information distribution center, it is the user’s voice command that
causes the subscriber unit to tune to a particular
channel thereby ‘effecting information delivery to a
second device’ such as a television or video-recorder.”
Id. (citing Ex. 1023 ¶¶ 143–144). Petitioner further
explains that Houser “states that ‘pay-per-view programming’ can be requested by voice command—
again, ‘effecting information delivery to a second device’ (e.g., television).” Id. at 10–11 (quoting Ex. 1012,
32:12– 36).
Claim 12 is similar in scope to claim 1, in that
claim 12 requires “[a] method for speech directed information delivery,” and an identical “receiving
speech” step. See Pet. 29; Ex. 1001, 50:29–54. The
“transferring” step of claim 12 is nearly identical to
the “transferring” step of claim 1, with only one difference being that claim 12 states that the speech information is transferred from the first device “in an unrecognized state.” Pet. 29; Ex. 1001, 50:29–54. Petitioner relies on Houser’s remote node embodiment,

33a
wherein “the voice command is transmitted to node
517 for speech recognition processing.” Pet. 29 (citing
Ex. 1012, 33:56–61, 5:62– 67, 15:7–18, 15:29–34,
15:42–46, 16:47–50, 16:58–17:7, 17:8–15). “Thus,” according to Petitioner, “Houser discloses ‘transferring
said speech information in an unrecognized state.’”
Id. (citing Ex. 1023 ¶ 123).
The “recognizing” limitations of claim 12 overlap
substantially with the same limitations of claim 1.
“The only difference is that claim 12 recites that the
second device ‘is capable of displaying electronically
coded and propagated moving or still images and playing electronically coded and propagated audio.’” Id. at
30. Petitioner relies on Houser’s disclosure of a television for the “second device,” or controlled device. Id.
(citing Ex. 1012, 7:30–33). Relying on the testimony
of Mr. Schmandt, Petitioner reasons that “[a] person
of ordinary skill in the art would have known that a
television, in the subscriber television network of
Houser, was ‘capable of displaying electronically
coded and propagated moving or still images and playing electronically coded and propagated audio.’” Id.
(quoting Ex. 1023 ¶ 178). Patent Owner does not challenge these unique limitations found in claim 12, and
we find persuasive Petitioner’s argument and evidence for these claim 12 limitations.
As explained below, we find Petitioner’s contentions persuasive, notwithstanding Patent Owner’s arguments set forth, and addressed, below.
ii. Patent Owner’s Argument (Claims 1 and 12)
Patent Owner presents arguments in contesting
Petitioner’s challenge to claims 1 and 12. PO Resp.
12–19. In particular, Patent Owner first argues that

34a
elements of Petitioner’s proposed first and second network paths “are outside of the network.” Id. at 12.
More specifically, Patent Owner contends that
Houser’s “remote” (first wireless device) is actually
“outside the network” and Petitioner fails to identify
any “disclosure of the remote being inside the network.” Id. at 12–13. Patent Owner further alleges
that “Houser discloses that the transmission source is
the terminal 519, not the remote.” Id. at 13 (citing Ex.
1012, 33:56–57). Thus, Patent Owner argues that
Houser’s physical route for transmitting data from a
source to a destination, “is the physical route connecting terminal unit 519 (the source) to node 517 (the
destination).” Id.
In its Sur-Reply, Patent Owner further argues
that the remote and controlled device 521 of Houser
are not part of a network path because these devices
are not nodes on a communication network. PO SurReply 4–6. Patent Owner analogizes that although a
keyboard can input text into an email and a monitor
is capable of displaying this information, neither device would be considered part of the network. Id. at 4.
According to Patent Owner, “the terminal unit itself
performs the speech recognition,” and “[t]hus, the audio signal from the remote never goes beyond the terminal unit and onto the network.” Id. at 5 (citing Ex.
1012, 15:41–46). Patent Owner further contends, “in
Houser, it is the subscriber terminal unit, not the remote, that is the endpoint on the network.” Id. at 6.
Second, Patent Owner argues that the device 521
is outside the network and thus not part of a second
network path as required by claims 1 and 12. PO
Resp. 13–14 (“Petitioner points to no disclosure of element 521 (e.g., the television) being included on the
network. Indeed, Houser discloses that node 517 has

35a
connections with terminal units like 519, not the device 521.”) (internal citations omitted). Patent Owner
contends that Houser’s physical route for transmitting data from a source to a destination, “is the physical route connecting node 517 (the source) to terminal
unit 519 (the destination).” Id. at 14. Patent Owner
contends that a network path must be a path or physical route of travel between two nodes within a network as Petitioner purportedly advocated in claim
construction briefing before the district court. Id. at
14–15. According to Patent Owner, “Houser only discloses that terminal unit 519, not the wireless remote
or device 521, is connected to node 517 and can receive
messages and put messages on the network.” Id. at
15 (citing Ex. 1012, 33:60–67. In its Sur-Reply, Patent
Owner contends “that the terminal unit 519 is the
endpoint of the network.” PO Sur-Reply 8.
Patent Owner additionally argues that “the petition fails to establish the wireless remote is a node on
the network,” because in the description of the Figure
4 embodiment, “the remote only sends the analog signal, which the terminal unit must then convert to digital.” PO Resp. 15 (citing Ex. 1012, 15:19–29). “[Because] the remote only has transmission and not reception capabilities,” Patent Owner argues that “it
clearly cannot ‘receive[] messages from the network
and . . . put messages on the network,’ Ex. 2034 at
32:17-19, and thus cannot be a node under
Schmandt’s definition.” PO Resp. 15. With respect to
device 521, Patent Owner makes a similar argument
that device 521 is not “a node on the network” because
device 521 does not receive and put messages on the
network. Id. at 16.

36a
Patent Owner further argues that Houser does
not disclose using recognized speech to deliver information from the information distribution center to the
controlled device because “Houser” instead “discloses
changing which broadcast content the controlled device is tuned to.” PO Resp. 18. Patent Owner similarly argues that “all broadcast content is available to
all subscriber terminal units” and that “nothing done
by the subscriber units in any way impacts what content the information distribution center delivers.” Id.
at 19. Thus, Patent Owner concludes that “the petition fails to establish that ‘Houser also discloses using
the recognized speech to deliver information from the
information distribution center to the controlled device.’” Id.
iii. Secondary Considerations
Patent Owner’s Contentions
Patent Owner contends that “several objective indicia based on the success and acclaim of an AgileTV
system embodying the invention of the ’326 patent
provide compelling additional evidence that the challenged claims were nonobvious.” PO Resp. 23. Patent
Owner relies on the purported success of AgileTV’s
(the assignee of the ’326 patent) system using “a voiceenabled search and navigation solution for the cable
industry.” Id.
Citing the Chaiken Declaration, Patent Owner
first alleges that the AgileTV system embodies the invention disclosed and claimed in the ’326 patent. Id.
at 25 (citing Ex. 2032 ¶¶ 8–16). Mr. Chaiken testifies
that “[t]he embodiments described in the ’326 patent
describe the foundations of the design of the AgileTV
solution,” and “[t]he ’326 patent describes the initial

37a
architecture of the AgileTV solution, which was subsequently extended and improved by AgileTV.” Ex.
2032 ¶ 14. Patent Owner also contends that “[t]he
specification of the ’326 patent further describes the
AgileTV solution at the time of the ’326 patent, including the AgileTV Speech Processor, the AgileTV Voice
Processing Unit (AVPU), and a similar depiction of
the system architecture.” PO Resp. 26.
Patent Owner alleges that “[u]nlike existing
speech recognition methods and systems, the ’326 patent teaches using a first network path to transfer
speech information to a speech recognition engine,
which recognizes the speech information and effects
information delivery via a second network path.” Id.
(citing Ex. 1001, 22:8–12, 23:63–24:3). According to
Patent Owner, “the evidence of objective indicia of
nonobviousness similarly relates to these same features of the AgileTV system that were used to provide
voice recognition processing for users in a cable television network.” Id. Patent Owner contends “[t]he
success and industry praise of the AgileTV system
was the direct result of AgileTV having successfully
implemented the claimed invention to provide voice
recognition processing for multiple users in a cable
television network.” Id. at 28. Thus, Patent Owner
asserts a nexus exists between the AgileTV systems
and the claimed invention.
Patent Owner next claims that “[t]here was a
long-felt but unmet need for using voice recognition in
cable systems, and the AgileTV system successfully
satisfied this need in Comcast’s own network.” Id.
(emphasis omitted). According to Patent Owner,
there was an unmet need for using voice recognition
in cable systems, and “[p]revious tools for navigating
the large amounts of content in cable systems were

38a
unwieldy and impractical.” Id. (citing Ex. 2032 ¶¶ 6–
8). Patent Owner alleges that “prior to AgileTV’s solution, no one had provided voice recognition processing for multiple users in a cable television network using an architecture including the claimed invention of the ’326 patent.” PO Resp. 29. Patent
Owner alleges that the AgileTV system satisfied the
long-felt but unmet need and was successfully implemented, such as through demonstrations and field trials in Comcast’s cable network system and for other
potential customers. Patent Owner’s evidence in support of this contention consists of citation to Mr.
Chaiken’s Declaration and to a 2005 online article
(Ex. 2040), which states that AgileTV was “the first
company to bring voice-activated remotes and program guide[s] to market.” Id. (quoting Ex. 2040 (Hey,
Remote: Find ‘Seinfeld’, Steve Donahue, (dated Jan.
23, 2005))).
Patent Owner next contends that “[t]he AgileTV
system was widely praised within the industry because it provided advantages that previously were unavailable.” PO Resp. 30 (emphasis omitted) (citing Ex.
2032 ¶¶ 17–25). Patent Owner points to AgileTV’s alleged “Most Innovative Solution Award” from Speech
Technology Magazine. Id. (citing Ex. 2009, 3). Exhibit 2009, discussed in more detail below in relation
to Petitioner’s Motion to Exclude, is an internal email
purporting to be a communication related to a potential AgileTV press release discussing the “Most Innovative Solution Award.” See Ex. 2009, 1 (“first draft
of the AgileTV Speech Technology award press release”).
Patent Owner also cites the appearance of AgileTV’s former CEO (Paul Cook) and CTO (Harry
Printz) to the Kudlow & Cramer television show on

39a
CNBC in 2004 to talk about the AgileTV solution and
to demonstrate the technology. PO Resp. 30 (citing
Ex. 2032 ¶ 23; Ex. 2018; Ex. 2019). Patent Owner also
relies on “[a] study of Comcast by the Buckingham Research Group in May 2005.” Id. at 31 (citing Ex. 2032
¶ 24; Ex. 2020, 7).
Patent Owner also alleges that Comcast praised
the AgileTV system. PO Resp. 31. Patent Owner
points to a request by Comcast to deploy AgileTV’s
“voice recognition solution into portions of Comcast’s
cable network,” and Comcast further allegedly “requested AgileTV to demonstrate its solution for Comcast’s management and even Senators.” Id. (citing Ex.
2032 ¶¶ 19–21; Ex. 2011; Ex. 2012; Ex. 2013; Ex.
2014). Patent Owner further contends that “Comcast
expressed an intent to invest in AgileTV and deploy
the AgileTV solution for Comcast’s 21 million subscribers.” Id. at 32 (citing Ex. 2032 ¶ 21; Ex. 2015).
Patent Owner also relies on a license agreement with
Comcast, claiming “that Comcast itself previously licensed the AgileTV solution, including rights to what
is now the ’326 Patent.” Id. at 33 (citing Ex. 2032 ¶ 27;
Ex. 2022 (“License and Development Agreement”); Ex.
2023 (“Marketing Trial Agreement for Voice Activated
Television Control Service”). The agreements provide
Comcast with rights to use the AgileTV solution internally and to run trials of the system. Id. at 33–34.
Patent Owner presents evidence that the AgileTV solution was tested by Comcast, with test market households receiving “a voice-activated remote, the
Promptu receiver, an installation DVD, quick start
guide, user’s guide, and voice reference card.” Id. at
34 (citing Ex. 2032 ¶¶ 31–32; Exs. 2026–2029).
Patent Owner claims that Comcast copied the
claimed invention. Patent Owner alleges that after

40a
the field trials of the AgileTV solution, Comcast did
not take a longer-term license, and thereafter began
marketing its own voice recognition product. PO
Resp. 34 (citing Ex. 2032 ¶ 33). Patent Owner contends that “Comcast’s implementation of voice recognition in its X1 System is practically identical to the
AgileTV solution installed in Comcast’s cable network
in the mid-2000s.” Id. at 34–35. Patent Owner alleges
that “Comcast’s X1 System practices the invention
claimed in the ’326 patent.” Id. at 35 (citing Ex. 1021,
83–103). Patent Owner’s proof of copying are district
court “Initial Claim Charts” (Ex. 1021, 83) and Exhibit 2026, which is an instructional video for
“Promptu Voice Controlled Television” for Comcast
Cable.
Patent Owner also contends that the AgileTV solution was commercially successful because it raised
millions in investment funding. PO Resp. 32–33 (citing Ex. 2032 ¶ 26; Ex. 2002, 3; Ex. 2003, 34; Ex. 2021,
1–2).
Petitioner’s Contentions
Petitioner contends that Patent Owner has failed
“to establish the necessary nexus between its secondary considerations evidence and any allegedly novel
aspect of the challenged claims.” Pet. Reply 13.
Regardless, Petitioner contends the evidence is
“weak” and therefore “cannot overcome Petitioner’s
‘strong prima facie showing’ of obviousness.” Id. (citation omitted).
Petitioner disagrees that a nexus should be presumed because Patent Owner has not established that
the AgileTV system embodies the claimed invention.
Id. at 14. Petitioner attacks Patent Owner’s support-

41a
ing evidence. Petitioner notes that “Patent Owner relies on a conclusory declaration by its former CTO David Chaiken and a figure Patent Owner asserts is in
the ’326 Patent’s provisional application, but which
does not actually appear in the provisional application
(or any of Patent Owner’s other exhibits).” Id. Petitioner contends that Mr. Chaiken’s testimony is insufficient because “[h]e makes no attempt to show that
the elements of the challenged claims were embodied
in the AgileTV system or that it was ‘coextensive’ with
the challenged claims.” Pet. Reply 14, n.5 (citing Ex.
2032 ¶¶ 14–16). Petitioner also alleges that Mr.
Chaiken never attempted to determine the scope of
the challenged claims. Id. (citing Ex. 1028, 115:2–
116:16).
Petitioner next argues that “Patent Owner does
not attempt to identify any purportedly novel aspect
of the claims tied to its evidence of secondary considerations.” Pet. Reply 16. Specifically, Petitioner argues:
Patent Owner asserts that the claimed invention of the ’326 Patent was “[u]nlike existing
speech recognition methods and systems” because the patent “teaches using a first network path to transfer speech information to a
speech recognition engine, which recognizes
the speech information and effects information delivery via a second network path.”
PO Resp. at 26. It makes no attempt to tie the
secondary considerations evidence to these
purportedly novel aspects of the challenged
claims.
Id. Petitioner also contends that the purported invention was known in the prior art, and Patent Owner

42a
fails to establish a nexus between its secondary considerations evidence and any novel aspect of the
claimed invention. Id. at 16–17.
Petitioner next challenges the contention that the
AgileTV system satisfied a long-felt but unresolved
need. Pet. Reply 17. Petitioner makes the point that
the only evidence of long-felt need is testimony that
the problem arose as early as 2000, which was the
same year that the provisional application cited by the
’326 patent was filed. Id. at 18. Petitioner reasons
that the need could not be long-felt if the need arose
in 2000 and was met in the same year. Id. Petitioner
further alleges that “Patent Owner offers no evidence
to show that the alleged “long-felt need” was “persistent” and “not already satisfied by the prior art.” Id.
Petitioner also argues that the “long-felt need” could
not have been satisfied by the AgileTV system in Comcast’s own network because “Comcast rejected Patent
Owner’s product.” Id. (citing Ex. 1027, 215:13–217:7;
Ex. 1028, 70:19–71:8).
Petitioner next contends that any evidence of industry praise is not tied to any novel feature of the
challenged claims, and should therefore be discounted. Pet. Reply 18–20. Petitioner points out that
the recognition given by a report by Buckingham Research Group (Ex. 2020, 7) is directed to the ease of
voice recognition searches, yet numerous prior art references of record in this proceeding already taught the
same features. Id. at 19. Likewise, Petitioner contends that Comcast’s “praise [of] the AgileTV system
suffers the same defect—the cited statements all relate to spoken search functionality in the prior art.”
Id. at 19–20.
As for the purported award by “Speech Technology
Magazine,” Petitioner contends there is no supporting

43a
evidence of such an award except “a self-congratulatory press release without any evidence of an actual
award.” Id. at 20 (citing Ex. 2009, 1–2). Further, the
Petitioner argues that “the press release itself identifies purported advantages of the AgileTV system outside the scope of the challenged claims.” Id. Petitioner
also questions the alleged industry praise from a trial
conducted in just 10 homes over a month period (Ex.
2010, 5) because the summary of this trial “shows
nothing more than an extremely limited test that did
not fail—not ‘industry praise’ for its product.” Id. at
21.
Petitioner next argues that the challenged claims
are not commercially valuable and that the invention
has not been commercially successful. Pet. Reply 21.
Petitioner first notes that “[t]he consideration paid by
Comcast under the License and Development Agreement was a loan to Patent Owner that it later repaid
in full.” Id. (citing Ex. 1027, 156:5–12, 160:20–161:2).
Petitioner then notes that Comcast declined to license
Patent Owner’s patents and “after failing to win Comcast’s business, Patent Owner dropped its television
product and shifted to an automobile product instead
(i.e., a product not covered by the ’326 Patent).” Id. at
21–22. Petitioner also notes that Comcast did not license the challenged claims, but instead conducted a
limited evaluation of the AgileTV system. Id. at 22–
23. Further, Petitioner notes that “[t]he license could
not have signified any ‘recognition and acceptance’ of
the challenged claims because they did not yet exist.”
Id. at 23 (citation omitted).
Petitioner argues that the investment funding received was for two distinct products and nothing
“mentions particular patents or claimed features of
the television product that would tie any investment

44a
to the challenged claims.” Id. at 22. Petitioner also
notes that Patent Owner has cited no legal authority
that investment funding “is a secondary consideration
of nonobviousness regarding a patent issued to the
company years later.” Id. n.9.
As for alleged copying, Petitioner argues that the
only evidence presented are district court preliminary
infringement contentions, and infringement contentions standing alone are not sufficient evidence of copying. Pet. Reply 24. As explained below, we agree
with Petitioner that Mr. Chaiken’s testimony “that
unidentified ‘acquaintances’ told him ‘they confused
Comcast’s functionality with the AgileTV solution’
from ten years earlier,” is impermissible hearsay, to
which we give no weight. Id. (citing Ex. 2032 ¶ 34).
iv. Analysis (claims 1 and 12)
Based on the final record before us, and notwithstanding Patent Owner’s arguments and evidence, we
find Petitioner’s contentions with respect to claims 1
and 12 persuasive. Considering the evidence as a
whole, including Patent Owner’s evidence of nonobviousness, we determine that Petitioner has established
by a preponderance of the evidence that claims 1 and
12 would have been obvious over Houser.
Petitioner persuasively shows on the final record
that a person of ordinary skill in the art would have
understood Houser’s disclosure of a wireless remote
control with a microphone for receiving spoken commands teaches receiving speech information at a first
device, wherein said first device is a wireless device.
Pet. 18–20; Ex. 1012, 4:16–25.
Claims 1 and 12 next require “transferring said
speech information from said first wireless device via
a first network path to a speech recognition engine,”

45a
and we are persuaded by Petitioner’s contention that
“Houser discloses an embodiment in which voice
recognition processing is performed at a remote network node (e.g., a remote server),” and within “this
embodiment, the user’s speech commands are transmitted from the remote control (‘first wireless device’)
to the terminal unit and then to ‘node 517’ for processing by speech recognition circuitry.” Pet. 20 (citing Ex. 1012, 33:49–67, Fig. 15; Ex. 1023 ¶¶ 136–137).
As explained above in the claim construction analysis, we disagree with Patent Owner’s contentions
that a “network path” requires devices that both send
and receive messages. See, e.g., PO Resp. 15 (“the remote only has transmission and not reception capabilities”). We find Mr. Schmandt’s testimony more persuasive in opining that “one of ordinary skill in the art
would not understand[] that a node [on a network
path] is limited to a device that both sends and receives messages, and I did not interpret the term ‘network path’ in the challenged claims to exclude devices
that cannot both send and receive messages.” Ex.
1033 ¶ 16. Further, we agree with Petitioner that the
network contemplated within the ’326 patent includes
unidirectional nodes (i.e., nodes that send or receive
messages but not both). Petitioner also has persuasively shown that a physical route in a network includes both wireline connections and wireless connections. See Ex. 1033 ¶¶ 6–10; Ex. 1001, 50:39–41 (“said
first device is a wireless device”).

46a
Given Patent Owner’s proposed basic construction
of “network path,” i.e., physical route through which
data is transmitted from a source to a destination,
which we have adopted, a person of ordinary skill in
the art would understand such a route to include the
network paths Petitioner identified in Houser. Petitioner’s annotated Figure 15 (Pet. 21–22) of Houser
and corresponding analysis explain how Houser
teaches both a first wireless device and first network
path, as well as a second network path leading to device 521, which Petitioner identifies as the claimed
second device.

Petitioner’s annotated Figures 15 (Pet. 21–22) of
Houser depict a first network path and second network path. Houser discloses that the user’s speech
commands are transmitted from the remote control
(“first wireless device”) to the terminal unit and then
to “node 517” for processing by speech recognition circuitry. Ex. 1012, 33:56–61. The transfer of Houser’s
speech commands reads on the claimed “transferring
of said speech information.” As illustrated above, we
agree with Petitioner that the path from the remote
control (“first wireless device”) through the terminal
unit and then to node 517 (with the “speech recognition engine”) constitutes the claimed “first network
path.” See Ex. 1023 ¶ 136.
With regard to Patent Owner’s arguments, we are
not persuaded that the remote is outside the network

47a
within the first network path identified by Petitioner.
Patent Owner argues that the remote control is not in
the network path because “the transmission source is
the terminal 519, not the remote.” PO Resp. 13. We
disagree because Houser discloses a “remote control”
that includes a “conventional wireless microphone”
and a “transmitter” for transmitting spoken words to
the “subscriber terminal unit.” Ex. 1012, 15:19–24,
Fig. 4 (illustrating the voice remote control transmitting to the set-top box). Houser also discloses embodiments in which “[s]ound or spoken words are received
by a subscriber terminal unit” and then “transmitted
from subscriber terminal [unit] 519 to node 517 which
includes speech recognition circuitry.” Id. at 33:55–
61, Fig. 15. Thus, we determine that the remote control is the source of the voice data, or information, and
node 517 is the destination. We agree with Petitioner
that the path between them (illustrated above) is the
“first network path,” even under Patent Owner’s proposed construction. See Ex. 1033 ¶ 5.
Patent Owner’s arguments do not persuasively rebut Petitioner’s contentions or explain why the speech
data originating at the first wireless device (remote
control), 6 which is “received by a subscriber terminal
unit 519” for transmission “to node 517 which includes
speech recognition circuitry,” fails to meet the claim
requirement of “transferring said speech information
from said first wireless device via a first network path
to a speech recognition engine.” Ex. 1012, 33:55–59;
Ex. 1001, 50:39–41. Petitioner has presented persua-

Patent Owner’s infringement contentions in related district
court litigation for the ’326 patent included a wireless remote in
the “first network path” as the claimed “first device.” Ex. 1021,
83.
6

48a
sive evidence and testimony from Mr. Schmandt explaining why these claim elements are taught by
Houser. See also Pet. Reply 5–10; Ex. 1023 ¶¶ 136–
144.
Patent Owner additionally argues that the device
521 is outside the network and thus not part of a second network path as required by claims 1 and 12. PO
Resp. 13–14 (“Petitioner points to no disclosure of element 521 (e.g., the television) being included on the
network.”). We also find this argument unpersuasive
to rebut Petitioner’s contentions on the final record.
Claim 1 and 12’s final limitation requires “recognizing
said speech information and effecting information delivery to a second device via a second network path.”
Houser discloses that once the speech recognition circuitry generates “commands according to the sounds
or spoken words,” “[n]ode 517 transmits the command(s) to controlled device 521 via subscriber terminal unit 519 to controlled device 521.” Ex. 1012,
33:56–63. The destination is controlled device 521
and the commands effect information delivery as
claimed.
Patent Owner again suggests that because terminal unit 519 acts as a transfer, then device 521 cannot
be considered the destination of the second network
path. See PO Resp. 14 (“Houser discloses that node
517 has connections with terminal units like 519, not
the device 521,” thus, Patent Owner contends
Houser’s “physical route connect[s] node 517 (the
source) to terminal unit 519 (the destination).”). But,
considering the plain meaning of the claim language,
and considering Houser’s disclosures cited above, we
determine that Patent Owner’s arguments do not persuasively explain why device 521 would be outside the
second network path identified by Petitioner (Pet. 21–

49a
22), or why controlled device 521 is not a proper destination. Claim 1 requires “effecting information delivery to a second device via a second network path” and
this operation is taught by Houser as Petitioner and
Mr. Schmandt explain, as summarized above. See Ex.
1023 ¶¶ 139–145; Pet. Reply 8–10.
We also agree with Petitioner and Mr. Schmandt
that “[e]ven if all channels are broadcast from the information distribution center, it is the user’s voice
command that causes the subscriber unit to tune to a
particular channel thereby ‘effecting information delivery to a second device’ such as a television or videorecorder.” Pet. Reply 10 (citing Ex. 1023 ¶¶ 143–144).
Similarly, Houser’s requesting of pay-per-view programming by voice command effects information delivery to a second device. Id. at 10–11.
We have considered the evidence presented by
both parties related to the objective indicia of nonobviousness. Considering the final record before us, we
find the evidence of nonobviousness to be weak and
the evidence of obviousness to be strong. On balance,
the strong evidence of obviousness outweighs the
weak evidence of nonobviousness.
Patent Owner contends that its AgileTV system
has been commercially successful and received industry praise. We address each of these considerations
below, but at the outset, we are not persuaded that
Patent Owner has established that its AgileTV system
embodies the claimed invention. Patent Owner proceeds as if there is a presumption that because both
the AgileTV system and the ’326 patent relate to
voice-enabled searching, a nexus must therefore exist
between the product and the patent in that whatever
is claimed is embodied in the product. See PO Resp.
25. That is inappropriate.

50a
Although the AgileTV system had many attributes related to a voice-enabled search and navigation
system, it simply cannot be presumed that what is
claimed is what is in the commercial product. Also,
the patent claims focus not just on voice-enabled
search and navigation features, but also on a defined
first and second network path. Specifically, Patent
Owner does not persuasively show how the commercial AgileTV system performed “transferring said
speech information from said first wireless device via
a first network path to a speech recognition engine,”
and then “recognizing said speech information and effecting information delivery to a second device via a
second network path.” See Ex. 2032 ¶¶ 8–12.
To establish the relationship between the claims
of the ’326 patent and the AgileTV system, Patent
Owner relies on two pieces of evidence and we address
each below. The first is a declaration by its former
CTO David Chaiken (Ex. 2032 ¶¶ 8–12, 13–16). The
second is a figure (PO Resp. 24) Patent Owner asserts
is in the ’326 patent’s provisional application. This
figure purports to show how “voice data could be received by the Agile Engine [Agile TV platform] over a
first path (in blue), which could affect the video on demand [VOD] content provided from the VOD server
over a second path (in red).” PO Resp. 23. We first
address this figure and then Mr. Chaiken’s testimony.
We are not persuaded that the Patent Owner has
persuasively established that the figure appearing at
page 24 of Patent Owner’s Response depicts a commercial embodiment of the AgileTV system. First, Patent Owner alleges this figure is found in Exhibit 2006
(provisional application file history), but Exhibit 2006
has no such figure. Thus, this figure does not actually
appear in the provisional application (or any of Patent

51a
Owner’s other exhibits in this proceeding). See Ex.
2006. Patent Owner later clarifies that the figure appearing at page 24 of Patent Owner’s Response “actually comes [from] the provisional application for the
’538 Patent,” and it “show[s] the architecture of the
AgileTV system created by AgileTV in 2001.” PO SurReply 17. Regardless, Patent Owner has not persuasively shown the relevance of this figure. Apart from
the attorney argument quoted above, Patent Owner
also has not presented persuasive evidence showing
that any commercial embodiment of the AgileTV system actually implemented the architecture depicted
in the figure found at page 24 of the Response. See PO
Sur-Reply 17; see also PO Resp. 23–24; Ex. 2032 ¶¶ 8–
9 (Mr. Chaiken citing no evidence to support his testimony related to the function of AgileTV and not discussing Exhibit 2006 or the figure at page 24 of the
Response). Patent Owner simply failed to tie the figure appearing at page 24 of Patent Owner’s Response
to any commercially produced version of the AgileTV
system for which Patent Owner now alleges commercial success, industry praise, and copying.
Mr. Chaiken’s testimony regarding the AgileTV
system fares no better because he has not explained
sufficiently or shown that the commercial AgileTV
system relied upon for commercial success, praise,
and copying, is covered by any challenged claim. See
Ex. 2032 ¶¶ 8–16. He testifies that “[t]he embodiments described in the ’326 patent describe the foundations of the design of the AgileTV solution,” and
“the architecture and solution described in the ’326
patent accurately reflect the AgileTV solution by
2003.” Id. ¶¶ 14, 16. Such testimony is based on what
is described in the ’326 patent, not what is claimed.
Even with respect to what is described in the ’326 patent, Mr. Chaiken does not adequately explain how

52a
and to what extent the broad and varied descriptions
in the ’326 patent specification are the same as what
is in the AgileTV system.
Mr. Chaiken fails to show that AgileTV “product
embodies the claimed features, and is coextensive
with them.” Brown & Williamson Tobacco Corp. v.
Philip Morris Inc., 229 F.3d 1120, 1130 (Fed. Cir.
2000). Further, on cross examination, Mr. Chaiken
admitted that he did not attempt to determine the
scope of the challenged claims, or examine the AgileTV system in light of that claim scope. Ex. 1028,
115:2–116:16. Patent Owner does not persuasively
show whether the claim scope of the application filed
in 2011 leading to the ’326 patent relates to the AgileTV system, which was discontinued some five years
earlier. Thus, we are not persuaded that the marketed AgileTV system embodies the claimed features
of the ’326 patent.
Likewise, the mention of the AgileTV system in
the Specification of the ’326 patent does not demonstrate that the AgileTV system embodied the claimed
invention of any challenged claim. At most, mention
of the AgileTV system in the Specification shows the
potential compatibility of the claimed invention with
an existing model of the AgileTV system, but nowhere
does the Specification state that the claimed invention
was to be embodied into any specific AgileTV system.
See Ex. 1001, 12:38–49.
Because Patent Owner has not persuasively established that the marketed AgileTV system embodies all claimed features of any one challenged claim, a
presumption of nexus has not been shown by Patent
Owner. See WBIP, LLC v. Kohler Co., 829 F.3d 1317,
1329 (Fed. Cir. 2016) (“[T]here is a presumption of
nexus for objective considerations when the patentee

53a
shows that the asserted objective evidence is tied to a
specific product and that product ‘is the invention disclosed and claimed in the patent.’” (quoting J.T. Eaton
& Co. v. Atl. Paste & Glue Co., 106 F.3d 1563, 1571
(Fed. Cir. 1997)).
Similarly, Patent Owner also has not persuasively
established that Comcast’s cable X1 System copies the
AgileTV system or is covered by the claims of the ’326
patent, as explained below. Considering the record as
a whole, including Patent Owner’s evidence of nonobviousness, Petitioner still has established obviousness
of the challenged claims. We examine the evidence for
each secondary consideration more below.
We are not persuaded by Patent Owner’s arguments alleging satisfaction of a long-felt but unresolved need (PO Resp. 28–29). Patent Owner asserts
that its invention satisfied a long-felt but unresolved
need, i.e., “for using voice recognition in cable systems.” PO Resp. 28. Patent Owner further asserts
that prior to AgileTV’s solution, “no one had provided
voice recognition processing for multiple users in a cable television network using an architecture including
the claimed invention of the ’326 patent.” PO Resp.
29. The argument is misplaced, because it merely represents, at most, that Patent Owner is the first to conceive of all elements of its claimed invention. It does
not mean that prior to the invention of the ’326 patent,
there were no cable systems providing voice recognition. We see no basis in the record to find that Patent
Owner’s claimed invention is the only way to use voice
recognition in cable systems.
Through the misplaced argument, Patent Owner
is asserting that whatever system that did not use Patent Owner’s claimed invention had a need that was

54a
long-felt and unresolved. This circular approach is inappropriate and not meaningful. For purposes of further discussion, we separate the claimed invention
from Patent Owner’s assertion of what was the longfelt but unresolved need, and focus on what Patent
Owner has clearly stated as the long-felt but unresolved need, i.e., “using voice recognition in cable systems.” Id. at 28.
“[A]n allegation [of an unsolved problem in the
art] is not evidence of unobviousness unless it is
shown . . . that the widespread efforts of skilled workers having knowledge of the prior art had failed to find
a solution to the problem.” In re Allen, 324 F.2d 993,
997 (CCPA 1963) (citing Toledo Pressed Steel Co. v.
Standard Parts, Inc., 307 U.S. 350, 356 (1939) (“Nor
is there any evidence of general or widespread effort
to solve the problem here involved.”)). More recently,
the Federal Circuit clarified that although evidence is
particularly probative of nonobviousness when it
demonstrates both that a demand existed for the patented invention and that others tried but failed to
satisfy that demand, a patent owner “may establish a
long-felt need without presenting evidence of failure
of others.” Millennium Pharm., Inc. v. Sandoz Inc.,
862 F.3d 1356, 1369 n.5 (Fed. Cir. 2017). That clarification, is not of significance here because to demonstrate long-felt but unresolved need, Patent Owner
does not rely on the character and nature of pre-existing “solutions” that have been provided.
Patent Owner identifies prior “solutions” by others as providing voice recognition processing for multiple users in a cable television network. Id. Petitioner refers to only one such prior solution as unsuccessful. Id. Patent Owner’s characterization of the
attempt as unsuccessful is not sufficiently supported

55a
or explained. Mr. Chaiken states, in a conclusory
manner without explanation: “To my knowledge, Integra5’s solution [using a telephone call to request
content] was not successful.” Ex. 2032 ¶ 7. We do not
credit that testimony because Mr. Chaiken does not
provide the underlying basis for his conclusion that
Integra5’s solution was not successful.
Patent Owner identifies other solutions that “ran
solely on a set-top box, without a voice-activated remote control, and did not perform any operations at
the headend.” PO Resp. 29 (citing Ex. 2040). Patent
Owner does not state whether those “solutions”
worked or failed, in providing voice recognition in cable systems. If those solutions worked, then there was
no long-felt but unresolved need at the time of invention of the ’326 patent. If those solutions failed, Patent Owner has not explained why. Furthermore, it is
unclear what problem those efforts were attempting
to solve. It is unclear if those efforts even intended to
include a voice-activated remote control unit. In any
event, Patent Owner has not explained why the general problem of providing voice recognition in a cable
system requires a voice-activated remote control unit
to solve. The identification of these other “solutions”
is insufficiently explained to establish satisfaction of
long-felt but unresolved need for using voice recognition in a cable system. Further, we note that the AgileTV system was not commercially adopted apart
from a limited test and thus there is absence of any
showing by Patent Owner of a prompt adoption of its
proposed solution, which can be indicative of satisfaction of long-felt but unresolved need. See In re Mixon,
470 F.2d 1374, 1377 (CCPA 1973). Finally, as of 1995,
Houser provided detailed disclosures for voice recognition technology that could be integrated in subscription television systems. See Ex. 1012, 1:1–20.

56a
To the extent Patent Owner regards providing
voice recognition processing for multiple users as the
long-felt but unresolved need, none of the challenged
claims require a system for multiple users. See PO
Resp. 29 (“no one had provided voice recognition processing for multiple users in a cable television network using an architecture including the claimed invention of the ’326 patent”). Thus, Patent Owner’s
own invention would not meet that need because the
challenged claims of the ’326 patent do not require
voice recognition processing for multiple users in a cable television network. See Therasense, Inc. V. Becton,
Dickinson & Co., 593 F.3d 1325, 1336 (Fed. Cir. 2010)
(“finding no long-felt need because the claims were
broad enough to cover devices that did not solve the
problem”).
For all the reasons set forth above, Patent
Owner’s arguments are not well supported by underlying evidence and testimony to establish satisfaction
of a long-felt need for Patent Owner’s patented invention in the cable TV industry.
Patent Owner’s evidence of industry (and Comcast) praise is also not persuasive. The recognition
given by a report by Buckingham Research Group (Ex.
2020, 7) is directed to the ease of voice recognition
searches, yet numerous prior art references of record
in these proceedings also teach the same features. See
IPR2018-00343, Paper 56 (final decision). The evidence for the award by “Speech Technology Magazine,” is simply Patent Owner’s own self-congratulatory press release without any evidence of the actual
basis or criteria for the award, or information from the
magazine about the award. See Pet. Reply 20 (citing
Ex. 2009, 1–2). Patent Owner has not shown that this

57a
press release actually issued to the public. Additionally, the internal press release itself identifies purported advantages of the AgileTV system outside the
scope of the challenged claims. Id. For example, the
press release states that “Promptu utilizes an extensive, dynamically managed database of more than
100,000 phrases and delivers higher than 90 percent
voice recognition accuracy” (Ex. 2009, 1), yet the
claims do not require these features. Ex. 1027,
250:15–253:14, 255:22–258:21, 316:4–6. Additionally,
the AgileTV system employed voice recognition processing provided by a third-party vendor. Id.
The appearance of AgileTV’s former CEO (Paul
Cook) and CTO (Harry Printz) on the Kudlow &
Cramer television show on CNBC in 2004 to discuss
the AgileTV solution and to demonstrate the technology shows that others had an interest in the technology, but the appearance alone does not establish industry praise. See Ex. 2032 ¶ 23; Ex. 2018; Ex. 2019.
Moreover, the product did not work during this broadcast. Ex. 2019, 1–3 (“It won’t work precisely. Just go
through a dry run.”); Ex. 1028, 96:14– 97:19. More
importantly, the description of the product during the
broadcast highlighted the same voice search functionality disclosed in the prior art. Ex. 2019, 3 (such as
“find movies with Brad Pitt”). Patent Owner does not
effectively tie the evidence of industry or Comcast
praise, if any, to any novel feature of the challenged
claims. As explained above, any praise given to AgileTV does not translate to the claims of the ’326 patent because Patent Owner has not established a
nexus.
Patent Owner also states its alleged “industry
praise above was directly based, for example, on the
AgileTV system’s ability to provide voice recognition

58a
processing for multiple users in a cable television network using an architecture including the claimed invention of the ’326 patent.” PO Resp. 31 (emphasis
added). But again, to the extent Patent Owner regards providing voice recognition processing for multiple users as the basis of any industry praise, the
claims of the ’326 patent do not even require voice
recognition processing for multiple users.
As for copying, Patent Owner asserts that Comcast’s implementation of voice recognition in its X1
System is practically identical to the AgileTV solution
installed in Comcast’s cable network in the mid2000s, but we find Patent Owner’s support for these
allegations also lacking. Patent Owner does not persuasively establish whether the X1 System is a copy
of the AgileTV system or whether the X1 System
would be covered by the claims of the ’326 patent. Patent Owner’s proof that the Comcast X1 system copied
AgileTV are district court “Initial Claim Charts” (Ex.
1021, 83) and Exhibit 2026, which is an instructional
video for “Promptu Voice Controlled Television” for
Comcast Cable. Because the initial claim charts are
not supported by corresponding argument in the
briefs or expert testimony, we find them unpersuasive
in establishing copying or proving that the X1 system
is covered by the claims of the ’326 patent.
Patent Owner alleges that Comcast rejected its
AgileTV system and “instead market[ed] its own voice
recognition product,” with an “implementation” that
“is practically identical.” PO Resp. 34–35 (citing Ex.
2032 ¶¶ 33–35). The support for these assertions is
Mr. Chaiken’s testimony that “acquaintances of mine
who were aware of the scope of my work at AgileTV
told me they confused Comcast’s functionality with
the AgileTV solution.” Ex. 2032 ¶ 34. This statement

59a
is hearsay and excluded from consideration because
the statement is being offered for the truth of the matter asserted and the “acquaintances” have not made
any appearance in this proceeding to subject their beliefs to cross-examination. The only other evidence
cited by Mr. Chaiken to support his assertions that
Comcast’s X1 system somehow relates to AgileTV is
the fact that an infringement lawsuit was filed. Id.
¶ 35. Mr. Chaiken does not offer testimony as to the
accuracy of the district court litigation initial claim
charts. Ex. 1021, 83. In the aggregate, Patent
Owner’s evidence supporting the assertion that Comcast’s X1 system is a “copy” of AgileTV is not persuasive.
Finally, we determine that Patent Owner’s evidence and argument fails to demonstrate that the AgileTV system was commercially successful. Patent
Owner alleges commercial success because Comcast
licensed the AgileTV system and AgileTV received investor funding. Again, Patent Owner has not established that the challenged claims of the ’326 patent
cover any commercial embodiment of the AgileTV system. But, even if there was an established nexus, the
AgileTV system was not successful because the product was not adopted except in limited Comcast test
markets. Ex. 1027, 215:13–218:13. Also, the money
transferred by Comcast to AgileTV pursuant to the license agreement was a loan that was repaid by AgileTV. Ex. 1027, 156:5–12, 160:20–161:25; see Pet. Reply 21–23. Further, Patent Owner dropped its AgileTV system after being rejected by Comcast and
shifted to unrelated automobile voice control technology. Ex. 1027, 215:13–218:13. We also do not view
investor funding of a company, without more, as
demonstrating commercial success of a product made
by the company, and Patent Owner has not presented

60a
persuasive evidence tying investment to the challenged claims. See Ex. 2021, 1–2.
Patent Owner has not provided any pertinent information about competing products on the market,
nor has Patent Owner provided any relevant market
share information. See In re Applied Materials, Inc.,
692 F.3d 1289, 1300 (Fed. Cir. 2012) (“An important
component of the commercial success inquiry in the
present case is determining whether Applied had a
significant market share relative to all competing
pads based on the merits of the claimed invention,
which Applied did not show.”). Patent Owner also has
not shown pertinent market share information regarding the sales of products incorporating the
claimed invention.
Petitioner also presents persuasive evidence and
arguments addressing the unique limitations of claim
12, which are not found in claim 1. Specifically, Petitioner relies on Houser’s remote node embodiment,
wherein “the voice command is transmitted to node
517 for speech recognition processing,” as teaching
“transferring said speech information in an unrecognized state.” Pet. 29 (citing Ex. 1012, 33:56–61, 5:62–
67, 15:7– 18, 15:29–34, 15:42–46, 16:47–50, 16:58–
17:7, 17:8–15). Petitioner relies on Houser’s disclosure of a television for the “second device,” or controlled device. Id. (citing Ex. 1012, 7:30–33). We
agree that “[a] person of ordinary skill in the art would
have known that a television, in the subscriber television network of Houser, was ‘capable of displaying
electronically coded and propagated moving or still
images and playing electronically coded and propagated audio.’” Id. (quoting Ex. 1023 ¶ 178). Petitioner also establishes how Houser teaches that “said
first network path and said second network paths are

61a
different,” “whereas Houser’s “‘first network path’ . . .
goes from the remote control to the subscriber terminal unit to node 517 and the ‘second network path’ begins either at node 517 or the information distribution
center and goes through the subscriber terminal unit
to the controlled device (e.g., television).’” Pet. 23–24.
Patent Owner does not challenge these unique limitations found in claim 12 (but not claim 1) and we find
persuasive Petitioner’s argument and evidence for
these limitations.
For the foregoing reasons, considering the entirety of the evidence before us, we determine that the
evidence of obviousness outweighs that of nonobviousness. Petitioner has established by a preponderance
of the evidence that claims 1 and 12 are unpatentable
as obvious over Houser.
v. Analysis (Claims 2–7 and 13–17)
We have reviewed Petitioner’s contentions regarding each of claims 2–7 and 13–17, and determine that,
notwithstanding Patent Owner’s argument discussed
below, the information presented by Petitioner establishes by a preponderance of the evidence that these
claims would have been obvious over Houser. See Pet.
23–34; Ex. 1023 ¶¶ 147–194, 169. We determine that
Petitioner’s arguments with regard to the limitations
added by these dependent claims relative to the independent base claim are persuasive as highlighted below.
Claim 2 depends from claim 1 and further requires “said first network path and said second network path are different paths.” Petitioner presents
persuasive arguments and credible evidence to support a finding that Houser discloses this limitation
whereas Houser’s “‘first network path’ . . . goes from

62a
the remote control to the subscriber terminal unit to
node 517 and the ‘second network path’ begins either
at node 517 or the information distribution center and
goes through the subscriber terminal unit to the controlled device (e.g., television).’” Pet. 23–24.
Claim 3 depends from claim 1 and claim 13 depends from claim 12. Each claim further requires
“wherein said first device and said second device are
different devices.” Petitioner presents persuasive arguments and credible evidence to support a finding
that Houser discloses this limitation. Id. at 24, 31
(“Houser discloses a first device (i.e., remote control)
that is different than the second device (i.e., controlled
device)).” (citing Ex. 1023 ¶¶ 154– 155)).
Claims 4 depends from claim 1 and claim 14 depends from claim 12. Each claim further requires
“wherein said speech information comprises video
search information; and wherein said information delivery comprises video information.” Petitioner presents persuasive arguments and credible evidence to
support a finding that Houser discloses this limitation
whereas Houser uses spoken search commands to
identify video programming and then displays several
records that satisfy a query in a manner to allow user
selection. Id. at 25–26, 32 (citing Ex. 1012, 30:19–64,
15:55–59, 32:12–36, 31:3–5, 5:40–50; Ex. 1023
¶¶ 157–159).
Claim 5 depends from claim 1 and claim 15 depends from claim 12. Each claim further requires
“wherein said speech information transfer comprises
transferring said speech information in either of a
partially recognized state or an unrecognized state.”
Petitioner presents persuasive arguments and credible evidence to support a finding that Houser discloses
this limitation whereas Houser’s speech transfer from

63a
the remote control to the speech recognition engine for
speech processing is in “an unrecognized state” as
claimed. Id. at 26, 32 (citing Ex. 1012, 33:56–61; Ex.
1023 ¶ 161).
Claim 6 depends from claim 1 and claim 16 depends from claim 12. Each claim further requires
“wherein said wireless device is used for input and
output for control purposes, wherein said information
delivery is to said second device which comprises a television and STB.” Petitioner presents persuasive arguments and credible evidence to support a finding
that Houser discloses these limitations whereas
Houser’s wireless remote control is an “input” for spoken commands that are then “output” to the subscriber terminal. Id. at 27 (citing Ex. 1012, 4:16-25,
15:20–24, 16:51–55, 2:19–23, Figs 2C, 4–6; Ex. 1023
¶¶ 163–167). Further, Petitioner shows how the voice
commands cause the information distribution center
to deliver video information, such as television programs, to the subscriber terminal unit and controlled
device. Id. (citing Ex. 1012, 5:40–50, 15:55–59, 30:19–
22, 30:26–42, 30:61–64; Ex. 1023 ¶ 166).
Patent Owner does not address Petitioner’s contentions for the above claims and has therefore waived
any opposition. See generally PO Resp.; see also Paper
14 (“The patent owner is cautioned that any arguments for patentability not raised in the response will
be deemed waived.”).
Patent Owner’s only rebuttal as to the claims discussed in this subsection is to challenge whether
Houser alone teaches the requirement found in claims
7 and 17 7 of “determining a user site associated with
Claim 17 has the same limitations as claim 7. See Ex. 1001,
53:14–25. Claims 9 and 19 have similar “user site” limitations.
7

64a
a user of the first device.” Ex. 1001, 51:34–35 (claim
7). We address the parties’ contentions below related
to this limitation. Claim 7 requires:
The method of claim 1, further comprising
at least one of the steps of:
determining a user site associated with a
user of said first device;
determining said associated user site from
said recognized speech;
determining said associated user site from
said recognized speech and a speaker identification library;
determining said associated user site from
said recognized speech and a speech recognition
library; and
determining said associated user site from
an identification within said speech channel.
Ex. 1001, 51:24–43. Importantly, only one of the
above steps need be shown in Houser to meet the “at
least one of” claim language. Petitioner, and Mr.
Schmandt, contend Houser teaches “determining a
user site associated with a user of said first device.”
Pet. 28 (citing Ex. 1023 ¶¶ 168–169).
Petitioner addresses the “user site” limitation in
the Petition, arguing that:

Id. at 51:62–52:4. Claims 9 and 19 are not challenged by Petitioner as obvious based on Houser alone, but our analysis here is
equally applicable to Petitioner’s challenges of claims 9 and 19
addressed below.

65a
After performing speech recognition processing, the remote node transmits the recognized command back to the subscriber terminal unit. Id. To do so, the remote node must
determine “user site associated with” the user
that issued the speech command using “said
first device” (i.e., remote control 166).
Schmandt Decl. ¶ 169. Thus, Houser discloses “determining a user site associated with
a user of said first device,” as recited in claim
7.
Pet. 28. Mr. Schmandt explains that “Houser discloses a system in which multiple different users at
multiple different locations all access the same remote
network node to perform speech recognition processing.” Ex. 1023 ¶ 169. Mr. Schmandt relies on Figure 15 of Houser, which shows an implementation in
a subscription television system where node 517 is an
off-premises device connected to a plurality of subscriber terminal units that access node 517 on a timesharing basis. Id. (citing Ex. 1012, 33:61–67). Based
on these disclosures, Mr. Schmandt concludes,
[a] person of ordinary skill in the art would
know that the remote node (node 517) would
have to determine the particular subscriber
system issuing a particular voice command so
that the recognized command could be transmitted back to the correct subscriber terminal
unit . . . . Thus, Houser discloses determining
a user site, and the user site is associated with
a user of said first device (remote control).
Ex. 1023 ¶ 169 (citing Ex. 1012, 15:20–24). We credit
the testimony of Mr. Schmandt because it is consistent with and supported by the cited evidence, as
well as on its face rational.

66a
Patent Owner contends that Petitioner only sets
forth a case of inherency of the user site limitation,
but “the petition does not explain why this feature
would be inherent.” PO Resp. 20.
We have considered Patent Owner’s Response,
which consists only of attorney argument that the
“user site” claim limitation required by claims 7, 9, 17,
and 19 is not taught, either explicitly or inherently, by
Houser and Petitioner failed to explain why this feature would be inherent. After considering the final
record before us, we determine Petitioner has shown
by a preponderance of the evidence that Houser
teaches a user site associated with a user of said first
device as required by the claim language. As noted
above, Petitioner, and Mr. Schmandt, establish that
Houser’s “remote node [node 517] transmits the recognized command back to the subscriber terminal unit,”
and that “[t]o do so, the remote node must determine
the ‘user site associated with’ the user that issued the
speech command.” Pet. 28; Ex. 1023 ¶ 169. We find
Patent Owner’s attorney argument to the contrary unpersuasive. Thus, based on the final record, Houser
teaches determining a user site associated with a user
of said first device (remote control), as required by
claim 7 and as similarly required by claims 9, 17, and
19.
As noted above in the context of the independent
claims, we have determined that the objective evidence of nonobviousness does not overcome Petitioner’s strong showing of obviousness. The same is
true for these dependent claims. Furthermore, the evidence of nonobviousness is just as weak for these dependent claims because the dependent claims include
more limitations than the independent claims from

67a
which they depend, and Patent Owner has not submitted secondary considerations evidence specifically
directed to the features of these dependent claims.
For the foregoing reasons, Petitioner has established
by a preponderance of the evidence that claims 2–7
and 13–17 are unpatentable as obvious over Houser.
3. Obviousness Ground Based on Houser and
Either Banker or Gordon
Claims 8 and 9 each depend from claim 1, and
claims 18 and 19 each depend from claim 12. Petitioner contends that claims 8, 9, 18, and 19 are unpatentable over Houser and either Banker or Gordon
under 35 U.S.C. § 103(a), relying on the supporting
testimony of Mr. Schmandt. Pet. 34–43 (citing Ex.
1023 ¶¶ 198–232). We have reviewed the complete
record, and we are persuaded, notwithstanding Patent Owner’s arguments discussed below, that Petitioner has established the unpatentability of these
claims by a preponderance of the evidence.
Claim 8 depends from claim 1 and adds two additional limitations. The first limitation requires “assessing a response identified as to a user device comprising any of said first device and said second device
to create a financial consequence.” Petitioner contends Houser teaches this limitation. Pet. 35. “In particular, Houser discloses that a viewer can issue voice
commands to select and order pay-per-view movies.”
Id. (citing Ex. 1012, 32:12–36, Fig. 14). A viewer verbally selects a pay-per-view item, thus the user assesses a recognized voice command associated with a
particular user device to “create a financial consequence” (i.e., purchase of a pay-per-view movie), as recited in the claim. Id. (citing Ex. 1023 ¶ 199).

68a
The next limitation of claim 8 requires “billing a
user associated with said user device based upon said
financial consequence.” Petitioner contends that
Houser teaches this limitation. Pet. 35–36 (citing Ex.
1023 ¶ 200; Ex. 1012, 32:19–31 (emphasis omitted)).
Alternatively, Petitioner relies on either Banker or
Gordon combined with Houser for teaching this limitation. Petitioner points to Houser’s disclosure that
once a viewer selects a pay-per-view movie to purchase, billing information is generated so that the
user can be billed for the purchase. Id. (citing Ex.
1012, 32:19–31). Petitioner also argues that “Houser
can be combined with either the Banker or Gordon
prior art patents to disclose the ‘assessing’ and ‘billing’
steps of claim 8.” Id. Petitioner argues that “Banker
discloses a system in which the user can purchase a
pay-per-view movie by pressing the ‘BUY key’ on the
television remote control and then entering a code
provided by the system to begin a purchase sequence.”
Id. at 36–37 (citing Ex. 1016, 16:43–50, 16:62–17:1,
Fig. 6F, 16:51–55 (“the user by actuating the BUY key
initiates a buy sequence. Consequently, this key is
used to purchase an event”). Once entered by the
user, the “code is checked with the code stored in
memory” (i.e., “assessing a response identified” with
the user). Id. at 37 (citing Ex. 1016, 16:67–17:1). After pressing a buy key, the user is billed. Id. “Thus,”
Petitioner establishes how “Banker discloses the ‘assessing’ and ‘billing’ steps recited in claim 8.” Id. (citing Ex. 1023 ¶ 202). Likewise, Gordon teaches offering the subscriber an option to purchase an on-demand program subscription, generating a master PIN
as confirmation, and then updating the billing system
with the new subscriber’s account number. Id. (citing
Ex. 1017, 9:64–10:9, Figs. 3B, 8).

69a
Claim 9 depends from claim 1 and further requires “assessing a response to create a financial consequence identified with a user site” and “communicating said financial consequence to said user.” Petitioner relies on Houser’s disclosure of a payment for a
movie-on-demand as creating a financial consequence.
Pet. 38 (Ex. 1023 ¶ 207). Petitioner also shows how
Banker and Gordon disclose “assessing” a response to
“create a financial consequence,” and then displaying
this “financial consequence.” Id. at 38– 40 (Ex. 1023
¶¶ 207–211); Pet. 38–39 (“In Banker, a user can purchase a pay-per-view movie by pressing the ‘BUY key’
on the television remote control and then entering a
code provided by the system to begin a purchase sequence. Banker at 16:43-55, 16:62-17:1, Fig. 6F.”); see
also Ex. 1016, 16:62–17:3 (describing a display screen
confirming the viewer’s intent to accept the purchase).
Claim 9 further requires “said user confirming
said communicated financial consequence to create a
financial commitment,” and “billing said user based
upon said financial commitment.” Pet. 40–41. Petitioner contends that “[a] person of ordinary skill in the
art would know that a pay-per-view movie purchase,
such as that disclosed in Houser, involves informing
the user that they are making a purchase and confirming their intent.” Id. at 40. Alternatively, Petitioner contends Banker and Gordon also disclose confirming the displayed financial consequence to create
a financial commitment as required by this claim. Id.
(citing Ex. 1023 ¶ 214); see id. at 40 (describing
Banker’s “BUY” key and code for confirming the intent to purchase). Claim 9’s last requirement of “billing said user based upon said financial commitment”
is taught by Houser’s pay-per-view system, or, alternatively, Banker and Gordon also disclose billing the
subscriber for a pay-per-view purchase. Id. at 41 (Ex.

70a
1023 ¶ 216); see id. at 41 (“Banker also discloses billing the subscriber for a pay-per-view purchase.
Banker at 7:60-63, 16:62-17:3.”). We find Petitioner’s
contentions for claim 9 persuasive on the final record
before us.
Claim 18 recites limitations identical to claim 8,
and Petitioner adopts the analysis of claim 8 discussed above. Pet. 41–42. That analysis is persuasive
for reasons discussed above in the context of claim 8.
Claim 19 recites limitations identical to claim 9,
and Petitioner adopts the analysis of claim 9 discussed above. Id. at 42. That analysis is persuasive
for reasons discussed above in the context for claim 9.
Petitioner establishes persuasively that a person
of ordinary skill in the art would have been motivated
to combine the teachings of Houser with the abovenoted teachings of either Banker or Gordon. Id. at 42–
43 (citing Ex. 1003 ¶¶ 78–81). Each reference provides similar interfaces for interactive television networks and cable networks in particular, as well as
providing pay-per-view functionality. Ex. 1012, Abstract; Ex. 1016, Abstract; Ex. 1017, 2:41–63, 1:8–14.
Mr. Schmandt testifies that a person of ordinary skill
in the art would have naturally considered Banker or
Gordon in connection with the system disclosed by
Houser. Ex. 1023 ¶ 233. As argued by Petitioner,
“Banker and Gordon both teach user interfaces for implementing pay-per-view and video-on-demand systems on cable networks,” and both references teach
the benefits of user interfaces that minimize the
chances of unauthorized accidental purchases. Pet.
43 (citing Ex. 1016, 16:43–50, 16:51–55, 16:62–17:3,
Fig. 6F; Ex. 1017, 2:60–63, 3:61–63, 8:66–10:9, 10:43–
46; Figs. 3B, 8; Ex. 1023 ¶ 234). As explained by Mr.
Schmandt, and with the above benefits of Banker and

71a
Gordon in mind, “[i]t would also have been within the
capability of a person of ordinary skill in the art to
combine Houser with either Banker or Gordon to permit a user to order pay-per-view movies using the sequence described by Banker or Gordon but using voice
commands as in Houser.” Ex. 1023 ¶ 234.
Patent Owner alleges that Petitioner fails to articulate a motivation to combine the features of the prior
art to yield the claimed invention. PO Resp. 21. According to Patent Owner, “the petition only provides a
general statement about similarities between the references and Houser, but no explanation of why any
specific modification would be made.” Id.
We disagree, and we find Petitioner’s contentions
specific and persuasive. Houser discloses that its
voice-controlled system for retrieving digital programming can be used in pay-per-view applications, and
both Banker and Gordon teach user interfaces for implementing pay-per-view and video-on-demand systems on cable networks. Pet. 42–43; Ex. 1023 ¶¶ 233–
234. Integrating either Banker or Gordon’s interface,
which allows for purchases, but minimizes the
chances of unauthorized accidental purchases, would
enhance Houser’s existing voice-controlled system for
retrieving digital programming. See id.; Pet. Reply
12. Further, Patent Owner’s general arguments do
not specifically address each of the reasons provided
in the Petition for making the combinations of references as proposed by Petitioner.
For example,
“Houser discloses that its voice-controlled system for
retrieving digital programming can be used in payper-view applications,” such as in Banker and Gordon,
which “both teach user interfaces for implementing
pay-per-view and video-on-demand systems on cable
networks.” Pet. 42–43.

72a
Based on the final record, Petitioner has established a persuasive rationale for combining the teachings of references as proposed in the Petition. See Pet.
42–43. The evidence of obviousness before us is
strong.
With regard to the evidence of nonobviousness, we
have determined above, with respect to independent
claims 1 and 12, that the evidence of nonobviousness
is weak. That evidence is just as weak with respect to
dependent claims 8, 9, 18, and 19, because these
claims include all the elements of the independent
claims from which they depend. Patent Owner has
not persuasively shown that whatever was sold or licensed, whatever was allegedly copied, and whatever
was praised by others, had all the elements of the
claimed subject matter. Also, other deficiencies of the
assertions of industry praise, commercial success, copying, and satisfaction of long-felt but unresolved need,
with respect to claims 1 and 12, also apply to claims
8, 9, 18, and 19. Thus, as is the case with independent
claims 1 and 12, we determine that on the final record
the weak evidence of nonobviousness does not outweigh the strong evidence of obviousness presented by
Petitioner. For the foregoing reasons, Petitioner has
established by a preponderance of the evidence that
claims 8, 9, 18, and 19 are unpatentable as obvious
over Houser and either Banker or Gordon.
4. Obviousness Ground Based on Houser and
Either Martin or Blahut
Claim 11 depends from claim 1, and claim 21 depends from claim 12. Petitioner asserts that claims
11 and 21 are unpatentable over Houser and either
Martin or Blahut under 35 U.S.C. § 103(a), relying on
the supporting testimony of Mr. Schmandt. Pet. 43–
46 (citing Ex. 1023). For this ground, Petitioner relies

73a
on either Marin or Blahut combined with Houser for
teaching remote control devices that transmit identifiers. Pet. 45 (citing Ex. 1023 ¶ 242). For the reasons
set forth above, and for the reasons explained below,
Petitioner has proven by a preponderance of the evidence based on the final record that claims 11 and 21
would have been obvious over Houser and either Martin or Blahut.
Claim 11 requires “responding to recognized
speech identified as to said first device based upon
natural language to create a response uniquely identified with said user device.” Ex. 1001, 52:12–28.
Claim 21 recites a nearly identical limitation. Id. at
53:47–50. Petitioner relies on Houser for its teaching
of responding to recognized speech based upon natural language. Pet. 44 (citing Ex. 1012, 30:26–31,
30:47–64, 31:3–5). Petitioner contends that “[o]nce
the voice command is recognized, the Houser system
provides the requested content (e.g., movie, television
program) to the particular requesting user – one of
many users accessing the speech recognition engine.”
Id. Thus, Houser teaches using the recognized speech
to provide a response uniquely identified with the requesting user. Id. at 45.
Petitioner then alternatively contends that one of
skill in the art would have combined Houser with
Martin and Blahut, which both disclose remote control devices that transmit identifiers. According to Petitioner,
A person of ordinary skill in the art would
recognize the benefit of combining Houser
with this teaching, including, for example,
uniquely identifying remote controls for access control purposes and providing the system designer with options for an identifier for

74a
the particular home system, and thus the combination of Houser with either Martin or
Blahut would render this claim obvious. [Ex.
1023] ¶¶ 243, 249–250.
Pet. 45.
Petitioner further establishes persuasively that a
person of ordinary skill in the art would have been
motivated to combine the teachings of Houser with either Martin or Blahut. Id. at 46–47 (citing Ex. 1023
¶¶ 249– 250). Petitioner notes each reference is in the
field of “interactive television networks” and each relates to “remote controls communicating wirelessly
with television set-top boxes.” Id. at 46. Petitioner
argues that the combination would provide a system
designer with options for an identifier for the particular home system, and the combination would enable
“uniquely identifying a remote control,” which in turn
“would allow the system to limit what channels or
functions are available to a particular user, such as a
child, of a remote control. Id. at 47 (citing Ex. 1019,
1:21–30; Ex. 1023 ¶ 250). Thus, according to Petitioner, “[a] person of ordinary skill in the art would
have naturally considered Martin or Blahut in connection with the system disclosed by Houser.” Id. at 46
(citing Ex. 1023 ¶ 249).
Patent Owner contends Petitioner’s motivations
for combining Houser with Martin or Blahut are facially deficient. PO Resp. 21. Patent Owner argues
that “the petition likewise only provides a general
statement about similarities between references, but
no explanation of why any specific modification would
be made.” Id. We disagree.

75a
Petitioner has persuasively established a reasoned rationale for combining the references supported by the final record. Pet. 45–47. Petitioner explains that “all three references disclose remote controls wirelessly communicating with television set-top
boxes, and a skilled artisan would have been motivated to use a unique remote control identifier, as
taught by Martin or Blahut, in Houser’s remote control.” Pet. Reply 12–13. Petitioner explains that use
of such a unique identifier would allow the system to
limit what channels or functions are available to a
particular remote control user, such as a child, as explained by Mr. Schmandt and as described in Blahut.
Ex. 1019, 1:21–30; Ex. 1023 ¶ 250 (“In such a combined system, the unique identifier of the remote control would also be sent along with the voice command
to determine whether the particular remote control
(and thus the user of that control) could perform certain operations.”).
With regard to the evidence of nonobviousness,
the evidence of nonobviousness is also weak with respect to dependent claims 11 and 21. Claim 11 depends from claim 1 and thus includes all the elements
of claim 1. Claim 21 depends from claim 12 and thus
includes all the elements of claim 12. For the same
reasons discussed above with respect to the elements
of claim 1, and the elements of claim 12, Patent Owner
has not persuasively shown that whatever was sold or
licensed, whatever was allegedly copied, and whatever was praised by others, had all the elements of the
claimed subject matter. Also, other deficiencies of the
assertions of industry praise, commercial success, copying, and satisfaction of long-felt but unresolved need,
with respect to claims 1 and 12, also apply to claims
11 and 21. Thus, as is the case with independent
claims 1 and 12, we determine that on the final record

76a
the weak evidence of nonobviousness does not outweigh the strong evidence of obviousness presented by
Petitioner. For the foregoing reasons, Petitioner has
established by a preponderance of the evidence that
claims 11 and 21 are unpatentable over Houser and
either Martin or Blahut.
III. MOTION TO EXCLUDE
Petitioner filed a Motion to Exclude evidence (Paper 38), which Patent Owner opposed (Paper 44),
which Petitioner replied (Paper 47). In its Motion to
Exclude, Petitioner seeks to exclude “inadmissible evidence submitted by Patent Owner in Exhibits 2001,
2002, 2003, 2009, 2010, 2011, 2015, 2021, 2024, and
2032.” See Paper 38, 1.
Exhibits 2001, 2002, and 2003 –
Business Plans and Presentations
Exhibits 2001, 2002, and 2003 relate to a business
plan (Ex. 2001), corporate summary (Ex. 2002), and a
presentation (Ex. 2003). Petitioner argues these exhibits should be excluded as inadmissible hearsay under FRE 801–803. Paper 38, 2.
We deny Petitioner’s request to exclude these exhibits. Patent Owner contends, and we agree, that
each of these three exhibits meets the hearsay exception for business records. Paper 44, 4 (citing FRE
803(6)). Notably, we have not cited these specific exhibits in our Final Decision, although each has been
considered in our analysis.
Exhibits 2009 and 2021 – Press Releases
Exhibits 2009 and 2021 all purported press releases. Petitioner argues these exhibits should be excluded as inadmissible hearsay under FRE 801– 803.

77a
Patent Owner cites Exhibit 2009 to show that it actually received the award described in the draft press
release. Paper 22, 30.
We deny Petitioner’s request to exclude Exhibit
2009. Patent Owner contends, and we agree, that this
exhibit meets the hearsay exception for business records. Paper 44, 5 (citing FRE 803(6)). Notably, we
have weighed Petitioner’s concerns in our analysis
above. For example, by failing to produce the actual
award that Exhibit 2009 describes, including the criteria for the award or linking the award to the innovative features of the invention, we have not given significant weight to Exhibit 2009 as evidence of industry praise.
Exhibit 2021 is a news article containing a press
release related to AgileTV obtaining investor funding.
Patent Owner claims that the document contains nonhearsay, relevant evidence. Paper 44, 5–6. Because
the fact that AgileTV obtained investor funding is not
disputed, and because we do not rely on Exhibit 2021
in our final decision, we deny Petitioner’s motion to
exclude Exhibit 2021 as moot.
Exhibit 2010 – Market Research Reports
Exhibit 2010 is an internal AgileTV email attaching documents “summarizing various aspects of usability and market research” regarding its television
product. Petitioner contends that the email and attachments are hearsay. Paper 38, 4.
Patent Owner responds that “the email and its attachments fall within the business records exception
to hearsay overcoming Comcast’s objection. Fed. R.
Evid. 803(6).” Paper 44, 6.
We deny Petitioner’s request to exclude Exhibit
2010. This exhibit meets the hearsay exception for

78a
business records, and Patent Owner established a sufficient foundation for its admissibility under the exception.
Exhibits 2011 and 2015 –
Internal AgileTV Emails Regarding Comcast
Exhibit 2011 is an email from AgileTV’s thenCEO Paul Cook to “All Employees.” Mr. Cook’s email
forwards an email from Mr. Chaiken purporting to recount statements made by certain Comcast employees. Ex. 2011, 1. Exhibit 2011 is proffered by Patent
Owner to show Comcast’s interest in the AgileTV system. We do not believe an email summarizing alleged
statements by numerous Comcast employees to fall
within the business records exception to the hearsay
rule. Because the only relevant purpose of this exhibit
is for the content of the third party statements, we
agree with Petitioner that Exhibit 2011 should be excluded for the hearsay contained therein.
Exhibit 2015 is an email from Mr. Cook to “All
Employees,” and the “Weekly Update” email purports
to recount conversations with certain Comcast employees. Ex. 2015, 1. Patent Owner cites this exhibit
to support its contention that “Comcast expressed an
intent to invest in AgileTV and deploy the AgileTV solution for Comcast’s 21 million subscribers.” PO Resp.
31–32. This email appears to be a regular weekly
email update made in the normal course of business
as conveyed by Mr. Cook. Accordingly, we determine
Exhibit 2015 falls within the exception to the hearsay
rule for normally recorded business documents.
Ex. 2024 – Article Regarding Comcast
Exhibit 2024 is an online article entitled “A Voice
in the Navigation Wilderness.” Patent Owner cites
the article to support its assertion that “the AgileTV

79a
solution was successfully deployed and tested in the
Comcast system.” Paper 22, 34. According to Petitioner, “[t]he article (which does not identify an author) primarily discusses AgileTV and its then-contemplated trial with a small cable company called
Sunflower Broadband.” Paper 38, 5–6. Petitioner
complains that the statements related to Promptu being in the field “is not attributed to anyone at Comcast— indeed, no Comcast representatives are mentioned or quoted in the article.” Id. at 6. Thus, according to Petitioner, “[t]he article is an out-of-court statement offered to prove the truth of the matter asserted
therein.” Id.
Because we do not rely on Exhibit 2024 in our Final Decision, we deny Petitioner’s request to exclude
this exhibit as moot.
Exhibit 2032 – Portions of the Chaiken Declaration
Exhibit 2032 is the declaration of Patent Owner’s
former CTO David Chaiken. Ex. 2032 ¶ 3. Petitioner
contends that in paragraph 34, Mr. Chaiken testifies
that “acquaintances of mine . . . told me they confused
Comcast’s functionality with the AgileTV solution.”
This statement is being used to prove copying by Petitioner – the truth of the matter asserted. Paper 44,
13. We agree this statement is impermissible hearsay
that should be excluded. Further, this is not the type
of information an expert witness would normally rely
upon (uncited sources conveying speculative information) in forming an opinion.
IV. SUMMARY
For the foregoing reasons, we determine that Petitioner has proven by a preponderance of the evidence that claims 1–7 and 12–17 would have been obvious over Houser.

80a
Petitioner has proven that claims 8, 9, 18, and 19
would have been obvious over Houser and either
Banker or Gordon.
Petitioner has proven that claims 11 and 21 would
have been obvious over Houser and either Martin or
Blahut.
Petitioner’s Motion to Exclude (Paper 38) is
granted-in-part and denied-in-part. Specifically, the
hearsay statements in Exhibit 2032 ¶ 34 are excluded;
the request to exclude Exhibit 2011 is granted; and,
the request to exclude Exhibits 2024, 2015, 2010,
2021, 2009, 2001, 2002, and 2003 is denied.
V. ORDER
Accordingly, it is:
In consideration of the foregoing, it is hereby:
ORDERED that Petitioner has shown by a preponderance of the evidence that claims 1–9, 11–19,
and 21 are unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude (Paper 38) is GRANTED-IN-PART and DENIED-IN-PART; and
FURTHER ORDERED that because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

81a
For PETITIONER:
James Day
Daniel Callaway
FARELLA BRAUN + MARTEL LLP
jday@fbm.com
dcallaway@fbm.com
Leo Lam
KEKER, VAN NEST & PETERS LLP
llam@kvn.com
For PATENT OWNER:
Joshua Goldberg
Jacob Schroeder
Cory Bell
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT
& DUNNER, LLP
joshua.goldberg@finnegan.com
jacob.schroeder@finnegan.com
cory.bell@finnegan.com
daniel.klodowski@finnegan.com

82a
APPENDIX D
UNITED STATES PATENT AND
TRADEMARK OFFICE
_________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
_________________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORPORATION,
Patent Owner.
_________________
Case IPR2018-00343
Patent RE44,326 E
_________________
Before JAMESON LEE, ROBERT L. KINDER, and
ALEX S. YAP, Administrative Patent Judges
KINDER, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318(a) AND 37 C.F.R. § 42.73

83a
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC.
(“Comcast”), filed a Petition (Paper 12, 1 “Pet.”) requesting an inter partes review of claims of claims 1–
9, 11–19, and 21 of U.S. Patent RE44,326 E (Ex. 1001,
“the ’326 patent”). Patent Owner, Promptu Systems
Corporation (“Promptu”), filed a Preliminary Response (Paper 14, “Prelim. Resp.”).
Pursuant to 35 U.S.C. § 314 and 37 C.F.R.
§ 42.4(a), we issued an Initial Decision (Paper 15,
“Dec.”) on July 19, 2018, instituting an inter partes review of all challenged claims (1–9, 11–19, and 21) of
the ’326 patent, based on all grounds raised in the Petition. Dec. 30. See also U.S. Patent and Trademark
Office, Guidance on the Impact of SAS on AIA Trial
Proceedings (Apr. 26, 2018) (“SAS Guidance”). 2
After institution of trial, Patent Owner filed a Patent Owner Response (Paper 24, “PO Resp.”), which
Petitioner replied (Paper 33, “Pet. Reply”). Patent
Owner also filed a Sur-Reply (Paper 41, “PO Sur-Reply”).
Petitioner filed a Motion to Exclude evidence (Paper 40), which Patent Owner opposed (Paper 46),
which Petitioner replied (Paper 49). Petitioner’s Motion to Exclude is decided below.

On April 12, 2018, we granted Petitioner’s Unopposed Motion to Correct Petition (Paper 1). Paper 11. Our citations and
quotations are to the Corrected Petition – Paper 12.
1

Available at https://www.uspto.gov/patents-application-process/patent-trial-and-appeal-board/trials/guidance-impact-sasaia-trial.
2

84a
Oral argument was conducted on January 28,
2019, and the transcript of the hearing has been entered as Paper 54 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 318(a). After considering the evidence and arguments of both
parties, and for the reasons set forth below, we determine that Petitioner has shown, by a preponderance
of the evidence, that claims 1–9, 11–19, and 21 of the
’326 patent are unpatentable.
A. Related Matter
The ’326 patent is the subject of a pending civil
action, Promptu Systems Corp. v. Comcast Corp. and
Comcast Cable Communications, LLC, Case No. 2:16cv-06516 (E.D. Pa.). Patent Owner’s Mandatory Notices (Paper 4), 2. Petitioner filed a related petition
for inter partes review of the ’326 patent. Pet. viii; see
also IPR2018-00342. The final decision in IPR201800342 addresses the same set of challenged claims
and that final decision is being issued concurrently
with this decision. The Board also instituted trial of
the ’326 patent in a covered business method review
on October 9, 2018. CBM2018-00034, Paper 9. Patent
Owner also identifies IPR2017-00344 and IPR201700345, as challenging related U.S. Patent No.
7,047,196. Paper 4, 2.
B. The ’326 Patent
The ’326 patent, titled “System and Method of
Voice Recognition Near a Wireline Node of a Network
Supporting Cable Television and/or Video Delivery,”
was issued on June 25, 2013. Ex. 1001, [45]. It issued
as a reissued patent from U.S. Patent No. 7,685,523,
which issued on March 23, 2010. The ’326 patent was
filed on November 3, 2011, and claims benefit back to
U.S. Provisional Application No. 60/210,440 filed on

85a
June 8, 2000. Id. at [21], [22], [60]. The ’326 patent
relates to using a first network path to transfer speech
information to a speech recognition engine, which recognizes the speech information and effects information delivery to a second device via a second network path. See Ex. 1001, 50:23–44.
The ’326 patent describes a “method and system
of speech recognition presented by a back channel
from multiple user sites within a network supporting
cable television and/or video delivery.” Id. at Abstract. As noted below however, the claims of the ’326
patent do not require a back channel or address multiple user sites. According to the Specification, “a centralized wireline node refers to a network node providing video or cable television delivery to multiple users
using a wireline physical transport between those users at the node.” Id. at 2:8–11. The Specification
states that “the problems of voice recognition at a centralized wireline node in a network supporting video
delivery or cable television delivery have not been addressed by [the] prior art.” Id. at 2:5–8. The Specification describes how one embodiment of the invention
provides speech recognition services to a collection of
users over a network that supports cable television
and/or video delivery. Id. at 4:66–5:1. In addition,
“user identification based upon speech recognition is
provided over a cable television and/or video delivery
network.” Id. at 4:66–5:3.
Even though the specification relates to a centralized voice recognition system in some places, voice
recognition may occur at or near any node in the system: “This invention relates to voice recognition performed near a wireline node of a network supporting
cable television and/or video delivery.” Id. at 1:38–40
(emphases added). “A speech processor system may

86a
be centrally located in or near a wireline node, which
may include a Cable Television (CATV) central location.” Id. at 18:16–18 (emphasis added).
User identification based upon speech recognition
is provided over a cable television and/or video delivery network.” Id. at 5:1–3. Figure 3 of the ’326 patent
is reproduced below.

Figure 3 illustrates:
a remote control unit 1000 coupled 1002 to settop apparatus 1100, communicating via a twostage wireline communications system containing a wireline physical transport 1200

87a
through a distributor node 1300, and through
a high speed physical transport 1400, possessing various delivery points 1510 and entry
points 1512–1518 to a tightly coupled server
farm 3000, with one or more gateways 3100,
and one or more tightly coupled server arrays
3200[.]
Ex. 1001, 7:13–20.
Server farm 3000 includes a central “speech recognition processor system 3200” for processing speech
signals from user sites, such as from subscribers’ settop boxes. Id. at Fig. 3. In one example embodiment,
a set-top appliance 1100 may receive a wireless signal
1002 from remote 1000 and then re-modulate it for upstream transmission 1200 on a cable return path. Id.
at 11:10–13.
The disclosed invention may involve multiple user
sites and multiple channels: “The back channel is
from a multiplicity of user sites and is presented to a
speech processing system at the wireline node in the
network.” Id. at 22:2–4. At each user site, “[t]he
speech signal transmitted from a subscriber’s set-top
box, or set-top appliance, 1100[,] is received [at the]
1510 [entry points] by the five to 40 MHz data receiving equipment.” Id. at 12:14–17.
To begin the process of obtaining content through
a system such as that depicted in Figure 3 above, “[i]n
the subscriber’s premises, a speech-enabled remote
control [1000] may be employed, e.g. containing a microphone, as well as traditional universal remote control functionality.” Id. at 13:46–48. “The speech output may be wirelessly transmitted to a set[-]top pod,
module, or appliance located at the set-top box.” Id.
at 13:51–53. “The function of the set-top appliance

88a
1100 may be to receive the RF signal from the remote
control and then digitize and compress the speech signal and prepare it for upstream transmission.” Id. at
11:34–36. “The invention supports unidirectional
communication via coupling 1002, supporting communicative transfer from the remote 1000 via coupling
1002 to set-top apparatus 1100.” Id. at 26:13–15.
Regarding example content derived by using the
microphone, “[i]n . . . embodiments of the invention,
spoken commands from a cable subscriber are recognized and then acted upon to control the delivery of
entertainment and information services, such as
Video On Demand, Pay Per View, Channel control, online shopping, and the Internet.” Id. at 5:14–22.
C. Challenged Claims
Claims 1 and 12 are independent. Claim 1 is a
method claim “for speech directed information delivery, comprising” (id. at 50:23–27), and claim 12 is similarly directed to a “[a] method for speech directed information delivery” (id. at 52:29–30). Claims 2–9 and
11 depend directly or indirectly from claim 1, while
claims 13–19 and 21 depend directly or indirectly from
claim 12. Independent claim 1, reproduced below, is
illustrative of the challenged claims.
1. A method for speech directed information
delivery, comprising:
receiving speech information at a first device,
wherein said first device is a wireless device;
transferring said speech information from
said first wireless device via a first network
path to a speech recognition engine; and

89a
at said speech recognition engine, recognizing
said speech information and effecting information delivery to a second device via a second
network path.
Ex. 1001, 50:23–44 (excluding text deleted in the reissue patent).
D. Evidence Relied Upon
Petitioner relies on the following references:
Exhibit

Reference

1013

United States Patent No. 7,013,283 B1,
issued March 14, 2006 (“Murdock”).

1015

United States Patent No. 6,513,063 B1,
issued January 28, 2003 (“Julia”).

1016

United States Patent No. 5,477,262, issued December 19, 1995 (“Banker”).

1017

United States Patent No. 6,314,573 B1,
issued November 6, 2001 (“Gordon”).

1018

United States Patent No. 5,500,691, issued March 19, 1996 (“Martin”).

1019

United States Patent No. 5,663,756, issued September 2, 1997 (“Blahut”).

Pet. 3. Petitioner also relies on the Declarations of
Christopher Schmandt (Ex. 1023, “Schmandt Declaration”; Ex. 1033, “Schmandt Reply Declaration”), and
on the Declaration of Winston Liaw (Ex. 1022, “Liaw
Declaration”). Patent Owner relies on the Declaration
of David Chaiken (Ex. 2032, “Chaiken Declaration”)
and the Declaration of Paul Cook (Ex. 2042, “Cook

90a
Declaration”). Below, we provide an overview of each
reference relied upon by Petitioner.
1. Murdock (Ex. 1013)
Murdock describes a “system and a concomitant
method for providing programming content in response to an audio signal.” Ex. 1013, Abstract. Figure
1 of Murdock is reproduced below.

Figure 1 “depicts a high-level block diagram of a voice
control system.” Ex. 1013, 1:64–65. The program control device 110 can be “a portable or hand-held controller.” Id. at 2:35–36. It can “capture[] the input
verbal command signal from the user of the voice activated control system 100.” Id. at 2:22–24. “Once the
input command signal is received, the program control device 110 performs a transmission, e.g., a wireless transmission, of the command signal to the local
processing unit 120,” which “may include a set top terminal, a cable box, and the like.” Id. at 2:31–34, 45–
47. The input command signal is then transmitted to

91a
remote server computer 130 via back channel 134. Id.
at 3:1–12. Remote server computer 130 “performs
speech recognition on the received signal, . . . retrieves
the requested program content from a program database[,] and transmits the retrieved program content
via the forward channel 132 to the local processing
unit 120.” Id. at 3:15–36. “Upon receipt of the requested programming content, the local processing
unit 120 transmits the received content to the video
player 122 or the television recorder 124.” Id. at 2:61–
66.
2. Julia (Ex. 1015)
Julia describes “navigation of electronic data by
means of spoken natural language requests.” Ex.
1015, 1:16–18. Figure 1a of Julia is reproduced below.

Figure 1a “illustrates a system providing a spoken
natural language interface for network-based information navigation . . . with server-side processing of
requests.” Id. at 3:6–9. “[A] user’s voice input data is
captured by a voice input device 102, such as a microphone[, which p]referably [] includes a button or the

92a
like that can be pressed or held down to activate a listening mode.” Id. at 3:39–43. Input device 102 can
also be “a portable remote control device with an integrated microphone, and the voice data is transmitted
from device 102 preferably via infrared (or other wireless) link to [a receiver in] communications box 104.”
Id. at 3:46–52. “The voice data is then transmitted
across network 106 to a remote server or servers 108.”
Id. at 3:54–55. The voice data “is processed by request
processing logic 300 in order to understand the user’s
request and construct an appropriate query or request
for navigation of remote data.” Id. at 3:61–64. “Once
the desired information has been retrieved from data
source 110, it is electronically transmitted via network 106 to the user for viewing on client display device 112.” Id. at 4:18–20. Communications box 104 is
used for “receiving and decoding/formatting the desired electronic information that is received across
communications network 106.” Id. at 4:27–30. It is
“preferabl[e to use] the same [] communications box
104, but [it] may also be a separate unit) for receiving
and decoding/formatting the desired electronic information that is received across communications network 106.” Id. at 4:25–30.
3. Banker (Ex. 1016)
Banker describes an apparatus “for providing a
user friendly interface to a subscription television terminal.” Ex. 1016, Abstract. Banker describes a number of user interface features such as “messaging, establishing a favorite channel list, pay-per-view, program timing, and terminal control.” Id.; see also id. at
4:1–5, 16–18. Figures 6E and 6F of Banker are reproduced below.

93a

Figures 6E (top) and 6F (bottom) illustrate a sequence
of screens a user would navigate through in order to
purchase a pay-per-view event. Id. at 16:54–17:3.
Banker also discussed how customers can be billed for
using the subscription television terminal. See id. at
7:58–8:3, 12:1–15.

94a
4. Gordon (Ex. 1017)
Gordon describes a “method and apparatus for
providing subscription-on-demand (SOD) services for
a[n] interactive information distribution system,
where a consumer may subscribe to packages of ondemand programs for a single price[.]” Ex. 1017, Abstract. Figure 8 of Gordon is reproduced below.

Figure 8 of Gordon shows “a menu that allows a consumer to subscribe to a selected subscription-on-demand service.” Id. at 3:40–41. According to Gordon,
“through manipulation of the menus, the consumer
[can] select[] a programming package [and] become[]
a subscriber to that package and [will be] billed accordingly.” Id. at 2:61–63.
5. Martin (Ex. 1018)
Martin is titled “Remote Control Identifier Setup
in a Video System Having Both IR and RF Transmitters,” and it describes “[a] video system is disclosed including a receiver that generates a remote identifier
setup display on a television monitor and further including a remote control unit having a radio frequency
transmitter and an infrared transmitter.” Ex. 1018,
[54], Abstract. Petitioner relies on Martin for its
teaching of remote control devices that transmit identifiers. See Pet. 67 (analysis of claims 11 and 21). As

95a
explained by Martin, “[t]he video system enables a
user to enter a remote control identifier for the radio
frequency transmitter through the remote identifier
setup display using the infrared transmitter.” Ex.
1018, Abstract.
6. Blahut (Ex. 1019)
Blahut is titled “Restricted Access Remote Control
Unit,” and it describes a “device for restricting access
to certain programs.” Ex. 1019, [54], Abstract. Blahut
describes the use of remote control units (“RCUs”), as
well as RCUs that may be used in an interactive television environment. Ex. 1019, 1:8–11. Petitioner relies on Blahut for its teaching of remote control devices that transmit identifiers. See Pet. 67 (analysis
of claims 11 and 21).
E. Instituted Grounds of Unpatentability
Petitioner challenges claims 1–9, 11–19, and 21 of
the ’326 patent based on the asserted grounds of unpatentability set forth in the following table. Pet. 3–
4.
Asserted Grounds
Reference(s)

Basis 3

Murdock

§ 103(a)

Murdock and Banker or
Gordon

§ 103(a)

Claims
Challenged
1–7 and
12–17
8, 9, 18,
and 19

The relevant section of the Leahy-Smith America Invents Act
(“AIA”), Pub. L. No. 112–29, took effect on March 16, 2013. Because the application from which the ‘326 patent issued was filed
before that date, the pre-AIA statutory framework applies.
3

96a
Asserted Grounds
Basis 3

Claims
Challenged

Murdock and Martin or
Blahut

§ 103(a)

11 and 21

Julia

§ 103(a)

Reference(s)

Julia and Banker or Gordon
Julia and Martin or
Blahut

§ 103(a)
§ 103(a)

1–7 and
12–17 4
8, 9, 18,
and 19
11 and 21

We instituted inter partes review of claims 1–9, 11–19,
and 21 on all grounds set forth in the above table for
these claims. Dec. 30.
II. ANALYSIS
A. Level of Ordinary Skill in the Art
In determining the level of ordinary skill in the
art, various factors may be considered, including the
“type of problems encountered in the art; prior art solutions to those problems; rapidity with which innovations are made; sophistication of the technology; and
educational level of active workers in the field.” In re
GPAC, Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995) (citation omitted). In that regard, Petitioner and Mr.
The Petition states at page 3 that “[a]ll challenged claims are
unpatentable as obvious over Julia (Ex. 1015) alone,” but at page
45, and thereafter, the Petition only challenges claims 1–7 and
12–17 as obvious based on Julia alone. Because the Petition includes no substantive analysis of any claim other than claims 1–
7 and 12–17, based on Julia alone, we read the Petition as challenging only claims 1–7 and 12–17 based on Julia alone. The
Petition makes the same mistake for the ground based on Murdock alone. See Pet. 3, 18–32.
4

97a
Schmandt contend that a person of ordinary skill in
the relevant art would have:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least three years of
professional work experience in the field of
multi-media systems including in particular
speech recognition and control technologies;
or (ii) an advanced degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and at least one year of
post-graduate research or work experience in
the field of multi-media systems including in
particular speech recognition and control
technologies.
Pet. 8 (emphases added) (citing Ex. 1023 ¶¶ 81–83).
Patent Owner does not propose an alternative definition nor does Patent Owner respond to Petitioner’s
proposal. See generally PO Resp.
Based on the final record, we adopt, with modification (e.g., removal of the qualifier “at least,” which
broadens ordinary skill to include expert level
knowledge and skill), Petitioner’s definition of a person of ordinary skill in the art:
(i) an undergraduate degree (or equivalent) in
electrical engineering, computer science, or a
comparable subject and three years of professional work experience in the field of multimedia systems including in particular speech
recognition and control technologies; or
(ii) [a Master’s of Science] degree (or equivalent) in electrical engineering, computer science, or a comparable subject and []one year
of post-graduate research or work experience

98a
in the field of multi-media systems including
in particular speech recognition and control
technologies.
We further note that the prior art in the instant proceeding reflects the level of ordinary skill in the art at
the time of the invention. See Okajima v. Bourdeau,
261 F.3d 1350, 1355 (Fed. Cir. 2001). For example, as
reflected in Julia, a person of ordinary skill in the art
would have familiarity with “the navigation of electronic data by means of spoken natural language requests,” such that a user may “interact by means of
intuitive natural language input not strictly conforming to the step-by-step browsing architecture of the existing navigation system.” See Ex. 1015, 1:16–20,
2:13–20.
B. Claim Construction
In an inter partes review based on a petition filed
prior to November 13, 2018, claim terms in an unexpired patent are given their broadest reasonable construction in light of the specification of the patent in
which they appear. See 37 C.F.R. § 42.100(b) (2017);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016) (upholding the use of the broadest reasonable interpretation standard as the claim construction standard to be applied in an inter partes review proceeding). Under the broadest reasonable interpretation standard, 5 claim terms generally are
The claim construction standard to be employed in an inter
partes review recently has changed. See Changes to the Claim
Construction Standard for Interpreting Claims in Trial Proceedings Before the Patent Trial and Appeal Board, 83 Fed. Reg.
51,340 (Nov. 13, 2018) (codified at 37 C.F.R. pt. 42). That new
standard, however, applies only to proceedings in which the petition is filed on or after November 13, 2018. This Petition was
filed on December 19, 2017.
5

99a
given their ordinary and customary meaning as would
be understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Petitioner proposes constructions for two terms:
“speech recognition engine” and “STB.” Pet. 8–11. Patent Owner argues that “[t]he Board need not construe either of these terms because construction is unnecessary to resolve to dispute between the parties.”
PO Resp. 8. We agree that the claim construction of
these two terms is not necessary to resolve the current
dispute.
Patent Owner instead proposes that one other
term—”network path”—”must be construed to resolve
the dispute between the parties.” Id. We agree. Patent Owner argues that “network path” should be construed as a physical route through which data is
transmitted from a source to a destination. Id. at 8.
Patent Owner notes that this was a “compromise” definition agreed to by the parties in district court litigation. Id. at 11 (citing Ex. 2039, 20). As discussed below, we agree with this “compromise” definition. Petitioner notes that adopting Patent Owner’s construction does not change the result. See Pet. Reply 10–11
(“Nevertheless, even under Patent Owner’s proposed
construction, the prior art discloses the same ‘first
network path’ and ‘second network path.’ Schmandt
Reply Decl. ¶¶ 4-10.”).
The main claim construction issue arises in Patent Owner’s attempt to differentiate the asserted
prior art from the claimed invention. Thus, examining the term “network path” requires not just consideration of the arguments made by Patent Owner in its
claim construction section, but also a consideration of
the arguments made to differentiate the prior art. A

100a
point of contention between the parties is that Patent
Owner additionally argues that the “network path”
must have two nodes. For instance, Patent Owner argues a “network path” also requires a path or physical
route between two nodes within a network. PO Resp.
8, 14–15. Patent Owner then adds an additional requirement, arguing that a “node” must be a device
that can both send and receive messages. Id. at 17.
Based on the final record before us, we do not agree
with Patent Owner that a network path must have
nodes that can both send and receive messages.
Petitioner argues that the “broadest reasonable
interpretation of the claim term ‘network path’ in
light of the specification is simply a path that a signal
takes through a network of devices.” Pet. Reply 9 (citing Ex. 1033 ¶ 4). Petitioner contends that the “compromise” definition adopted in the related district
court proceeding should not be adopted. Id. Petitioner
then argues, that
[n]evertheless, even under Patent
Owner’s proposed construction, the prior art
discloses the same “first network path” and
“second network path.” Schmandt Reply Decl.
¶¶ 4-10. Patent Owner’s proposed construction of “network path” is a “physical route
through which data is transmitted from [a]
source to [a] destination,” which a person of
ordinary skill in the art would understand to
include the network paths Petitioner identified in Murdock and Julia. Id.; Schmandt
Decl. ¶¶ 259-261, 263-265, 394, 397-398.
Id. at 10–11. As addressed more below, we agree with
Petitioner that Patent Owner’s proposed construction
does not change the result here—the challenged

101a
claims are invalid in view of the prior art under either
proposed definition of “network path.”
The main dispute, as noted above, is not with Patent Owner’s basic proposed claim construction for
“network path”—a physical route through which data
is transmitted from a source to a destination—but instead with Patent Owner’s additional proposals that
further restrict this limitation. See PO Resp. 11 (citing Ex. 2039, 20). In its analysis of the prior art, Patent Owner further requires that a “network path”
must consist of “(1) a ‘path’ or physical route of travel
between two nodes (2) within a ‘network.’” Id. at 14–
15. Patent Owner then argues that Julia’s wireless
remote cannot be a node on the network because it
“cannot ‘receive[] messages from the network and . . .
put messages on the network,’ . . . and thus cannot be
a node under Schmandt’s definition.” Id. at 17 (citing
Ex. 2034, 32:17–19); PO Sur-Reply 1. We disagree
with this last point of contention.
We have considered the intrinsic evidence and
find no support in the Specification for requiring every
node to be capable of both receiving and sending messages on the network. First, we agree with Mr.
Schmandt that a skilled artisan would have known
that a “physical” route in a network “includes both
wireline connections (e.g., signals traveling through
wire, fiber-optic cable, etc.) and wireless connections
(e.g., signals traveling through the air).” Ex. 1033 ¶ 8;
see also Ex. 1001, Fig. 3 (illustrating the signal path
from the user through the network and ultimately to
the voice recognition processors), 9:42–51, 10:16–22.
Second, the word “node” does not appear in the challenged claims of the ‘362 patent. Third, even if nodes
were required, the Specification reveals that the wireless connection between the remote and set-top box

102a
can be bi-directional or “strictly from remote control
1000 to set-top box or appliance 1100.” Ex. 1001,
10:63–67; see also id. at 26:13–15 (“The invention supports unidirectional communication via coupling
1002, supporting communicative transfer from the remote 1000 via coupling 1002 to set-top apparatus
1100.” (emphasis added)), 28:36–41 (a node “may also
support bi-directional communication” but does not
otherwise suggest that such a requirement would be
necessary in all situations).
Mr. Schmandt’s clarifying testimony is also persuasive.
Patent Owner’s argument appears to interpret my testimony to define a “node” as
something that both puts messages on the
network and also receives messages from the
network. In my opinion, that is not a reasonable reading of my testimony particularly in
light of my explanation that a network includes nodes that are endpoints. In the context of the ’326 Patent and the cited prior art,
such end points include the television remote
control and the television (i.e., nodes with only
one path into it).
Ex. 1033 ¶ 15. We agree with Mr. Schmandt that
nothing in the record limits a node to a device that
both sends and receives messages because “[a] person
of ordinary skill in the art would understand that a
‘network’ includes unidirectional nodes (i.e., nodes
that send or receive messages but not both).” Id. ¶ 17.
Accordingly, we agree with Patent Owner that a
“network path” means a physical route through which
data is transmitted from a source to a destination. We
do not agree with Patent Owner that a “network path”

103a
also requires nodes that both send and receive messages. Based on our review of the final record before
us, we determine that no additional claim terms require express construction to resolve the controversy.
See Nidec Motor Corp. v. Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir. 2017); Vivid
Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795,
803 (Fed. Cir. 1999) (holding that only claim terms
that “are in controversy” need to be construed and
“only to the extent necessary to resolve the controversy”).
C. Obviousness
1. General Principles
A claim is unpatentable under § 103(a) if the differences between the claimed subject matter “and the
prior art are such that the subject matter, as a whole,
would have been obvious at the time the invention
was made to a person having ordinary skill in the art
to which said subject matter pertains.” KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the
level of skill in the art; and (4) when in evidence, objective indicia of non-obviousness (i.e., secondary considerations). Graham v. John Deere Co., 383 U.S. 1,
17– 18 (1966).
An invention “composed of several elements is not
proved obvious merely by demonstrating that each of
its elements was, independently, known in the prior
art.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 418
(2007). Rather, to establish obviousness, it is peti-

104a
tioner’s “burden to demonstrate both that a skilled artisan would have been motivated to combine the
teachings of the prior art references to achieve the
claimed invention, and that the skilled artisan would
have had a reasonable expectation of success in doing
so.” In re Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364,
1381 (Fed. Cir. 2016) (quotations omitted); see KSR,
550 U.S. at 418. Moreover, a petitioner cannot satisfy
this burden by “employ[ing] mere conclusory statements” and “must instead articulate specific reasoning, based on evidence of record” to support an obviousness determination. Magnum Oil, 829 F.3d at
1380. Stated differently, there must be “articulated
reasoning with some rational underpinning to support
the legal conclusion of obviousness.” KSR, 550 U.S. at
418 (quoting In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006)). The “factual inquiry” into the reasons for
“combin[ing] references must be thorough and searching, and [t]he need for specificity pervades . . . .” In re
NuVasive, Inc., 842 F.3d 1376, 1381–82 (Fed. Cir.
2016) (quotations omitted). We analyze the asserted
grounds with these principles in mind.
2. Obviousness Ground Based on Julia Alone
Petitioner contends that claims 1–7 and 12–17 are
unpatentable over Julia under 35 U.S.C. § 103(a), relying on the supporting testimony of Mr. Schmandt.
Pet. 45–59 (citing Ex. 1023). For the reasons set forth
above and below, Petitioner’s explanations and evidence establish by a preponderance of the evidence
that claims 1–7 and 12–17 would have been obvious
pursuant to this ground. We begin our analysis with
an overview of the parties’ contentions related to independent claims 1 and 12, followed by our analysis

105a
for claims 1 and 12. We then address the parties’ contentions related to the remaining claims, followed by
our analysis.
i. Petitioner’s Challenge (Claims 1 and 12)
In challenging claim 1, Petitioner notes that “both
the ’326 patent and Julia specifically relate to remote
recognition of voice commands for a cable television
client device.” Pet. 59 (citing Ex. 1001, 5:10–13; Ex.
1015, 2:30– 36). Petitioner submits that “Julia discloses a method for speech directed information delivery.” Pet. 45 (citing Ex. 1023 ¶ 390). Petitioner points
to Julia’s disclosure of “a system, method, and article
of manufacture for navigating network-based electronic data sources in response to spoken input requests.” Id. (quoting Ex. 1015, 2:27–30). Julia receives spoken requests and interprets the request in
order to “automatically construct[] an operational
navigation query to retrieve the desired information
from one or more electronic network data sources.” Id.
(quoting Ex. 1015, 2:36–41).
Petitioner identifies the claimed receiving speech
information at a first device, wherein said first device
is a wireless device of claim 1 as being taught by
Julia’s “‘voice input device 102’ (in Fig. 1a), which constitutes a ‘first device’ that is ‘wireless’ and ‘receiv[es]
speech information.’” Id. at 46 (quoting Ex. 1023
¶ 392; Ex. 1015, 3:45–54). According to Petitioner,
Julia’s “voice input device 102 is a ‘portable remote
control device with an integrated microphone, and the
voice data is transmitted from device 102 preferably
via infrared (or other wireless) link to communications
box 104.’” Id.

106a
Claim 1 next requires “transferring said speech
information from said first wireless device via a first
network path to a speech recognition engine.” Petitioner contends that Julia teaches “transmitting spoken commands (i.e., the claimed ‘speech information’)
from voice input device 102 to communications box
104 and then over network 106 to remote server 108
for speech recognition processing.” Pet. 47 (quoting
Ex. 1015, 3:45–66 (“[T]he voice data is processed by
request logic 300 in order to understand the user’s request and construct an appropriate query or request
for navigation of remote data source 110.”)). Petitioner next contends that “‘request processing logic
300’ located at remote server 108 constitutes a ‘speech
recognition engine,’ as recited in the claim.” Id. at 47
(citing Ex. 1023 ¶ 394). To illustrate these positions,
Petitioner submits annotated versions of Julia’s Figure 1a (id. at 47–50), copies of which we reproduce below:

107a
Petitioner’s annotated Figure 1a (Pet. 48) depicts a
first wireless device and first network path. Petitioner identifies the first network path disclosed by
Julia from voice input device 102 through communications box 104 and then over network 106 to remote
server 108 for speech processing logic 300. Pet. 47–48
(citing Ex. 1015, 3:45–66).
As for the claimed “recognizing said speech information and effecting information delivery to a second
device via a second network path,” Petitioner relies on
“Julia disclos[ing] transmitting programming content
(i.e., ‘effecting information delivery’) from the remote
server computer to the local processing unit and then
to the television display (i.e., ‘second device’).” Pet. 49
(quoting Ex. 1023 ¶ 397). Petitioner relies on a second
annotated Figure 1a as further illustrating the “second network path” from the speech recognition engine
to the viewer’s television:

108a
Petitioner’s annotated Figure 1a (Pet. 50) depicts a
highlighted second network path leading to client display device 112, which Petitioner identifies as the
claimed second device. Relying on the testimony of
Mr. Schmandt, Petitioner identifies the second network path as the path “transmitting requested content from remote server 108 through network 106 to
communications box 104 and ultimately to client display device 112.” Pet. 50 (citing Ex. 1015, 3:45–66; Ex.
1023 ¶ 397).
Petitioner addresses the contention that input device 102 is not in the network path by arguing that
Julia discloses that “voice data is transmitted
from voice input device 102 . . . to communications box 104” and the “voice data is then
transmitted across network 106 to a remote
server or servers 108” for speech recognition
processing. Ex. 1015, 3:45– 55, 61–66. Thus,
the voice input device is the source of the voice
data and remote server 108 is the destination.
The path between them (illustrated above) is
the “first network path” even under Patent
Owner’s proposed construction. Schmandt
Reply Decl. ¶ 6.
Pet. Reply 13–14. Petitioner next argues in Reply that
Julia’s voice input device need not be considered a
node on the network, because “the word ‘node’ does not
appear in any of the challenged claims or even in Patent Owner’s proposed construction of ‘network path.’”
Id. at 14. Petitioner points out that Patent Owner attempts “to make ‘node’ relevant to ‘first network path’
by citing a proposed construction from related litigation that includes the word ‘node’—a proposal that Patent Owner itself opposed and that was never agreed
to or adopted.” Id. Petitioner further contends that

109a
“[t]here is simply no basis to apply Patent Owner’s unreasonable alternative construction of a ‘network
path,’ [which] exclude[es] any device that does not
both transmit and receive messages.” Id. at 14–15.
Petitioner relies on the testimony of Mr.
Schmandt, who states “that a network includes nodes
that are endpoints,” such as “the television remote
control and the television.” Ex. 1033 ¶ 15. Mr.
Schmandt similarly testifies that
I certainly do not understand, and one of ordinary skill in the art would not understand,
that a node is limited to a device that both
sends and receives messages, and I did not interpret the term “network path” in the challenged claims to exclude devices that cannot
both send and receive messages. It would be
unreasonable to impose such a limitation. A
person of ordinary skill in the art would understand that a “network” includes unidirectional nodes (i.e., nodes that send or receive
messages but not both). For example, a person of ordinary skill in the art would understand televisions in a broadcast television network to be network nodes (i.e., part of the network) though they only receive television signals. Similarly, a person of ordinary skill in
the art would understand that video cameras
are part of a security network though they
only transmit data to the central location.
Id. ¶ 17; Pet. Reply 14–15. As explained more below,
we find Mr. Schmandt’s testimony as to this issue persuasive.
Petitioner also relies on the Specification of the
’326 patent, “which states that the wireless connection

110a
between the remote and settop box can be bi-directional or ‘strictly from remote control 1000 to set-top
box or appliance 1100.’” Pet. Reply 15 (quoting Ex.
1001, 10:63–67). “Thus,” according to Petitioner, “the
remote is in the ‘first network path’ even though it can
be a unidirectional device.” Id. at 15–16.
“Petitioner also identified an alternative ‘second
network path’ in Julia from remote server 108 (source)
through network 106 to communications box 104 (destination). Pet. at 50; Schmandt Decl. ¶ 398; Schmandt
Reply Decl. ¶ 6,” and Petitioner contends that “Patent
Owner appears to concede that this path constitutes a
‘second network path’ as claimed.” Pet. Reply 17.
Claim 12 is similar in scope to claim 1, whereas
claim 12 also requires “[a] method for speech directed
information delivery,” and an identical “receiving
speech” step. See Pet. 55; Ex. 1001, 50:29–54. The
“transferring” step of claim 12 is nearly identical to
the “transferring” step of claim 1 with only one difference being that claim 12 states that the speech information is transferred from the first device “in an unrecognized state.” See id. Petitioner relies on Julia’s
user’s voice command being transmitted to the remote
server for speech recognition processing. Pet. 56 (citing Ex. 1015, 3:45–66). “Thus,” according to Petitioner, “Julia discloses ‘transferring said speech information in an unrecognized state.’” Id. (citing Ex. 1023
¶ 426).
The “recognizing” limitations of claim 12 overlap
substantially with the same limitations of claim 1.
“The only difference is that claim 12 recites that the
second device ‘is capable of displaying electronically
coded and propagated moving or still images and playing electronically coded and propagated audio.’” Id. at
56–57 (citing Ex. 1023 ¶ 71). Petitioner relies on

111a
Julia’s disclosure of client display device 112 (television) for the “second device,” or controlled device. Id.
(citing Ex. 1023 ¶¶ 428–429). Relying on the testimony of Mr. Schmandt, Petitioner reasons that “[a]
person of ordinary skill in the art would have known
that a television, in the cable network implementation
of Julia, was “capable of displaying electronically
coded and propagated moving or still images and playing electronically coded and propagated audio.” Id. at
57 (quoting Ex. 1023 ¶ 429). Notably, Patent Owner
does not specifically challenge any of the unique limitations found in claim 12, and, as such, we examine
claims 1 and 12 concurrently.
As explained below, we find Petitioner’s contentions persuasive, notwithstanding Patent Owner’s arguments set forth, and addressed, below.
ii. Patent Owner’s Argument (Claims 1 and 12)
Patent Owner presents arguments in contesting
Petitioner’s challenge to claims 1 and 12, and more
specifically, whether Julia teaches a first and a second
network path. PO Resp. 14–18. In particular, Patent
Owner first argues that it does not matter that the two
identified paths begin and end at different endpoints
because “under the plain meaning of the claim language, those points must be on the network.” Id. at
14. Patent Owner contends that Julia’s “device 102”
(first wireless device) is actually “outside the network”
and Petitioner fails to identify any disclosure of the
remote being inside the network. Id. at 14–15 (“the
network connection ends at element 104”).
As for the claimed “second network path,” Patent
Owner further alleges that television 112 is outside
the network. Id. at 15. According to Patent Owner,
“the network connection ends at element 104,” and as

112a
such, “both of the ‘paths’ identified by the petition
have the same endpoints— element 104 and element
108.” Id. at 16. Patent Owner further argues “that
the wireless microphone (el. 102) and element 112 are
not part of a network,” because a network path requires a path or physical route of travel between two
nodes within a network, and these nodes must all be
capable of receiving messages from the network and
putting messages on the network. Id. at 16–17 (citing
Ex. 2034, 32:17–19). Patent Owner contends that
“Julia only discloses that communication box 104, not
the wireless microphone or device 112, is connected to
network 106 and can receive messages and put messages on the network.” Id. at 17 (citing Ex. 1015,
3:47–55, 4:25–30).
Similarly, Patent Owner contends the Petition
fails to establish that Julia’s wireless microphone is a
node on the network. Id. According to Patent Owner,
“[b]ecause Julia only discloses that the voice input device has transmission (and not reception) capabilities,
it clearly cannot ‘receive[] messages from the network
and . . . put messages on the network,’ and thus cannot be a node under Schmandt’s definition. Ex. 2034
at 32:17-19.” Id. at 17; see also id. at 17–18 (“[T]he
petition does not assert that the television can ‘receive[] messages from the network and can put messages on the network,’ Ex. 2034 at 32:17-19, and thus
failed to show the television is node under Schmandt’s
definition.”). As explained above in the claim construction analysis, we reject this narrow interpretation of “network path.”
In its Sur-Reply, Patent Owner similarly argues
that the voice input device and display device of Julia
are not part of a network path because these devices
are not nodes on a communication network. PO Sur-

113a
Reply 4–7. Patent Owner analogizes that while a keyboard can input text into an email and a monitor is
capable of displaying this information, neither device
would be considered part of the network because they
cannot send and receive messages. Id. at 4. According
to Petitioner, Julia’s voice input device 102 is not on
network 106 because the endpoint is communications
box 104. Id. at 5–6. Likewise, for the second network
path, Patent Owner argues that display device 112 is
not an endpoint because “in Julia, it is the communications box 104, not display device 112, that receives
the network messages.” Id. at 7. Thus, Patent Owner
concludes that “the Petition fails to establish that
Julia discloses the claimed first and second network
paths because it fails to prove that the remote and the
controlled device are nodes on a communication network, which its mappings would require.” Id. at 7–8.
iii. Secondary Considerations
Patent Owner’s Contentions
Patent Owner contends that “several objective indicia based on the success and acclaim of an AgileTV
system embodying the invention of the ’326 patent
provide compelling additional evidence that the challenged claims were nonobvious.” PO Resp. 21. Patent
Owner relies on the purported success of AgileTV’s
(the assignee of the ’326 patent) system using “a voiceenabled search and navigation solution for the cable
industry.” Id.
Citing the Chaiken Declaration, Patent Owner
first alleges that the “AgileTV system embodies the
invention disclosed and claimed in the ’326 patent.”
Id. at 24–25 (citing Ex. 2032 ¶¶ 8–12, 13–16). Mr.
Chaiken testifies that “[t]he embodiments described

114a
in the ’326 patent describe the foundations of the design of the AgileTV solution,” and “[t]he ’326 patent
describes the initial architecture of the AgileTV solution, which was subsequently extended and improved
by AgileTV.” Ex. 2032 ¶ 14. Patent Owner also contends that “[t]he specification of the ’326 patent further describes the AgileTV solution at the time of the
’326 patent, including the AgileTV Speech Processor,
the AgileTV Voice Processing Unit (AVPU), and a similar depiction of the system architecture.” PO Resp.
25.
Patent Owner alleges that “[u]nlike existing
speech recognition methods and systems, the ’326 patent teaches using a first network path to transfer
speech information to a speech recognition engine,
which recognizes the speech information and effects
information delivery via a second network path.” Id.
(citing Ex. 1001, 22:8–12, 23:63–24:3). According to
Patent Owner, “the evidence of objective indicia of
nonobviousness similarly relates to these same features of the AgileTV system that were used to provide
voice recognition processing for users in a cable television network.” Id. Patent Owner contends “[t]he
success and industry praise of the AgileTV system
was the direct result of AgileTV having successfully
implemented the claimed invention to provide voice
recognition processing for multiple users in a cable television network.” Id. at 27 (emphasis added). Thus,
Patent Owner asserts a nexus exists between the AgileTV systems and the claimed invention.
Patent Owner next claims that “[t]here was a
long-felt but unmet need for using voice recognition in
cable systems, and the AgileTV system successfully
satisfied this need in Comcast’s own network.” Id.
(emphasis omitted). According to Patent Owner,

115a
there was an unmet need “for using voice recognition
in cable systems,” and “[p]revious tools for navigating
the large amounts of content in cable systems were
unwieldy and impractical.” Id. (citing Ex. 2032 ¶¶ 6–
8). Patent Owner alleges that “prior to AgileTV’s solution, no one had provided voice recognition processing for multiple users in a cable television network using an architecture including the claimed invention of the ’326 patent.” PO Resp. 28. Patent
Owner alleges that the AgileTV system satisfied the
long-felt but unmet need and was successfully implemented, such as through demonstrations and field trials in Comcast’s cable network system and for other
potential customers. Id. Patent Owner’s evidence in
support of this contention consists of citation to Mr.
Chaiken’s Declaration and to a 2005 online article
(Ex. 2040), which states that AgileTV was “the first
company to bring voice-activated remotes and program guide[s] to market.” Id. (quoting Ex. 2040 (Hey,
Remote: Find ‘Seinfeld’, Steve Donahue, (dated Jan.
23, 2005))).
Patent Owner next contends that “the AgileTV
system was widely praised within the cable industry
because it provided advantages that previously were
unavailable.” PO Resp. 29 (citing Ex. 2032 ¶¶ 17–25).
Patent Owner points to AgileTV’s alleged “Most Innovative Solution Award” from Speech Technology Magazine. Id. (citing Ex. 2009, 3). Exhibit 2009, discussed
in more detail below in relation to Petitioner’s Motion
to Exclude, is an internal email purporting to be a
communication related to a potential AgileTV press
release discussing the “Most Innovative Solution
Award.” See Ex. 2009, 1 (“first draft of the AgileTV
Speech Technology award press release”).

116a
Patent Owner also cites the appearance of AgileTV’s former CEO (Paul Cook) and CTO (Harry
Printz) to the Kudlow & Cramer television show on
CNBC in 2004 to talk about the AgileTV solution and
to demonstrate the technology. PO Resp. 29 (citing
Ex. 2032 ¶ 23; Ex. 2018; Ex. 2019). Patent Owner also
relies on “[a] study of Comcast by the Buckingham Research Group in May 2005.” Id. at 30 (citing Ex. 2032
¶ 24; Ex. 2020, 7).
Patent Owner also alleges that Comcast praised
the AgileTV system. PO Resp. 30. Patent Owner
points to a request by Comcast to deploy AgileTV’s
“voice recognition solution into portions of Comcast’s
cable network,” and Comcast further allegedly “requested AgileTV to demonstrate its solution for Comcast’s management and even Senators.” Id. (citing Ex.
2032 ¶¶ 19–21; Ex. 2011; Ex. 2012; Ex. 2013; Ex.
2014). Patent Owner further contends that “Comcast
expressed an intent to invest in AgileTV and deploy
the AgileTV solution for Comcast’s 21 million subscribers.” Id. at 31 (citing Ex. 2032 ¶ 21; Ex. 2015).
Patent Owner also relies on a license agreement with
Comcast, claiming “that Comcast itself previously licensed the AgileTV solution, including rights to what
is now the ’326 Patent.” Id. at 32 (citing Ex. 2032 ¶ 27;
Ex. 2022 (“License and Development Agreement”); Ex.
2023 (“Marketing Trial Agreement for Voice Activated
Television Control Service”). The agreements provide
Comcast with rights to use the AgileTV solution internally and to run trials of the system. Id. at 32–33.
Patent Owner presents evidence that the AgileTV solution was tested by Comcast, with test market households receiving “a voice-activated remote, the
Promptu receiver, an installation DVD, quick start
guide, user’s guide, and voice reference card.” Id. at

117a
33 (citing Ex. 2032 ¶¶ 31–32; Ex. 2026; Ex. 2027; Ex.
2028; Ex. 2029).
Patent Owner next claims that “Comcast copied
the claimed invention.” PO Resp. 33. Patent Owner
alleges that after the field trials of the AgileTV solution, Comcast did not take a longer-term license, and
thereafter began marketing its own voice recognition
product. Id. (citing Ex. 2032 ¶ 33). Patent Owner contends that “Comcast’s implementation of voice recognition in its X1 System is practically identical to the
AgileTV solution installed in Comcast’s cable network
in the mid-2000s.” Id. at 33– 34. Patent Owner claims
that “Comcast’s X1 System practices the invention
claimed in the ’326 patent.” Id. at 34 (citing Ex. 1021,
83–103). Patent Owner’s proof of copying are district
court “initial claim charts” (Ex. 1021, 83) and Exhibit
2026, which is an instructional video for “Promptu
Voice Controlled Television” for Comcast Cable.
Patent Owner also contends that the AgileTV solution was commercially successful because it raised
millions in investment funding. PO Resp. 31–32 (citing Ex. 2032 ¶ 26; Ex. 2002, 3; Ex. 2003, 34; Ex. 2021,
1–2).
Petitioner’s Contentions
Petitioner contends that Patent Owner has failed
to “establish a nexus between its evidence and any
novel features of the challenged claims.” Pet. Reply
19 (emphasis omitted). Petitioner disagrees that a
nexus should be presumed because Patent Owner has
not established that the AgileTV product embodies
the claimed invention. Id. at 19–20. Petitioner attacks Patent Owner’s supporting evidence. Petitioner
notes that “Patent Owner relies on a conclusory dec-

118a
laration by its former CTO David Chaiken and a figure Patent Owner asserts is in the ’326 Patent’s provisional application, but which does not actually appear in the provisional application (or any of Patent
Owner’s other exhibits). Id. Petitioner contends that
Mr. Chaiken’s testimony is insufficient because he
makes no attempt to show that the elements of the
challenged claims were embodied in the AgileTV product or that it was “coextensive” with the challenged
claims. Pet. Reply 19, n.8 (citing Ex. 2032 ¶¶ 14–16).
Petitioner also alleges that Mr. Chaiken “never attempted to determine the scope of the challenged
claims.” Id. (citing Ex. 1028, 115:2–116:16).
Petitioner next argues that Patent Owner does
not attempt to identify any purportedly novel aspect
of the claims tied to its evidence of secondary considerations. Pet. Reply 20. Specifically, Petitioner argues:
Rather, it asserts that the challenged claims
were “[u]nlike existing speech recognition
methods and systems” because the patent
“teaches using a first network path to transfer
speech information to a speech recognition engine, which recognizes the speech information
and effects information delivery via a second
network path.” PO Resp. at 25. Patent Owner
makes no attempt to tie its secondary considerations evidence to these purportedly novel
aspects of the claims
Id. at 20–21. Petitioner also contends that the purported invention was known in the prior art, for example, “Julia discloses transmitting voice commands
on a first network path to a speech recognition engine
that recognizes and transmits content back on a second network path.” Id. at 21.

119a
Petitioner next challenges the contention that the
AgileTV system satisfied a long-felt but unmet need.
Pet. Reply 22. Petitioner makes the point that the
only evidence of long-felt need is testimony that the
problem arose as early as 2000, which was the same
year that the provisional application cited by the ’326
patent was filed. Id. Petitioner reasons that the need
could not be long-felt if the need arose in 2000 and was
met in the same year. Id. Petitioner further argues
that “Patent Owner offers no evidence to show that
the alleged “long-felt need” was “persistent” and not
already satisfied by the prior art. Id. Petitioner also
argues that the “long-felt need” could not have been
satisfied by the AgileTV product in Comcast’s own
network because “Comcast undisputedly rejected it.”
Id. at 22–23 (citing Ex. 1027, 215:13–217:7; Ex. 1028,
70:19-71:8).
Petitioner next contends that any evidence of industry praise is not tied to any novel feature of the
challenged claims, and should therefore be discounted. Pet. Reply 23–24. Petitioner points out that
the recognition given by a report by Buckingham Research Group (Ex. 2020, 7) is directed to the ease of
voice recognition searches, yet numerous prior art references of record already taught the same features.
Id. at 23. Likewise, Petitioner contends that Comcast’s “praise[] of the AgileTV product suffers the
same defect—the cited statements all relate to spoken
search functionality in the prior art.” Id.
As for the purported award by “Speech Technology
Magazine,” Petitioner contends there is no supporting
evidence of such an award except a self-congratulatory press release without any evidence of an actual
award. Id. (citing Ex. 2009, 1–2). Further, the Petitioner argues that “the press release credits aspects of

120a
the AgileTV system not in the challenged claims.” Id.
at 23–24. Petitioner also questions the alleged industry praise from a trial conducted in just 10 homes over
a month period (Ex. 2010, 5) because the summary of
this trial “shows only that an extremely limited test
did not fail —not ‘industry praise.’” Id. at 25.
Petitioner next argues that the challenged claims
are not commercially valuable and that the invention
has not been commercially successful. Pet. Reply 25.
Petitioner first notes that “Comcast’s payment under
the License and Development Agreement was a loan
that Patent Owner later repaid in full.” Id. (citing Ex.
1027, 156:5–12, 160:20–161:2). Petitioner then notes
that Comcast declined to license Patent Owner’s patents and “[a]fter failing to win Comcast’s business,
Patent Owner dropped its television product and
shifted to an automobile product instead.” Id. Petitioner also notes that Comcast did not license the challenged claims, but instead conducted a limited evaluation of the AgileTV product. Id. at 26 (Ex. 2022, 8).
Notably, Petitioner points out that “[t]he license required ‘no additional consideration’ for all of Patent
Owner’s then-pending patent applications and four
SRI patents.” Id. (citing Ex. 2022, 77–78 (Exhibit E);
Ex. 1036, 450:25–452:19. Further, Petitioner notes
that “[t]he license shows no ‘recognition and acceptance’ of the challenged claims because they did
not yet exist.” Id. (citation omitted).
Petitioner argues that the investment funding received was for two distinct products and nothing mentions particular patents or claimed features of the television product that would tie any investment to the
challenged claims. Pet. Reply 25 (citing Ex. 2003, 34;
Ex. 2002, 3; Ex. 2021, 1–2). Petitioner also notes that

121a
Patent Owner has cited no legal authority that investment funding is a secondary consideration of nonobviousness regarding a patent issued to the company
years later. Id. n.11.
As for alleged copying, Petitioner argues that the
only evidence presented are district court preliminary
infringement contentions, and infringement contentions standing alone are not sufficient evidence of copying. Pet. Reply 27. As explained below, we agree
with Petitioner that Mr. Chaiken’s testimony that
“unidentified ‘acquaintances’ saying ‘they confused
Comcast’s functionality with the AgileTV solution’
from ten years earlier,” is impermissible hearsay, to
which we give no weight. Id. (citing Ex. 2032 ¶ 34).
iv. Analysis (claims 1 and 12)
Based on the final record before us, and notwithstanding Patent Owner’s arguments and evidence, we
find Petitioner’s contentions with respect to claims 1
and 12 persuasive. Considering the evidence as a
whole, including Patent Owner’s evidence of objective
indicia of nonobviousness, we determine that Petitioner has established by a preponderance of the evidence that claims 1 and 12 would have been unpatentable as obvious over Julia.
Petitioner persuasively shows on the final record
that a person of ordinary skill in the art would have
understood Julia’s disclosure of voice input device 102
acts as the claimed “first device” for receiving spoken
commands, or speech information, wherein voice input device 112 is a wireless device. Pet. 45–46; Ex.
1015, 3:45–54; Ex. 1023 ¶ 392.
Claims 1 and 12 next require “transferring said
speech information from said first wireless device via
a first network path to a speech recognition engine,”

122a
and we are persuaded by Petitioner’s contention that
“Julia describes transmitting spoken commands (i.e.,
the claimed ‘speech information’) from voice input device 102 to communications box 104 and then over network 106 to remote server 108 for speech recognition
processing.” Pet. 47 (citing Ex. 1015, 3:45–66, Fig. 1a;
Ex. 1023 ¶ 394).
As explained above in the claim construction analysis, we disagree with Patent Owner’s contentions
that a “network path” requires devices that both send
and receive messages. See, e.g., PO Resp. 17 (“Julia
only discloses that communication box 104, not the
wireless microphone or device 112, is connected to network 106 and can receive messages and put messages
on the network.”). We find Mr. Schmandt’s testimony
more persuasive in opining that “one of ordinary skill
in the art would not understand[] that a node [on a
network path] is limited to a device that both sends
and receives messages, and I did not interpret the
term ‘network path’ in the challenged claims to exclude devices that cannot both send and receive messages.” Ex. 1033 ¶ 17. Further, we agree with Petitioner that the network contemplated within the ’326
patent includes unidirectional nodes (i.e., nodes that
send or receive messages but not both). Petitioner
also has persuasively shown that a physical route in a
network includes both wireline connections and wireless connections. See Ex. 1033 ¶¶ 7–10; Ex. 1001,
50:39–41 (“said first device is a wireless device”).
Given Patent Owner’s proposed basic construction
of “network path,” i.e., physical route through which
data is transmitted from a source to a destination,
which we have adopted, a person of ordinary skill in
the art would understand such a route to include the

123a
network paths Petitioner identified in Julia. Petitioner’s annotated Figure 1a (Pet. 48, 50) of Julia and
corresponding analysis explain how Julia teaches
both a first wireless device and first network path, as
well as a second network path leading to display device 112, which Petitioner identifies as the claimed
second device.

Petitioner’s annotated Figures 1a (Pet. 21, 22) of Julia
depicting a first network path and second network
path. Julia discloses that the user’s speech commands
are transmitted from the first wireless device (input
device 102) to communications box 104 and then over
network 106 to remote server 108 for speech recognition processing. Ex. 1015, 3:45–66. As illustrated
above, we agree with Petitioner that the path from input device 102 through communications box 104 and
then to remote server 108 for speech recognition processing constitutes the claimed “first network path.”
See Ex. 1023 ¶ 397.
With regard to Patent Owner’s first arguments,
we are not persuaded that input device 102 is outside
the network within the first network path identified
by Petitioner. Patent Owner argues that input device
102 is not in the network path because “element 102
is not included in network 106.” PO Resp. at 15. We
disagree because Julia teaches that “voice data is
transmitted from device 102 preferably via infrared

124a
(or other wireless) link to communications box 104
(e.g., a set-top box or a similar communications device
that is capable of retransmitting the raw voice data
and/or processing the voice data) local to the user’s environment and coupled to communications network
106” for transmission across network 106. Ex. 1015,
3:45–55. Communications box 104 simply retransmits the raw voice data (or processes it) that has originated from device 102. “Thus,” we agree with Petitioner that “the voice input device is the source of the
voice data and remote server 108 is the destination.”
Pet. Reply 14 (citing Ex. 1033 ¶ 6). We agree with Petitioner that the path between them (illustrated
above) is the “first network path,” even under Patent
Owner’s proposed construction. See Ex. 1033 ¶¶ 5– 6.
Petitioner has presented persuasive evidence and testimony from Mr. Schmandt explaining why these
claim elements are taught by Julia. See Pet. Reply
12–16; Ex. 1023 ¶¶ 394, 426; Ex. 1033 ¶¶ 5– 6.
Patent Owner additionally argues that the device
112 (television) is outside the network, and thus not
part of a second network path as required by claims 1
and 12. PO Resp. 15–16 (“Petitioner draws a television 112, which is outside the network, as being inside
the network.”). We also find this argument unpersuasive to rebut Petitioner’s contentions on the final record. Claim 1 and 12’s final limitation requires “recognizing said speech information and effecting information delivery to a second device via a second network path.” We agree with Petitioner that “Julia discloses that ‘[a]t remote server 108, the voice data is
processed by request processing logic 300 in order to
understand the user’s request’ and the requested content ‘is electronically transmitted via network 106 to
the user for viewing on client display device 112.’”
Pet. Reply 16 (quoting Ex. 1015, 3:61–66, 4:18–20).

125a
Patent Owner again suggests that because communications box 104 acts as a transfer, that somehow
display device 112 cannot be considered the destination of the second network path. But, considering the
plain meaning of the claim language, Patent Owner’s
arguments do not persuasively explain why display
device 112 would be outside the second network path
identified by Petitioner. Claim 1 requires “effecting
information delivery to a second device via a second
network path” and this operation is taught by Julia as
Petitioner and Mr. Schmandt explain. See Ex. 1023
¶¶ 397–398; Pet. Reply 16; Ex. 1033 ¶ 6.
Further, Petitioner also identified an alternative
“second network path” in Julia from remote server 108
(source) through network 106 to communications box
104 (destination). Pet. 50; Ex. 1023 ¶ 398 (explaining
that alternatively the communications box also constitutes a “second device” as claimed); Pet. Reply 17. Patent Owner does not persuasively address this alternative. See generally PO Resp. To the contrary, Patent Owner states that “the network connection ends
at element 104” and element 104 is part of the network. PO Resp. 15, 17–18.
We have considered the evidence presented by
both parties related to the objective indicia of nonobviousness. Considering the final record before us, we
find the evidence of nonobviousness to be weak and
the evidence of obviousness to be strong. On balance,
the strong evidence of obviousness outweighs the
weak evidence of nonobviousness.
Patent Owner contends that its AgileTV system
has been commercially successful and received industry praise. We address each of these considerations
below, but at the outset, we are not persuaded that
Patent Owner has established that its AgileTV system

126a
embodies the claimed invention. Patent Owner proceeds as if there is a presumption that because both
the AgileTV system and the ’326 patent relate to
voice-enabled searching, a nexus must therefore exist
between the product and the patent in that whatever
is claimed is embodied in the product. See PO Resp.
24–27. That is inappropriate.
Although the AgileTV system had many attributes related to a voice-enabled search and navigation
system, it simply cannot be presumed that what is
claimed is what is in the commercial product. Also,
the patent claims focus not just on voice-enabled
search and navigation features, but also on a defined
first and second network path. Specifically, Patent
Owner does not persuasively show how the commercial AgileTV system performed “transferring said
speech information from said first wireless device via
a first network path to a speech recognition engine,”
and then “recognizing said speech information and effecting information delivery to a second device via a
second network path.” See Ex. 2032 ¶¶ 8–16.
To establish the relationship between the claims
of the ’326 patent and the AgileTV system, Patent
Owner relies on two pieces of evidence—we address
each below. The first is a declaration by its former
CTO David Chaiken (Ex. 2032 ¶¶ 8–12, 13–16). The
second is a figure (PO Resp. 23, 26) Patent Owner asserts is in the ’326 patent’s provisional application.
This figure purports to show how “voice data could be
received by the Agile Engine [Agile TV platform] over
a first path (in blue), which could effect the video on
demand content provided from the VOD server over a
second path (in red).” PO Resp. 22. We first address
this figure and then Mr. Chaiken’s testimony.

127a
We are not persuaded that the Patent Owner has
persuasively established that the figure appearing at
pages 23 and 26 of Patent Owner’s Response depicts a
commercial embodiment of the AgileTV system. First,
Patent Owner alleges this figure is found in Exhibit
2006 (provisional application file history), but Exhibit
2006 has no such figure. Thus, this figure does not
actually appear in the provisional application (or any
of Patent Owner’s other exhibits in this proceeding).
See Ex. 2006. Patent Owner later clarifies that the
figure appearing at pages 23 and 26 of Patent Owner’s
Response “actually comes [from] the provisional application for the ’538 Patent,” and it “show[s] the architecture of the AgileTV system created by AgileTV in
2001.” PO Sur-Reply 20–21, n.5. Regardless, Patent
Owner has not persuasively shown the relevance of
this figure. Apart from the attorney argument quoted
above, Patent Owner also has not presented persuasive evidence showing that the AgileTV system actually implemented the architecture depicted in the figure found at page 23 of the Response. See Sur-Reply
20–21; see also PO Resp. 22–26; Ex. 2032 ¶¶ 9–16 (citing no evidence to support his testimony related to the
function of AgileTV and not discussing Exhibit 2006
or the figure at page 23 of the Response). Patent
Owner simply failed to tie the figure appearing at
pages 23 and 26 of Patent Owner’s Response to any
commercially produced version of the AgileTV system
for which Patent Owner now alleges commercial success, industry praise, and copying.
Mr. Chaiken’s testimony regarding the AgileTV
system fares no better because he has not explained
sufficiently or shown that the commercial AgileTV
system relied upon for commercial success, praise,
and copying, is covered by any challenged claim. See

128a
Ex. 2032 ¶¶ 8–16. He testifies that “[t]he embodiments described in the ’326 patent describe the foundations of the design of the AgileTV solution,” and
“the architecture and solution described in the ’326
patent accurately reflect the AgileTV solution by
2003.” Id. ¶¶ 14, 16. Such testimony is based on what
is described in the ’326 patent, not what is claimed.
Even with respect to what is described in the ’326 patent, Mr. Chaiken does not adequately explain how
and to what extent the broad and varied descriptions
in the ’326 patent specification are the same as what
is in the AgileTV system.
Mr. Chaiken fails to show that AgileTV “product
embodies the claimed features, and is coextensive
with them.” Brown & Williamson Tobacco Corp. v.
Philip Morris Inc., 229 F.3d 1120, 1130 (Fed. Cir.
2000). Further, on cross examination, Mr. Chaiken
admitted that he did not attempt to determine the
scope of the challenged claims, or examine the AgileTV system in light of that claim scope. Ex. 1028,
115:2–116:16. Patent Owner does not persuasively
show whether the claim scope of the application filed
in 2011 leading to the ’326 patent relates to the AgileTV system, which was discontinued some five years
earlier. Thus, we are not persuaded that the marketed AgileTV system embodies the claimed features
of the ’326 patent.
Likewise, the mention of the AgileTV system in
the Specification of the ’326 patent does not demonstrate that the AgileTV system embodied the claimed
invention of any challenged claim. At most, mention
of the AgileTV system in the Specification shows the
potential compatibility of the claimed invention with
an existing model of the AgileTV system, but nowhere
does the Specification state that the claimed invention

129a
was to be embodied into any specific commercial AgileTV system. See Ex. 1001, 12:38–49.
Because Patent Owner has not persuasively established that the marketed AgileTV system embodies all claimed features of any one challenged claim, a
presumption of nexus has not been shown by Patent
Owner. See WBIP, LLC v. Kohler Co., 829 F.3d 1317,
1329 (Fed. Cir. 2016) (“[T]here is a presumption of
nexus for objective considerations when the patentee
shows that the asserted objective evidence is tied to a
specific product and that product ‘is the invention disclosed and claimed in the patent.’” (quoting J.T. Eaton
& Co. v. Atl. Paste & Glue Co., 106 F.3d 1563, 1571
(Fed. Cir. 1997)).
Similarly, Patent Owner also has not persuasively
established that Comcast’s cable X1 System copies the
AgileTV system or is covered by the claims of the ’326
patent, as explained below. Considering the record as
a whole, including Patent Owner’s evidence of nonobviousness, Petitioner still has established obviousness
of the challenged claims. We examine the evidence for
each secondary consideration more below.
We are not persuaded by Patent Owner’s arguments alleging satisfaction of a long-felt but unresolved need (PO Resp. 27–28). Patent Owner asserts
that its invention satisfied a long-felt but unresolved
need, i.e., “for using voice recognition in cable systems.” PO Resp. 27. Patent Owner further asserts
that prior to AgileTV’s solution, “no one had provided
voice recognition processing for multiple users in a cable television network using an architecture including
the claimed invention of the ’326 patent.” Id. at 28.
The argument is misplaced, because it merely represents, at most, that Patent Owner is the first to conceive of all elements of its claimed invention. It does

130a
not mean that prior to the invention of the ’326 patent,
there were no cable systems providing voice recognition. We see no basis in the record to find that Patent
Owner’s claimed invention is the only way to use voice
recognition in cable systems.
Through the misplaced argument, Patent Owner
is asserting that whatever system that did not use Patent Owner’s claimed invention had a need that was
long-felt and unresolved. This circular approach is inappropriate and not meaningful. For purposes of further discussion, we separate the claimed invention
from Patent Owner’s assertion of what was the longfelt but unresolved need, and focus on what Patent
Owner has clearly stated as the long-felt but unresolved need, i.e., “using voice recognition in cable systems.” Id. at 28.
“[A]n allegation [of an unsolved problem in the
art] is not evidence of unobviousness unless it is
shown . . . that the widespread efforts of skilled workers having knowledge of the prior art had failed to find
a solution to the problem.” In re Allen, 324 F.2d 993,
997 (CCPA 1963) (citing Toledo Pressed Steel Co. v.
Standard Parts, Inc., 307 U.S. 350, 356 (1939) (“Nor
is there any evidence of general or widespread effort
to solve the problem here involved.”)). More recently,
the Federal Circuit clarified that although evidence is
particularly probative of nonobviousness when it
demonstrates both that a demand existed for the patented invention and that others tried but failed to
satisfy that demand, a patent owner “may establish a
long-felt need without presenting evidence of failure
of others.” Millennium Pharm., Inc. v. Sandoz Inc.,
862 F.3d 1356, 1369 n.5 (Fed. Cir. 2017). That clarification, is not of significance here because to demonstrate long-felt but unresolved need, Patent Owner

131a
does not rely on the character and nature of pre-existing “solutions” that have been provided.
Patent Owner identifies prior “solutions” by others as providing voice recognition processing for multiple users in a cable television network. Id. Petitioner refers to only one such prior solution as unsuccessful. Id. Patent Owner’s characterization of the
attempt as unsuccessful is not sufficiently supported
or explained. Mr. Chaiken states, in a conclusory
manner without explanation: “To my knowledge, Integra5’s solution [using a telephone call to request
content] was not successful.” Ex. 2032 ¶ 7. We do not
credit that testimony because Mr. Chaiken does not
provide the underlying basis for his conclusion that
Integra5’s solution was not successful.
Patent Owner identifies other solutions that “ran
solely on a set-top box, without a voice-activated remote control, and did not perform any operations at
the headend.” PO Resp. 28 (citing Ex. 2040). Patent
Owner does not state whether those “solutions”
worked or failed, in providing voice recognition in cable systems. If those solutions worked, then there was
no long-felt but unresolved need at the time of invention of the ’326 patent. If those solutions failed, Patent Owner has not explained why. Furthermore, it is
unclear what problem those efforts were attempting
to solve. It is unclear if those efforts even intended to
include a voice-activated remote control unit. In any
event, Patent Owner has not explained why the general problem of providing voice recognition in a cable
system requires a voice-activated remote control unit
to solve. The identification of these other “solutions”
is insufficiently explained to establish satisfaction of
long-felt but unresolved need for using voice recogni-

132a
tion in a cable system. Further, we note that the AgileTV system was not commercially adopted apart
from a limited test, and thus there is absence of any
showing by Patent Owner of a prompt adoption of its
proposed solution, which can be indicative of satisfaction of long-felt but unresolved need. See In re Mixon,
470 F.2d 1374, 1377 (CCPA 1973). Finally, as of 2000,
Julia provided detailed disclosures for voice recognition technology that could be integrated into the home
entertainment market. See Ex. 1015, 1:17–48.
To the extent Patent Owner regards providing
voice recognition processing for multiple users as the
long-felt but unresolved need, none of the challenged
claims require a system for multiple users. See PO
Resp. 28 (“no one had provided voice recognition processing for multiple users in a cable television network using an architecture including the claimed invention of the ’326 patent”). Thus, Patent Owner’s
own invention would not meet that need because the
challenged claims of the ’326 patent do not require
voice recognition processing for multiple users in a cable television network. See Therasense, Inc. V. Becton,
Dickinson & Co., 593 F.3d 1325, 1336 (Fed. Cir. 2010)
(“finding no long-felt need because the claims were
broad enough to cover devices that did not solve the
problem”).
For all the reasons set forth above, Patent
Owner’s arguments are not well supported by underlying evidence and testimony to establish satisfaction
of a long-felt need for Patent Owner’s patented invention in the cable TV industry.
Patent Owner’s evidence of industry (and Comcast) praise is also not persuasive. The recognition
given by a report by Buckingham Research Group (Ex.
2020, 7) is directed to the ease of voice recognition

133a
searches, yet numerous prior art references of record
in these proceedings also teach the same features. See
IPR2018-00342, Paper 54 (final decision). The evidence for the award by “Speech Technology Magazine”
is simply Patent Owner’s own self-congratulatory
press release without any evidence of the actual basis
or criteria for the award, or information from the magazine about the award. See Pet. Reply 23 (citing Ex.
2009, 1–2). Patent Owner has not shown that this
press release actually issued to the public. Additionally, the internal press release itself identifies purported advantages of the AgileTV system outside the
scope of the challenged claims. Id. For example, the
press release states that “Promptu utilizes an extensive, dynamically managed database of more than
100,000 phrases and delivers higher than 90 percent
voice recognition accuracy” (Ex. 2009, 1), yet the
claims do not require these features. Ex. 1027,
250:15–253:14, 255:22–258:21, 316:4–6. Additionally,
the AgileTV system employed voice recognition processing provided by a third-party vendor. Id.
The appearance of AgileTV’s former CEO (Paul
Cook) and CTO (Harry Printz) on the Kudlow &
Cramer television show on CNBC in 2004 to discuss
the AgileTV solution and to demonstrate the technology shows that others had an interest in the technology, but the appearance alone does not establish industry praise. See Ex. 2032 ¶ 23; Ex. 2018; Ex. 2019.
Moreover, the product did not work during this broadcast. Ex. 2019, 1–3 (“It won’t work precisely. Just go
through a dry run.”); Ex. 1028, 96:14–97:19. More importantly, the description of the product during the
broadcast highlighted the same voice search functionality disclosed in the prior art. Ex. 2019, 3 (such as
“find movies with Brad Pitt”). Patent Owner does not
effectively tie the evidence of industry or Comcast

134a
praise, if any, to any novel feature of the challenged
claims. As explained above, any praise given to AgileTV does not translate to the claims of the ’326 patent because Patent Owner has not established a
nexus.
Patent Owner also states its alleged “industry
praise above was directly based, for example, on the
AgileTV system’s ability to provide voice recognition
processing for multiple users in a cable television network using an architecture including the claimed invention of the ’326 patent.” PO Resp. 30 (emphasis
added). But again, to the extent Patent Owner regards providing voice recognition processing for multiple users as the basis of any industry praise, the
claims of the ’326 patent do not even require voice
recognition processing for multiple users.
As for copying, Patent Owner asserts that Comcast’s implementation of voice recognition in its X1
System is practically identical to the AgileTV solution
installed in Comcast’s cable network in the mid2000s, but we find Patent Owner’s support for these
allegations also lacking. Patent Owner does not persuasively establish whether the X1 System is a copy
of the AgileTV system or whether the X1 System
would be covered by the claims of the ’326 patent. Patent Owner’s proof that the Comcast X1 system copied
AgileTV are district court “Initial Claim Charts” (Ex.
1021, 83) and Exhibit 2026, which is an instructional
video for “Promptu Voice Controlled Television” for
Comcast Cable. Because the initial claim charts are
not supported by corresponding argument in the
briefs or expert testimony, we find them unpersuasive
in establishing copying or proving that the X1 system
is covered by the claims of the ’326 patent.

135a
Patent Owner alleges that Comcast rejected its
AgileTV system and “instead market[ed] its own voice
recognition product,” with an “implementation” that
“is practically identical.” PO Resp. 33–34 (citing Ex.
2032 ¶¶ 33–35). The support for these assertions is
Mr. Chaiken’s testimony that “acquaintances of mine
who were aware of the scope of my work at AgileTV
told me they confused Comcast’s functionality with
the AgileTV solution.” Ex. 2032 ¶ 34. This statement
is hearsay and excluded from consideration because
the statement is being offered for the truth of the matter asserted and the “acquaintances” have not made
any appearance in this proceeding to subject their beliefs to cross-examination. The only other evidence
cited by Mr. Chaiken to support his assertions that
Comcast’s X1 system somehow relates to AgileTV is
the fact that an infringement lawsuit was filed. Id.
¶ 35. Mr. Chaiken does not offer testimony as to the
accuracy of the district court litigation initial claim
charts. Ex. 1021, 83. In the aggregate, Patent
Owner’s evidence supporting the assertion that Comcast’s X1 system is a “copy” of AgileTV is not persuasive.
Finally, we determine that Patent Owner’s evidence and argument fails to demonstrate that the AgileTV system was commercially successful. Patent
Owner alleges commercial success because Comcast
licensed the AgileTV system and AgileTV received investor funding. Again, Patent Owner has not established that the challenged claims of the ’326 patent
cover any commercial embodiment of the AgileTV system. But, even if there was an established nexus, the
AgileTV system was not successful because the product was not adopted except in limited Comcast test
markets. Ex. 1027, 215:13–218:13. Also, the money

136a
transferred by Comcast to AgileTV pursuant to the license agreement was a loan that was repaid by AgileTV. Ex. 1027, 156:5–12, 160:20–161:25; see Pet. Reply 25. Further, Patent Owner dropped its AgileTV
system after being rejected by Comcast and shifted to
unrelated automobile voice control technology. Ex.
1027, 215:13–218:13. We also do not view investor
funding of a company, without more, as demonstrating commercial success of a product made by the company, and Patent Owner has not presented persuasive
evidence tying investment to the challenged claims.
See Ex. 2021, 1–2.
Patent Owner has not provided any pertinent information about competing products on the market,
nor has Patent Owner provided any relevant market
share information. See In re Applied Materials, Inc.,
692 F.3d 1289, 1300 (Fed. Cir. 2012) (“An important
component of the commercial success inquiry in the
present case is determining whether Applied had a
significant market share relative to all competing
pads based on the merits of the claimed invention,
which Applied did not show.”). Patent Owner also has
not shown pertinent market share information regarding the sales of products incorporating the
claimed invention.
Petitioner also presents persuasive evidence and
arguments addressing the unique limitations of claim
12, which are not found in claim 1. Specifically, Petitioner relies on Julia’s voice command being transmitted to the remote server for speech recognition processing, as teaching “transferring said speech information in an unrecognized state.” Pet. 56 (citing Ex.
1015, 3:45–66; Ex. 1023 ¶ 426). Petitioner relies on
Julia’s disclosure of client display device 112 for the
“second device,” or controlled device. Id. at 57 (citing

137a
Ex. 1023 ¶ 428–429). We agree that “[a] person of ordinary skill in the art would have known that a television, in the cable network implementation of Julia,
was ‘capable of displaying electronically coded and
propagated moving or still images and playing electronically coded and propagated audio.’” Id. (quoting
Ex. 1023 ¶ 429). Petitioner also establishes how Julia
teaches that “said first network path and said second
network paths are different,” because Julia’s “‘first
network path’ . . . goes from the voice input device to
the communications box and then via the network to
the remote server, while the ‘second network path’ begins at the remote server and goes via the network to
the communications box and ultimately to the client
display device (i.e., television).” Pet. 51. Patent
Owner does not challenge these unique limitations
found in claim 12 (but not claim 1) and we find persuasive Petitioner’s argument and evidence for these
limitations.
For the foregoing reasons, considering the entirety of the evidence before us, we determine that the
evidence of obviousness outweighs that of nonobviousness. Petitioner has established by a preponderance
of the evidence that claims 1 and 12 are unpatentable
as obvious over Julia.
v. Analysis (Claims 2–7 and 13–17)
We have reviewed Petitioner’s contentions regarding each of claims 2–7 and 13–17, and determine that,
notwithstanding Patent Owner’s argument discussed
below, Petitioner establishes by a preponderance of
the evidence that these claims would have been obvious over Julia. See Pet. 50–59. We determine that
Petitioner’s arguments with regard to the limitations

138a
added by these dependent claims relative to the independent base claim are persuasive as highlighted below.
Claim 2 depends from claim 1 and further requires “said first network path and said second network path are different paths.” Petitioner presents
persuasive arguments and credible evidence to support a finding that Julia discloses this limitation
whereas Julia’s “‘first network path’ . . . goes from the
voice input device to the communications box and then
via the network to the remote server, while the ‘second
network path’ begins at the remote server and goes
via the network to the communications box and ultimately to the client display device (i.e., television).”
Pet. 51.
Claim 3 depends from claim 1 and claim 13 depends from claim 12. Each claim further requires
“wherein said first device and said second device are
different devices.” Petitioner presents persuasive arguments and credible evidence to support a finding
that Julia discloses this limitation. Id. (“Julia discloses a first device (i.e., voice input device 102) that
is different than the second device (i.e., client display
device 112).”) (citing Ex. 1023 ¶ 406); see also Pet. 57–
58 (citing Ex. 1023 ¶¶ 72, 433).
Claims 4 depends from claim 1 and claim 14 depends from claim 12. Each claim further requires
“wherein said speech information comprises video
search information; and wherein said information delivery comprises video information.” Petitioner presents persuasive arguments and credible evidence to
support a finding that Julia discloses this limitation
whereas Julia uses spoken search command to identify video programming and then displaying several
records that satisfy a query in a manner to allow user

139a
selection. Id. at 51–52, 58 (citing Ex. 1015, 11:29–32,
36–43; Ex. 1023 ¶¶ 409–411, 435–437).
Claim 5 depends from claim 1 and claim 15 depends from claim 12. Each claim further requires
“wherein said speech information transfer comprises
transferring said speech information in either of a
partially recognized state or an unrecognized state.”
Petitioner presents persuasive arguments and credible evidence to support a finding that Julia discloses
this limitation whereas Julia’s speech transfer from
voice input device 102 to remote server 108 for speech
processing is in “an unrecognized state” as claimed.
Id. at 52–53, 58 (citing Ex. 1015, 3:45–66 (“capable of
transmitting the raw voice data and/or processing the
voice data” and the voice date may be transmitted in
compressed digital form or analog format); Ex. 1023
¶¶ 413, 439).
Claim 6 depends from claim 1 and claim 16 depends from claim 12. Each claim further requires
“wherein said wireless device is used for input and
output for control purposes, wherein said information
delivery is to said second device which comprises a television and STB.” Petitioner presents persuasive arguments and credible evidence to support a finding
that Julia discloses these limitations whereas Julia’s
portable voice input device is an “input” for spoken
commands that are then “output” to the communications box. Id. at 53–54, 58 (Ex. 1015, 3:37–60, 4:18–
30,; Ex. 1023 ¶¶ 415–417). Further, Petitioner shows
how the voice commands cause the remote server to
deliver video information, such as television programs, to the communications box and client display
device. Id.
Patent Owner does not address Petitioner’s contentions for the above claims and has therefore waived

140a
any opposition. See generally PO Resp.; see also Paper
16, 3 (“The patent owner is cautioned that any arguments for patentability not raised in the response will
be deemed waived.”).
Patent Owner’s only rebuttal as to the claims discussed in this subsection is to challenge whether Julia
alone teaches the requirement found in claims 7 and
17 6 of “determining a user site associated with a user
of the first device.” Ex. 1001, 51:34–35 (claim 7). We
address the parties’ contentions below related to this
limitation. Claim 7 requires:
The method of claim 1, further comprising at
least one of the steps of:
determining a user site associated with a user
of said first device;
determining said associated user site from
said recognized speech;
determining said associated user site from
said recognized speech and a speaker identification library;
determining said associated user site from
said recognized speech and a speech recognition
library; and
determining said associated user site from an
identification within said speech channel.

Claim 17 has the same limitations as claim 7. See Ex. 1001,
53:14–25. Claims 9 and 19 have similar “user site” limitations.
Id. at 51:62–52:4. Claims 9 and 19 are not challenged by Petitioner as obvious based on Julia alone, but our analysis here is
equally applicable to Petitioner’s challenges of claims 9 and 19
addressed below.
6

141a
Ex. 1001, 51:24–43. Importantly, only one of the
above steps need be shown in Julia to meet the “at
least one of” claim language. Petitioner, and Mr.
Schmandt, contend Julia teaches “determining a user
site associated with a user of said first device.” Pet.
54–55 (citing Ex. 1023 ¶¶ 419–420).
Petitioner addresses the “user site” limitation in
the Petition, arguing that:
Julia discloses a system in which multiple different users at multiple different locations all
access the same remote server to perform
speech recognition processing.
Schmandt
Decl. ¶ 420. Julia states that “multiple users,
each having their own client input device, may
issue requests, simultaneously or otherwise,
for navigation” of the remote data source.
Julia at 6:12-16. Once the Julia system identifies and recognizes a user’s voice command,
the remote server retrieves the desired information from the data source and transmits
the information to the user’s communications
box and client display device. Id. at 4:1820. . . . To do so, the remote server must determine the “user site associated with” the
user that issued the speech command using
“said first device” (i.e., voice input device 102).
Id. at 3:45-54; Schmandt Decl. ¶ 420.
Pet. 55. As further explained by Mr. Schmandt, “[a]
person of ordinary skill in the art would know that the
remote server would have to determine the particular
communications box issuing a particular voice command so that the recognized command could be transmitted back to the correct communications box,” and
further “[t]hat communications box has an associated
‘first device’ (i.e., voice input device 102), which the

142a
user of the system uses to input spoken commands.”
Ex. 1023 ¶ 420 (citing ex. 1015, 3:45–54). “Thus,” according to Mr. Schmandt, “Julia discloses determining
a user site, and the user site is associated with a user
of said first device (voice input device).” Id. We credit
the testimony of Mr. Schmandt because it is consistent with and supported by the cited evidence, as
well as on its face rational.
Patent Owner contends that Petitioner only sets
forth a case of inherency of the user site limitation for
each claim, but “the petition does not explain why this
feature would be inherent.” PO Resp. 19. Specifically,
Patent Owner argues “the petition fails to establish a
reasonable likelihood 7 that claim 7 is unpatenable.”
Id. at 19–20. Patent Owner makes identical arguments for claims 17 and 9. Id. at 20.
We have considered Patent Owner’s Response,
which consists only of attorney argument that the
“user site” claim limitation required by claims 7, 9, 17,
and 19 is not taught, either explicitly or inherently, by
Julia. After considering the final record before us, we
determine Petitioner has shown by a preponderance
of the evidence that Julia teaches a user site associated with a user of said first device as required by the
claim language. Julia’s remote server would have to
determine the particular communications box issuing
a particular voice command so that the recognized
command could be transmitted back to the correct
communications box. Ex. 1023 ¶ 420. Petitioner establishes that Julia’s disclosure of allowing users to
request content, and then delivering that content in

Petitioner must prove the elements of its case by a “preponderance of the evidence” and not just present a “reasonable likelihood.”
7

143a
response, creates a specific financial consequence
“such that content is provided to a user pay-per-view
or video-on-demand location and thus identified with
the user site as required by claim 9 (and claim 19).”
Pet. Reply 17–18 (citing Ex. 1023 ¶¶ 458, 475). Further “Julia also discloses that ‘multiple users, each
having their own client input device, may issue requests’ . . . of the remote data source,” such that
“[o]nce the desired information has been retrieved
from data source 110, it is electronically transmitted
via network 106 to the user for viewing.” Id. at 18
(citing Ex. 1015 4:24–30). Thus, Petitioner presents
persuasive argument and credible evidence that
“Julia teaches ‘determining a user site associated with
a user of said first device’ as recited in claim 7 and 17,”
and also as similarly required for claims 9 and 19. Id.
As noted above in the context of the independent
claims, we have determined that the objective evidence of nonobviousness does not overcome Petitioner’s strong showing of obviousness. The same is
true for these dependent claims. Furthermore, the evidence of nonobviousness is just as weak for these dependent claims because the dependent claims include
more limitations than the independent claims from
which they depend, and Patent Owner has not submitted secondary considerations evidence specifically
directed to the features of these dependent claims.
For the foregoing reasons, Petitioner has established
by a preponderance of the evidence that claims 2–7
and 13–17 are unpatentable as obvious over Julia.
3. Obviousness Ground Based on Julia
and Either Banker or Gordon
Petitioner contends that claims 8, 9, 18, and 19
are unpatentable over Julia and either Banker or Gor-

144a
don under 35 U.S.C. § 103(a), relying on the supporting testimony of Mr. Schmandt. Pet. 59–65 (citing Ex.
1023 ¶¶ 388, 450–483). Having now considered the
evidence in the complete record established during
trial, we are persuaded that, based on this record, Petitioner has demonstrated by a preponderance of the
evidence that claims 8, 9, 18, and 19 would have been
obvious over those references in combination.
Claim 8 depends from claim 1 and adds two additional limitations. The first limitation requires “assessing a response identified as to a user device comprising any of said first device and said second device
to create a financial consequence.” Petitioner contends Julia teaches this limitation. Pet. 59–60. “In
particular, Julia states that the disclosed invention
could be implemented ‘on any number of different
hardware and software computing platforms and environments’ specifically including the ‘Diva Systems
video-on-demand system.” Id. at 60 (citing Ex. 1015,
6:47–59; Ex. 1023 ¶ 450). Petitioner contends that
“[a] person of ordinary skill in the art would have
known that the Diva System provided pay-per-view
functionality,” and “a user could verbally request a
pay-per-view movie using the Julia system, and the
remote server would process the request and retrieve
the content.” Id. (citing Ex. 1023 ¶ 450).
The next limitation of claim 8 requires “billing a
user associated with said user device based upon said
financial consequence.” Petitioner contends that
“Julia discloses to a skilled artisan the step of ‘billing’
the requesting user ‘based upon said financial consequence’ (i.e., the pay-per-view purchase).” Pet. 60–61
(citing Ex. 1023 ¶¶ 450–451).

145a
Alternatively, Petitioner relies on either Banker
or Gordon combined with Julia for meeting the “assessing” and “billing” steps of claim 8. Pet. 61. Petitioner argues that “Banker discloses a system in
which the user can purchase a pay-per-view movie by
pressing the ‘BUY key’ on the television remote control and then entering a code provided by the system
to begin a purchase sequence.” Id. at 34–35, 61 (citing
Ex. 1016, 7:60–63, 16:43–17:3, Figs. 6F, 16:51–55
(“[T]he user by actuating the BUY key initiates a buy
sequence. Consequently, this key is used to purchase
an event.”). “Once entered by the user, the ‘code is
checked with the code stored in memory’ (i.e., ‘assessing [a] response identified’ [with the] user).” Id.
at 35 (citing Ex. 1016, 16:67–17:1). After pressing a
buy key, the user is billed. “Thus,” Petitioner establishes how “Banker discloses the ‘assessing’ and ‘billing’ steps recited in claim 8.” Id. (citing Ex. 1023
¶ 335). Likewise, Gordon teaches offering the subscriber an option to purchase an on-demand program
subscription, generating a master PIN as confirmation, and then updating the billing system with the
new subscriber’s account number. Id. (citing Ex.
1017, 2:60–63, 9:64–10:9, 10:16–27, 10:43–46, Figs.
3B and 8). We find Petitioner’s contentions for claim
8 persuasive on the final record before us.
Claim 9 depends from claim 1 and further requires “assessing a response to create a financial consequence identified with a user site” and “communicating said financial consequence to said user.” Petitioner relies on Julia’s disclosure of a payment for a
movie-on-demand as creating a financial consequence.
Pet. 61–62 (Ex. 1023 ¶¶ 458, 459–461). Petitioner
also shows how Banker and Gordon disclose “assessing” a response to “create a financial conse-

146a
quence,” and then displaying this “financial consequence.” Id. at 62 (Ex. 1023 ¶¶ 341, 459–461); Pet.
36 (“In Banker, a user can purchase a pay-per-view
movie by pressing the ‘BUY key’ on the television remote control and then entering a code provided by the
system to begin a purchase sequence. Banker at
16:43-55, 16:62-17:1, Fig. 6F.”); see also Ex. 1016,
16:62–17:3 (describing a display screen confirming the
viewer’s intent to accept the purchase).
Claim 9 further requires “said user confirming
said communicated financial consequence to create a
financial commitment,” and “billing said user based
upon said financial commitment.” Pet. 62–63. Petitioner contends that “[a] person of ordinary skill in the
art would know that a pay-per-view movie purchase,
such as that disclosed in Julia, involves informing the
user that they are making a purchase and confirming
their intent.” Id. at 63 (citing Ex. 1023 ¶ 465). Alternatively, Petitioner contends Banker and Gordon also
“disclose confirming the ‘displayed financial consequence’ to ‘create a financial commitment’ as required
by this claim.” Id. (citing Ex. 1023 ¶ 465); see id. at 38
(describing Banker’s “BUY” key and code for confirming the intent to purchase). Claim 9’s last requirement of “billing said user based upon said financial
commitment” is taught by Julia’s pay-per-view system, or, alternatively, “Banker and Gordon also disclose billing the subscriber for a pay-per-view purchase.” Id. at 63 (Ex. 1023 ¶ 467); see id. at 39
(“Banker also discloses billing the subscriber for a
pay-per-view purchase. Banker at 7:60-63, 16:6217:3.”). We find Petitioner’s contentions for claim 9
persuasive on the final record before us.

147a
Claim 18 recites limitations identical to claim 8,
and Petitioner adopts the analysis of claim 8 discussed above. Pet. 63–64. That analysis is persuasive
for reasons discussed above in the context of claim 8.
Claim 19 recites limitations identical to claim 9,
and Petitioner adopts the analysis of claim 9 discussed above. Id. at 64. That analysis is persuasive
for reasons discussed above in the context for claim 9.
Petitioner establishes persuasively that a person
of ordinary skill in the art would have been motivated
to combine the teachings of Julia with Banker or Gordon. Pet. 64–65 (citing Ex. 1023 ¶¶ 484–485). Each
reference provides similar interfaces for interactive
television networks and cable networks in particular,
as well as providing pay-per-view functionality. Id.
(citing Ex. 1015, 1:30–38, 3:36–60, Fig. 1a; Ex. 1016,
Abst.; Ex. 1017, 1:8–13). Mr. Schmandt testifies that
a person of ordinary skill in the art would have naturally considered Banker or Gordon in connection with
the system disclosed by Julia. Ex. 1023 ¶ 484. As argued by Petitioner, “the discussion of on-demand
video functionality in Julia suggests systems like
those disclosed in Banker or Gordon,” and both references teach the benefits of user interfaces that minimize the chances of accidental or unauthorized purchases. Pet. 65 (citing Ex. 1023 ¶ 485, Ex. 1016,
16:43–50, 16:51–55, 16:62–17:3, Fig. 6F; Ex. 1017,
2:60–63, 3:61–63, 8:66–10:9, 10:43–46; Figs. 3B, 8).
As explained by Mr. Schmandt, and with the above
benefits of Banker and Gordon in mind, “[i]t would
also have been within the capability of a person of ordinary skill in the art to combine Julia with either
Banker or Gordon to permit a user to order pay-perview movies using the sequence described by Banker

148a
or Gordon but using voice commands as in Julia.” Ex.
1023 ¶ 485.
Patent Owner does not present any arguments addressing Petitioner’s contentions for claims 8, 9, 18,
and 19 as obvious over Julia and either Banker or Gordon. See generally PO Resp. Patent Owner’s Response does not mention Banker or Gordon, nor does
the Response address the combination of Julia with
either Banker or Gordon. Patent Owner has therefore
waived any arguments for patentability related to this
ground. Id.; see also Paper 16, 3 (“The patent owner
is cautioned that any arguments for patentability not
raised in the response will be deemed waived.”).
With regard to the evidence of nonobviousness, we
have determined above, with respect to independent
claims 1 and 12, that the evidence of nonobviousness
is weak. That evidence is just as weak with respect to
dependent claims 8, 9, 18, and 19, because these
claims include all the elements of the independent
claims from which they depend. Patent Owner has
not persuasively shown that whatever was sold or licensed, whatever was allegedly copied, and whatever
was praised by others, had all the elements of the
claimed subject matter. Also, other deficiencies of the
assertions of industry praise, commercial success, copying, and satisfaction of long-felt but unresolved need,
with respect to claims 1 and 12, also apply to claims
8, 9, 18, and 19. Thus, as is the case with independent
claims 1 and 12, we determine that on the final record
the weak evidence of nonobviousness does not outweigh the strong evidence of obviousness presented by
Petitioner. For the foregoing reasons, Petitioner has
established by a preponderance of the evidence that
claims 8, 9, 18, and 19 are unpatentable as obvious
over Julia and either Banker or Gordon.

149a
4. Obviousness Ground Based on Julia and
Either Martin or Blahut
Petitioner asserts that claims 11 and 21 are unpatentable over Julia and either Martin or Blahut under 35 U.S.C. § 103(a), relying on the supporting testimony of Mr. Schmandt. Pet. 65–69 (citing Ex. 1023
¶¶ 487–500). For this ground, Petitioner relies on either Marin or Blahut combined with Julia for teaching
remote control devices that transmit identifiers. Pet.
66 (citing Ex. 1023 ¶ 487–489). For the reasons set
forth above, and for the reasons explained below, Petitioner has proven by a preponderance of the evidence based on the final record that claims 11 and 21
would have been obvious over Julia and either Martin
or Blahut.
Claim 11 requires “responding to recognized
speech identified as to said first device based upon
natural language to create a response uniquely identified with said user device.” Ex. 1001, 52:12–28.
Claim 21 recites a nearly identical limitation. Id. at
53:47–50. Petitioner relies on Julia’s disclosure “that
request processing logic 300 (located on remote server
108) includes both ‘speech recognition engine 310’ to
perform speech recognition and ‘natural language
(NL) parser 320,’ which ‘linguistically parses and interprets the textual output of the speech recognition
engine.” Pet. 66 (citing Ex. 1015, 7:12–13, 7:47–49,
Figs. 3, 4). Petitioner contends that the natural language interpreter determines both meaning of words
and grammar of the statement and then “the Julia
system provides the requested content (e.g., movie,
television program) to the particular requesting user
– one of many users accessing the speech recognition
engine.” Id. (citing 1015, 4:18–20, 4:24–30, 6:12–16,
Figs. 1a, 1b, 2). “Thus,” according to Petitioner, “Julia

150a
discloses using the ‘recognized speech’ to provide ‘a response uniquely identified’ with the requesting user,
as claimed.” Id. at 66–67 (citing Ex. 1023 ¶ 489).
Petitioner then alternatively contends that one of
skill in the art would have combined Julia with Martin and Blahut, which both disclose remote control devices that transmit identifiers. According to Petitioner,
A person of ordinary skill in the art would
recognize the benefit of combining Julia with
this teaching, including, for example,
uniquely identifying remote controls for access control purposes and providing the system designer with options for an identifier for
the particular home system, and thus the combination of Julia with either Martin or Blahut
would render this claim obvious. [Ex. 1023]
¶¶ 494, 501–502.
Pet. 67.
Petitioner further establishes that a person of ordinary skill in the art would have been motivated to
combine the teachings of Julia with either Martin or
Blahut. Id. at 68–69 (citing Ex. 1023 ¶¶ 501–502).
Petitioner notes each reference is in the field of “interactive television networks” and each relates to “remote controls communicating wirelessly with television set-top boxes.” Id. at 68. Petitioner argues that
the combination would provide a system designer with
options for an identifier for the particular home system, and the combination would enable “uniquely
identifying a remote control,” which in turn “would allow the system to limit what channels or functions are
available to a particular user, such as a child, of a remote control. Id. at 68–69 (citing Ex. 1019, 1:21–30;

151a
Ex. 1023 ¶ 502). Thus, according to Petitioner, “[a]
person of ordinary skill in the art would have naturally considered Martin or Blahut in connection with
the system disclosed by Julia.” Id. at 68 (citing Ex.
1023 ¶ 501).
We have considered Petitioner’s arguments and
evidence set forth above and find them persuasive on
the final record before us. Patent Owner does not present any arguments addressing Petitioner’s contentions for claims 11 and 21 as obvious over Julia and
either Martin or Blahut. See generally PO Resp. Patent Owner’s Response does not mention Martin or
Blahut, nor does the Response address the combination of Julia with either Martin or Blahut. Patent
Owner has therefore waived any arguments for patentability related to this ground. Id.; see also Paper
16 (“The patent owner is cautioned that any arguments for patentability not raised in the response will
be deemed waived.”).
With regard to the evidence of nonobviousness,
the evidence of nonobviousness is also weak with respect to dependent claims 11 and 21. Claim 11 depends from claim 1 and thus includes all the elements
of claim 1. Claim 21 depends from claim 12 and thus
includes all the elements of claim 12. For the same
reasons discussed above with respect to the elements
of claim 1, and the elements of claim 12, Patent Owner
has not persuasively shown that whatever was sold or
licensed, whatever was allegedly copied, and whatever was praised by others, had all the elements of the
claimed subject matter. Also, other deficiencies of the
assertions of industry praise, commercial success, copying, and satisfaction of long-felt but unresolved need,
with respect to claims 1 and 12, also apply to claims
11 and 21. Thus, as is the case with independent

152a
claims 1 and 12, we determine that on the final record
the weak evidence of nonobviousness does not outweigh the strong evidence of obviousness presented by
Petitioner. For the foregoing reasons, Petitioner has
established by a preponderance of the evidence that
claims 11 and 21 are unpatentable over Julia and either Martin or Blahut.
5. All Obviousness Grounds Based on Murdock
Petitioner contends that claims 1–9, 11–19, and
21 are unpatentable over Murdock alone (Ground 1),
Murdock in view of Banker or Gordon (Ground 2) or
in view of Martin or Blahut (Ground 3) under 35
U.S.C. § 103(a), relying on the supporting testimony
(Exs. 1023, 1033) of Mr. Schmandt. Pet. 11–14, 16–
44.
The ’326 patent is a reissue of U.S. Patent No.
7,685,523, which issued from an application
(11/283,176) filed on November 17, 2005, which, in
turn, is a continuation of an application (09/785,375) 8
filed on February 16, 2001. Ex. 1001, at [22], [60],
[63], [64]; Pet. 6. This 2001 application claims the
benefit of priority to a provisional application
(60/210,440) with a filing date of June 8, 2000. Id. As
addressed in detail below, Petitioner accepted this
June 8, 2000 date as the priority date for the ’326 patent.
Murdock was filed on November 16, 2000, after
the June 8, 2000 effective filing date of the ’326 patent
that was adopted in the Petition, but claims the benefit of priority to the filing date of Provisional Applica-

This application issued as U.S. Patent No. 7,047,196, which
is subject to related proceedings mentioned supra.
8

153a
tion No. 60/166,010 (Ex. 1014, the “Murdock Provisional”), which was filed on November 17, 1999. Ex.
1013, at [22], [60]. Petitioner argues that Murdock is
35 U.S.C. § 102(e) prior art to the ’326 patent because
Murdock is entitled to the benefit of priority to the filing date of the Murdock Provisional. Pet. 12.
In Ex Parte Mann, the Board held that “under Dynamic Drinkware, a non-provisional child can be entitled to the benefit of a provisional application’s filing
date if the provisional application provides sufficient
support for at least one claim in the child.” 2016 WL
7487271, at *6 (PTAB Dec. 21, 2016) (discussing
whether Dynamic Drinkware, LLC v. Nat’l Graphics,
Inc., 800 F.3d 1375, 1378 (Fed. Cir. 2015) requires
“support in the provisional [] for all claims, any claim,
or something in between”). The Board further held
that “the [party claiming priority] also must show that
the subject matter relied upon in the non-provisional
is sufficiently supported in the provisional application
[and that t]his subject matter test is in addition to the
comparison of claims required by Dynamic Drinkware.” Id. at *5.
Recognizing these requirements, Petitioner asserts that:
Petitioner’s expert Christopher Schmandt
shows in his supporting declaration that at
least claim 1 of Murdock is supported by the
disclosure in the provisional application.
Schmandt Decl. ¶¶ 109–124. In addition,
. . . . Petitioner’s expert witness shows that
the Murdock provisional application meets
this requirement, too.
Schmandt Decl.
¶¶ 254, 257, 261, 266, 270, 275, 280, 283, 288,
292, 295, 298, 301, 305, 308, 311, 316, 319,
324, 327, 338, 349, 355, and 367 (showing that

154a
the provisional application discloses the same
subject matter disclosed in Murdock and cited
to herein).
Pet. 11–12.
Patent Owner contends that the Petition omits
the analysis necessary to establish Murdock as prior
art, and instead relies on bare conclusions lacking any
factual support, and improper incorporation by reference, that could sustain its position. PO Resp. 11–14.
Patent Owner notes Petitioner’s assertion and analysis is a “barebones analysis” that is insufficient to support Petitioner’s contention that Murdock is entitled
to the filing date of the Murdock Provisional. PO
Resp. 13. Patent Owner notes that Petitioner improperly incorporates by reference “thirty-nine paragraphs
of essential analysis from the declaration into the petition.” Id. Petitioner presents two primary arguments why the Petition is insufficient.
“First,” Patent Owner argues, “the incorporation
lacks the particularity and specificity required of supporting evidence under the governing statute and
rules set forth in 35 U.S.C. § 312(a)(3) and in 37 C.F.R.
§§ 42.22(a)(2), 42.104(b)(4)–(5).” Id. “Second, . . . the
incorporation violates the Board’s rules prohibiting
arguments made in a supporting document from being
incorporated by reference into a petition. Id. (citing
37 C.F.R. § 42.6(a)(3)).
We agree here with Patent Owner that Petitioner’s barebones analysis, in its Petition, is insufficient to support its contention that Murdock is entitled to the filing date of the Murdock Provisional. Specifically, although there is no requirement to rewrite
every word or example from an expert declaration into
a petition, Petitioner’s two sentences concluding that

155a
“at least claim 1 of Murdock is supported by the disclosure in the [Murdock P]rovisional application” and
that “the [Murdock P]rovisional . . . provide[s] support
for the subject matter relied upon,” are insufficient to
establish Murdock as prior art. “Arguments must not
be incorporated by reference from one document into
another document.” 37 C.F.R. § 42.6(a)(3). Here, Petitioner cites to 39 paragraphs, spanning just as many
pages in the Schmandt Declaration. No reasonable
application of 37 C.F.R. § 42.6(a)(3) to the circumstance of this case results in a conclusion that Petitioner complied with the rule. The Petition must provide reasonable notice to Patent Owner as to how the
Murdock Provisional provides support for the subject
matter relied upon. In this proceeding, we initially
determined that the Petition offered only an insufficient conclusory statement as to the Murdock Provisional. Dec. 19–22. Nonetheless, pursuant to SAS
Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1355 (2018) and
Patent Office practice, we instituted review of all
grounds, including the grounds based on Murdock. Id.
at 30.
We maintain our initial determination and disregard all the material improperly incorporated by reference for this issue, which is paragraphs 109–124,
254, 257, 261, 266, 270, 275, 280, 283, 288, 292, 295,
298, 301, 305, 308, 311, 316, 319, 324, 327, 338, 349,
355, and 367 of the Schmandt Declaration (Ex. 1023).
We consider only the two conclusory and general sentences in the Petition with respect to why at least one
claim of Murdock is supported by the disclosure of the
Murdock Provisional and how the Murdock Provisional provides support for the subject matter relied
upon.

156a
Petitioner now attempts to remedy its deficient
Petition in its later Reply briefing by shifting portions
of the incorporated by reference material into the Reply brief. Pet. Reply 2–8. Petitioner contends that, in
any event, Murdock still constitutes applicable prior
art because Murdock predates the actual filing date of
the ’326 patent. Petitioner argues that it was incumbent on Patent Owner to establish entitlement to an
earlier effective filing date, which Patent Owner did
not do. Id. at 2. Petitioner contends that it is Patent
Owner’s burden to first establish that the claims of the
’326 patent “are entitled to a filing date (constructive
or otherwise) prior to the filing date of Murdock.” Id.
at 3 (internal quotations omitted) (quoting Dynamic
Drinkware, 800 F.3d at 1380).
Patent Owner counters that the positions in Petitioner’s Reply are “new argument[s] and [they] should
not be considered.” PO Sur-Reply 8. Patent Owner
notes that “neither the Petition nor the Institution Decision challenged the ’326 patent’s effective filing
date.” PO Sur-Reply 9. Patent Owner views portions
of the Reply related to Murdock as “a blatant attempt
to circumvent not only the Board’s rules on incorporation by reference but also the Panel’s prior order that
this material would be disregarded.” Id. at 10.
Important to our analysis, the Petition states
that: “the claimed invention was not new or novel as
of the patent’s effective filing date in June 2000.” Pet.
1. Within a section of the Petition titled “Effective Filing Date of the ’326 Patent,” Petitioner affirmatively
states: “The ’326 Patent claims priority to a provisional application filed on June 8, 2000. Thus, the effective filing date of the claims of the ’326 Patent is no
earlier than June 8, 2000. Patent Owner does not assert any earlier priority date.” Id. at 4. See also Ex.

157a
1023 ¶ 241, (“the earliest effective filing date of the
’326 Patent in June 2000”), ¶ 376 (“as of the June 2000
effective filing date of the ’326 Patent”), ¶ 492 (same).
Thus, Petitioner bases its arguments and evidence on
an effective filing date of June of 2000 for the ’362 patent. Petitioner does not, however, provide any notice
to Patent Owner that any other date other than June
8, 2000 need be considered as the effective filing date.
We analogize Petitioner’s assertion (June 8, 2000
priority date) 9 made in its Petition to assertions made
by litigants in their pleadings. Specifically, the doctrine of judicial admissions recognizes that allegations
made by litigants in their pleadings are binding in the
case and on appeal. See, e.g., Purgess v. Sharrock, 33
F.3d 134, 144 (2d Cir. 1994) (“A court can appropriately treat statements in briefs as binding judicial admissions of fact.”) (citations omitted); see also Kenneth
S. Broun et al., McCormick on Evidence § 254 (6th ed.
2009). Further, “‘[a] patent owner . . . is undoubtedly
entitled to notice of and a fair opportunity to meet the
grounds of rejection,’ based on due-process and APA
guarantees.” In re NuVasive, Inc., 841 F.3d 966, 971
(Fed. Cir. 2016) (quoting Belden Inc. v. Berk–Tek LLC,
805 F.3d 1064, 1080 (Fed. Cir. 2015)). Accordingly,
and pursuant to both the doctrine of judicial admissions and the APA’s requirement for notice of and a
fair opportunity to meet the grounds of rejection, Petitioner’s adoption of an effective filing date in its Petition acts as notice to Patent Owner of the scope of
Whether a priority document contains sufficient disclosure
under § 112, ¶ 1 is a question of law. See Utter v. Hiraga, 845
F.2d 993, 998 (Fed. Cir. 1988). However, “compliance with the
written description aspect of that requirement is a question of
fact.” Id. We view the admission of a priority date as an assertion of fact that is dispositive of the ultimate legal determination.
9

158a
the proceeding and as a binding admission unless otherwise withdrawn. Thus, the proceeding before us is
distinct from Dynamic Drinkware cited by Petitioner.
Alternatively, we believe that Petitioner must
first raise the issue of entitlement to any earlier effective filing date in order to require the Patent Owner
to establish that the asserted claims in the ’326 patent
are entitled to the benefit of a filing date (constructive
or otherwise). In an inter partes review, the burden is
on the petitioner to show a reasonable likelihood that
it would prevail on a ground of unpatentability. 35
U.S.C. § 314(a). With respect to entitlement to any
earlier effective filing date, however, a patent owner
is not presumed to be entitled to the earlier filing
dates of ancestral applications that do not share the
same disclosure, such as in a CIP situation. Focal
Therapeutics, Inc. v. SenoRX, Inc., Case IPR201400116, slip op. at 9–10 (PTAB Apr. 22, 2014) (Paper
8). However, a petitioner first must raise the issue by
at least identifying the features, claims, and ancestral
applications allegedly lacking § 112 support for the
claims based on the identified features. Id. at 10. See
also Huawei Technologies Co., Ltd. v. Samsung Electronics Co. Ltd., Case IPR2017-01980, slip op. 9
(PTAB Feb. 27, 2018) (Paper 9) (“Nevertheless, Petitioner first must raise the issue of whether Patent
Owner is entitled to its effective filing date by ‘identifying, specifically, the features, claims, and ancestral
applications allegedly lacking written description support for the claims based on the identified features.’”
(quoting Lupin Ltd. v. Pozen, Inc., Case IPR201501775, slip op. at 10–11 (PTAB Mar. 1, 2016)). If Petitioner makes such an allegation in its Petition, then

159a
the patent owner must make a sufficient showing 10 of
entitlement to earlier filing date(s), in a manner that
is commensurate in scope with the specific points and
contentions raised by the petitioner. See id.
In the proceeding before us, the Petitioner states 11
that “the effective filing date of the claims of the ’326
Patent is no earlier than June 8, 2000.” Pet. 4. Petitioner never raised any doubt as to this June 2000 priority date for the ’326 patent. Thus, in this circumstance, the effective filing date of the ’326 patent is
June 8, 2000, without any additional showing from
Patent Owner. For Murdock to be applicable prior art,
Petitioner must prove Murdock is entitled to the filing
date of its provisional application—a burden that Petitioner failed to meet in the Petition.

We observe that even an applicant for patent before the
United States Patent Office is not required to explain how every
element of every claim is supported by each ancestral application
in the priority chain during the examination process. Typically,
the applicant makes an accounting in that regard after the Examiner indicates to the applicant what claim element is not supported by which ancestral application, and the showing is limited
to the claim element or elements identified by the Examiner.
10

We have considered Petitioner’s arguments made during oral
hearing that “we did not adopt the date [June 8, 2000].” Tr. 26:1–
25. First, we disagree with this argument and view the clear
statements in the Petition as judicial admissions. Second, even
ignoring the admissions, the issue is whether Petitioner identified anything for Patent Owner to address. Patent Owner is not
expected to explain, sua sponte, how each element of every claim
has support through each application in the priority chain. Focal
Therapeutics, supra. In its Reply, Petitioner has not pointed to
anything in the Petition that amounts to a belief by Petitioner
that an element, feature, or limitation of any challenged claim is
not supported by any ancestral application in the priority chain
of the priority chain of the ’326 patent. See generally Pet. Reply.
11

160a
In its Reply, Petitioner now attempts to remedy
its defective Petition. See Pet. Reply 2–9. Specifically,
Petitioner presents new detailed argument over four
pages as to how and why claim 1 of Murdock is supported by the Murdock Provisional. See id. at 4–7. To
support its new arguments made for the first time in
Reply, the briefing cites to portions of the Schmandt
Declaration that we expressly excluded in our Decision on Institution for violation of our rules on incorporation by reference. Dec. 21. While we are bound
by SAS to institute trial on all claims, we are not required to allow a petitioner to fix glaring deficiencies
in the petition for grounds that we would otherwise
not institute. This is so because Petitioner may not
submit new evidence or argument in reply that it
should have presented earlier. Further, after we declined to consider the 39 paragraphs in Schmandt’s
Declaration at the institution phase, if we were now
to consider that same evidence as if it were not excluded, we would fail to provide Patent Owner “notice
of and a fair opportunity to meet the grounds of rejection.” Belden Inc., 805 F.3d at 1080. Petitioner cannot
present its case in chief in Reply, and Patent Owner
should not be forced to present its case in response for
the first time in a Sur-Reply. Accordingly, we decline
to consider the new arguments and evidence submitted in Petitioner’s Reply.
Based on the above findings and determinations,
Petitioner has not shown that Murdock is entitled to
the benefit of priority of the filing date of the Murdock
Provisional. Hence, Petitioner has not shown that
Murdock is prior art to the ’326 patent. Because each
of the Murdock asserted grounds relies on Murdock in
whole or in part, we determine that Petitioner has not
proven by a preponderance of the evidence the (1) unpatentability of claims 1–7 and 12–17 over Murdock,

161a
(2) unpatentability of claims 8, 9, 18, and 19 over Murdock and either Banker or Gordon, or (3) unpatentability of claims 11 and 21 over Murdock and either
Martin or Blahut.
III. MOTION TO EXCLUDE
Petitioner filed a Motion to Exclude evidence (Paper 40), which Patent Owner opposed (Paper 46),
which Petitioner replied (Paper 49). In its Motion to
Exclude, Petitioner seeks to exclude inadmissible evidence submitted by Patent Owner in Exhibits 2001,
2002, 2003, 2009, 2010, 2011, 2015, 2021, 2024, and
2032. See Paper 40, 1.
Exhibits 2001, 2002, and 2003 –
Business Plans and Presentations
Exhibits 2001, 2002, and 2003 relate to a business
plan (Ex. 2001), corporate summary (Ex. 2002), and a
presentation (Ex. 2003). Petitioner argues these exhibits should be excluded as inadmissible hearsay under FRE 801–803. Id. at 2.
We deny Petitioner’s request to exclude these exhibits. Patent Owner contends, and we agree, that
each of these three exhibits meets the hearsay exception for business records. Paper 46, 4 (citing FRE
803(6)). Notably, we have not cited these specific exhibits in our Final Decision, although each has been
considered in our analysis.
Exhibits 2009 and 2021 – Press Releases
Exhibits 2009 and 2021 all purported press releases. Petitioner argues these exhibits should be excluded as inadmissible hearsay under FRE 801–803.
Patent Owner cites Exhibit 2009 to show that it actually received the award described in the draft press
release. PO Resp. 29.

162a
We deny Petitioner’s request to exclude Ex. 2009.
Patent Owner contends, and we agree, that this exhibit meets the hearsay exception for business records. Paper 46, 5 (citing FRE 803(6)). Notably, we
have weighed Petitioner’s concerns in our analysis
above. For example, by failing to produce the actual
award for which Exhibit 2009 describes, including the
criteria for the award or linking the award to the innovative features of the invention, we have not given
significant weight to Exhibit 2009 as evidence of industry praise.
Exhibit 2021 is a news article containing a press
release related to AgileTV obtaining investor funding.
Patent Owner claims that the document contains nonhearsay, relevant evidence. Paper 46, 5–6. Because
the fact that AgileTV obtained investor funding is not
disputed, and because we do not rely on Exhibit 2021
in our final decision, we deny Petitioner’s motion to
exclude Exhibit 2021 as moot.
Exhibit 2010 – Market Research Reports
Exhibit 2010 is an internal AgileTV email attaching documents “summarizing various aspects of usability and market research” regarding its television
product. Petitioner contends that the email and attachments are hearsay. Paper 40, 4.
Patent Owner responds that “the email and its attachments fall within the business records exception
to hearsay overcoming Comcast’s objection. Fed. R.
Evid. 803(6).” Paper 46, 6.
We deny Petitioner’s request to exclude Ex. 2010.
This exhibit meets the hearsay exception for business
records, whereas Patent Owner established a sufficient foundation for its admissibility under the exception.

163a
Exhibits 2011 and 2015 –
Internal AgileTV Emails Regarding Comcast
Exhibit 2011 is an email from AgileTV’s thenCEO Paul Cook to “All Employees.” Mr. Cook’s email
forwards an email from Mr. Chaiken purporting to recount statements made by certain Comcast employees. Ex. 2011, 1. Exhibit 2011 is proffered by Patent
Owner to show Comcast’s interest in the AgileTV
product. We do not believe an email summarizing alleged statements by numerous Comcast employees to
fall within the business records exception to the hearsay rule. Because the only relevant purpose of this
exhibit is for the content of the third party statements,
we agree with Petitioner that Exhibit 2011 should be
excluded for the hearsay contained therein.
Exhibit 2015 is an email from Mr. Cook to “All
Employees,” and the “Weekly Update” email purports
to recount conversations with certain Comcast employees. Ex. 2015, 1. Patent Owner cites this exhibit
to support its contention that “Comcast expressed an
intent to invest in AgileTV and deploy the AgileTV solution for Comcast’s 21 million subscribers.” PO Resp.
31–32. This email appears to be a regular weekly
email update made in the normal course of business
as conveyed by Mr. Cook. Accordingly, we determine
Exhibit 2015 falls within the exception to the hearsay
rule for normally recorded business documents.
Ex. 2024 – Article Regarding Comcast
Exhibit 2024 is an online article entitled “A Voice
in the Navigation Wilderness.” Patent Owner cites
the article to support its assertion that “the AgileTV
solution was successfully deployed and tested in the
Comcast system.” Paper 22, 34. According to Petitioner, “the article (which does not identify an author)

164a
primarily discusses AgileTV and its then-contemplated trial with a small cable company called Sunflower Broadband.” Paper 40, 5–6. Petitioner complains that the statements related to Promptu being
in the field “is not attributed to anyone at Comcast—
indeed, no Comcast representatives are mentioned or
quoted in the article.” Id. at 6. Thus, according to
Petitioner, “[t]he article is an out-of-court statement
offered to prove the truth of the matter asserted
therein.” Id.
Because we do not rely on Exhibit 2024 in our Final Decision, we deny Petitioner’s request to exclude
this exhibit as moot.
Exhibit 2032 – Portions of the Chaiken Declaration
Exhibit 2032 is the declaration of Patent Owner’s
former CTO David Chaiken. Ex. 2032 ¶ 3. Petitioner
contends that in Paragraph 34, Mr. Chaiken testifies
that “acquaintances of mine . . . told me they confused
Comcast’s functionality with the AgileTV solution.”
This statement is being used to prove copying by Petitioner – the truth of the matter asserted. Paper 46,
13. We agree this is impermissible hearsay that
should be excluded. Further, this is not the type of
information an expert witness would normally rely
upon (uncited sources conveying speculative information) in forming an opinion.
IV. SUMMARY
For the foregoing reasons, we determine that Petitioner has proven by a preponderance of the evidence that claims 1–7 and 12–17 would have been obvious over Julia.
Petitioner establishes that claims 8, 9, 18, and 19
would have been obvious over Julia and either Banker
or Gordon.

165a
Petitioner has proven that claims 11 and 21 would
have been obvious over Julia and either Martin or
Blahut.
Petitioner’s Motion to Exclude (Paper 40) is
granted-in-part and denied-in-part. Specifically, the
hearsay statements in Exhibit 2032 ¶ 34 are excluded;
the request to exclude Exhibit 2011 is granted; and,
the request to exclude Exhibits 2024, 2015, 2010,
2021, 2009, 2001, 2002, and 2003 is denied.
V. ORDER
Accordingly, it is:
In consideration of the foregoing, it is hereby:
ORDERED that Petitioner has shown by a preponderance of the evidence that claims 1–9, 11–19,
and 21 are unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude (Paper 40) is GRANTED-IN-PART and DENIED-IN-PART; and
FURTHER ORDERED that because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

166a
For PETITIONER:
James Day
Daniel Callaway
FARELLA BRAUN + MARTEL LLP
jday@fbm.com
dcallaway@fbm.com
Leo Lam
KEKER, VAN NEST & PETERS LLP
llam@kvn.com
For PATENT OWNER:
Joshua Goldberg
Jacob Schroeder
Cory Bell
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT
& DUNNER, LLP
joshua.goldberg@finnegan.com
jacob.schroeder@finnegan.com
cory.bell@finnegan.com
daniel.klodowski@finnegan.com

167a
APPENDIX E
UNITED STATES PATENT AND
TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
_______________
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
PROMPTU SYSTEMS CORP.
Patent Owner.
________________
Case CBM2018-00034
Patent RE44,326 E
________________
Before JAMESON LEE, KARL D. EASTHOM, and
ALEX S. YAP, Administrative Patent Judges.
EASTHOM, Administrative Patent Judge.
JUDGMENT
Final Written Decision
Determining All Challenged Claims Unpatentable
35 U.S.C. § 318(a)

168a
I. INTRODUCTION
Petitioner, Comcast Cable Communications, LLC
filed a Petition (Paper 2, “Pet.”) seeking a covered
business method (“CBM”) patent review of U.S. Patent No. RE44,326 E (Ex. 1001, the “’326 patent”), pursuant to § 18 of the Leahy-Smith America Invents Act
(“AIA”). 1 Petitioner challenges claims 1–21 of the ’326
patent (the “challenged claims”). Pet. 1. Patent
Owner, Promptu Systems Corp., filed a Preliminary
Response. Paper 6.
After the Institution Decision (Paper 9) instituting trial on the challenged claims, Patent Owner filed
a Patent Owner Response (Paper 12, “PO Resp.”), Petitioner filed a Reply (Paper 15, “Reply”), and Patent
Owner filed a Sur-Reply (Paper 17, “PO Sur-Reply”).
Pursuant to an order by the panel (Paper 23), the parties filed additional briefing to address the impact of
the 2019 Revised Patent Subject Matter Eligibility
Guidance, 84 Fed. Reg. 50 (Jan. 7, 2019) (the “Guidance”),
available
at
https://www.federalregister.gov/documents/2019/01/07/2018-28282/2019-revised-patent-subject-matter-eligibility-guidance, on
the instant proceedings, which issued after the Institution Decision. Paper 24 (“Pet. SMG Br.”); Paper 25
(“PO SMG Br.”).
An Oral Hearing occurred on July 26, 2019. Due
to a problem with the court reporting service hired by
the Patent Trial and Appeal Board, no transcript of
Pub. L. No. 112-29, 125 Stat. 284 (2011); see also id. at 329–
31 (providing that the transitional program for covered business
method patents will be regarded as a post-grant review under
Chapter 32 of Title 35 of the United States Code, and will employ
the standards and procedures of a post-grant review, subject to
certain exceptions).
1

169a
the hearing exists. Patent Owner requested a second
oral hearing but later withdrew that request in light
of our authorization for the parties to provide a list of
bullet points they desire to note expressly for consideration by the panel in this Final Written Decision).
Paper 27. The parties filed these bullet points for consideration. Papers 28–30.
We have jurisdiction under 35 U.S.C. § 318(a). After considering the evidence, arguments, including arguments at the Oral Hearing and in light of the bullet
points of both parties, and for the reasons set forth below, we determine that Petitioner showed by a preponderance of the evidence that claims 1–21 of the
’326 patent are unpatentable.
A. The ’326 Patent
The ’326 patent, titled “System and Method of
Voice Recognition Near a Wireline Node of a Network
Supporting Cable Television and/or Video Delivery,”
reissued from U.S. Patent No. 7,685,523 (the “’523 patent”). Ex. 1001, (64). The ’326 patent generally relates to using speech recognition so a user can order
video or other information over a typical cable television system or other network. See Ex. 1001, (57), 2:5–
8.
According to the ’326 patent Specification, “the
problems of voice recognition at a centralized wireline
node in a network supporting video delivery or cable
television delivery have not been addressed by [the]
prior art.” Id. at 2:5–8. According further to the Specification, “a centralized wireline node refers to a network node providing video or cable television delivery
to multiple users using a wireline physical transport
between those users at the node.” Id. at 2:8–11. In
addition, “[u]ser identification based upon speech

170a
recognition is provided over a cable television and/or
video delivery network.” Id. at 4:66–5:3.
Even though the Specification describes a centralized voice recognition system in some places, in the
first substantive sentence of the ’326 patent, it also
describes voice recognition at or near any node in the
system: “This invention relates to voice recognition
performed near a wireline node of a network supporting cable television and/or video delivery.” Id. at 1:38–
40 (emphases added). It further states “[a] speech processor system may be centrally located in or near a
wireline node, which may include a Cable Television
(CATV) central location.” Id. at 18:16–18 (emphasis
added).
Figure 3 of the ’326 patent appears below:

Figure 3 illustrates
a remote control unit 1000 coupled 1002 to settop apparatus 1100, communicating via a two-

171a
stage wireline communications system containing a wireline physical transport 1200
through a distributor node 1300, and through
a high speed physical transport 1400, possessing various delivery points 1510 and entry
points 1512–1518 to a tightly coupled server
farm 3000, with one or more gateways 3100,
and one or more tightly coupled server arrays
3200.
Ex. 1001, 7:13–20.
As indicated above, Figure 3 depicts single remote
control device 1000 coupled to single set-top box 1100.
Server farm 3000 includes a central “speech recognition processor system 3200” for processing speech signals from user sites, such as from subscribers’ set-top
boxes. Id. at Fig. 3. In one embodiment, “commercial”
set-top box 1100 receives a wireless signal via coupling 1002 from remote control unit 1000 and then remodulates it for upstream transmission on cable return path 1200. See id. at 11:10–17.
At least one embodiment involves multiple user
sites and multiple channels: “The back channel is
from a multiplicity of user sites and is presented to a
speech processing system at the wireline node in the
network.” Id. at 22:3–4. At each user site, “[t]he
speech signal transmitted from a subscriber’s set-top
box, or set-top appliance, 1100[,] is received [at the entry points] 1510 by the five to 40 MHz data receiving
equipment.” Id. at 12:14– 17. The disclosed invention
contemplates a speech processing system that associates only one speech channel per user site: “At least
one, and possibly all, of the identified, speech channels may have an associated site” and it “may include
at least one computer.” Id. at 22:42–54.

172a
To begin the process of obtaining content through
a system such as that depicted in the embodiment illustrated in Figure 3 above, “[i]n the subscriber’s
premises, a speech-enabled remote control [1000] may
be employed, e.g.[,] containing a microphone, as well
as traditional universal remote control functionality.”
Id. at 13:46–48. “The speech output may be wirelessly
transmitted to a set[-]top pod, module, or appliance located at the set-top box.” Id. at 13:51–53. “The function of the set-top appliance 1100 may be to receive
the RF signal from the remote control and then digitize and compress the speech signal and prepare it for
upstream transmission.” Id. at 11:34–36.
Regarding example content derived by using the
microphone, “[i]n . . . embodiments of the invention,
spoken commands from a cable subscriber are recognized and then acted upon to control the delivery of
entertainment and information services, such as
Video On Demand, Pay Per View, Channel control, online shopping, and the Internet.” Id. at 5:14–22.
Describing the background of the invention
(“Background Art” (id. at 3:41)), the Specification
states “[u]pstream signals in the 5 to 40 MHz band
from each subscriber connected to the node are collected, combined, and then sent to the Headend via
either the same fiber used for the downstream video
carriers, or a separate fiber.” Id. at 3:25–28 (emphasis
added). It also states “[d]ownstream control data
transmission typically occurs in a separate frequency
band from the upstream channels.” Id. at 3:46–47. It
further states “[t]ypically, [high frequency cable] networks employ an optical fiber from a central office, or
Headend, to a neighborhood node. The fiber has forward and reverse transmission capability, which can

173a
alternatively be accommodated on separate fibers.” Id.
at 3:48–51 (emphasis added).
Utilizing aspects of this background technology,
the Specification describes as part of the invention
employing upstream channels via “the return path.”
For example, “the speech command which originates
at the user site, often the home of the subscriber, [and]
is sent upstream via the return path (often five to 40
MHz) in the cable system to a central speech recognition and identification engine.” Id. at 5:29–32 (emphasis added). Also, “[t]he set-top box 1100 may be
used for both upstream and speech command signals.”
Id. at 11:31–33. According to these descriptions, the
upstream and downstream path may encompass at
least part of the same path (e.g., fibers, cable, channels, set-top box), originating at the user’s microphone
(first device) and returning to a TV (second device) to
provide “Video On Demand, Pay Per View, Channel
control, on-line shopping, and the Internet.” See id. at
5:14–22, Fig. 3.
B. Related Matters
The parties identify several matters related to the
’326 patent, including other PTAB proceedings and infringement litigation in a district court. Pet. x; Paper
6, 5–6; Paper 4, 2–3. The same Petitioner as here filed
two other petitions challenging claims 1–9, 11–19, and
21 of the ’326 patent, and the Board held all challenged claims unpatentable for obviousness: Comcast
Cable Commc’ns, LLC v. Promptu Sys. Corp.,
IPR2018-00342, Paper 54 at 73–74 (PTAB July 18,
2019) (final written decision) (the “’342 IPR” or the
“’342 FWD”); Comcast Cable Commc’ns, LLC v.
Promptu Sys. Corp., IPR2018-00343, Paper 56 at 73–
74 (PTAB July 18, 2019) (final written decision) (the

174a
“’343 IPR” or the ’343 FWD”). Patent Owner filed notices of appeal in each proceeding. ’342 IPR, Paper 56;
’343 IPR, Paper 58. The same Petitioner also filed a
petition challenging a related patent, which the Board
denied, in Comcast Cable Commc’ns, LLC v. Promptu
Sys. Corp., CBM2018-00033, Paper 9 at 12 (PTAB October 10, 2019).
Patent Owner also identifies
IPR2017-00344 and IPR2017-00345 as involving related U.S. Patent No. 7,047,196. Paper 4, 2.
C. Asserted Ground of Unpatentability
Petitioner asserts that the challenged claims are
unpatentable on the following grounds (Pet. 3–4):
Claims
Challenged

Statutory
Basis

1–21

§ 101

1–21
11 and 21

§ 251
§ 112, ¶ 2

Ground
Abstract
Claiming
Recapture
Indefiniteness

D. Challenged Claims
Independent claims 1 and 12, from which all other
challenged claims depend, recite similar subject matter. Claim 1 of the ’326 patent reveals the substantial
modifications made to claim scope during the reissue
proceeding:
1. A method [of using a back channel containing a multiplicity of speech channels from a
multiplicity of user devices presented to a
speech recognition system in a network supporting content delivery] for speech directed
information delivery, comprising [the steps
of]:

175a
[partitioning a received back channel containing a multiplicity of speech channels from
a multiplicity of user devices into a multiplicity of received identified speech channels;
processing said multiplicity of received
identified speech channels to create recognized speech for each of said received identified speech channels; and
transmitting a unique response to each of
said user devices, based upon said recognized
speech.]
receiving speech information at a first device, wherein said first device is a wireless device;
transferring said speech information from
said first wireless device via a first network
path to a speech recognition engine; and
at said speech recognition engine, recognizing said speech information and effecting
information delivery to a second device via a
second network path.
Ex. 1001, 50:23–44. 2 Reissued independent claim 12
reveals similar changes in claim scope relative to originally issued dependent claim 12. See id. at 52:29–54.
E. Claim Construction
The Board interprets claims of an unexpired patent using the broadest reasonable construction in
“Matter enclosed in . . . brackets [ ] appears in the original
patent but forms no part of this reissue [S]pecification; matter
printed in italics indicates the additions made by reissue.” Ex.
1001, 1:6–10.
2

176a
light of the specification of the patent in which they
appear. See 37 C.F.R. § 42.300(b); Cuozzo Speed
Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–45 (2016). 3
“Under a broadest reasonable interpretation, words of
the claim must be given their plain meaning, unless
such meaning is inconsistent with the specification
and prosecution history.” Trivascular, Inc. v. Samuels, 812 F.3d 1056, 1062 (Fed. Cir. 2016).
Petitioner proposes constructions for two terms:
“speech recognition engine” and “set-top box” (“STB”).
See Pet. 15–17. Patent Owner provides a construction
for “speech recognition engine” and does not respond
to Petitioner’s proposals regarding the STB.
Apart from “speech recognition engine” and “network path,” no other claim terms require express construction to resolve a controversy. See Nidec Motor
Corp. v. Zhongshan Broad Ocean Motor Co. Ltd., 868
F.3d 1013, 1017 (Fed. Cir. 2017); Vivid Techs., Inc. v.
Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999) (only claim terms “in controversy” require construction and “only to the extent necessary to resolve
the controversy”).
1. Speech Recognition Engine
Independent claims 1 and 12, process claims reciting “[a] method for speech directed information deliv-

Per recent regulation, the Board applies the district court
claim construction standard to petitions filed on or after November 13, 2018. See Changes to the Claim Construction Standard
for Interpreting Claims in Trial Proceedings Before the Patent
Trial and Appeal Board, 83 Fed. Reg. 51,340 (Oct. 11, 2018) (to
be codified at 37 C.F.R. pt. 42). Because Petitioner filed the Petition before November 13, 2018, we apply the broadest reasonable
interpretation standard.
3

177a
ery,” each recite “transferring said speech information” “from said first wireless device via a first network path to a speech recognition engine.”
In the Institution Decision, we did not construe
the term “speech recognition engine” explicitly, but
determined on a preliminary basis for institution purposes that it generally constitutes a “type[] of generic
device[]” (Inst. Dec. 30), and more specifically, “a generic, conventional speech recognition engine . . . performing conventional functions as disclosed and
claimed” (id. at 31–32 (citing Pet. 22–24, 43–46; Ex.
1029 ¶¶ 54–58, 118–121); Ex. 1029 ¶¶ 52–58, 90–99,
170– 182; Ex. 1021, 285, 287)).
Patent Owner contends that “the reissue claims
require a ‘speech recognition engine’ that is accessible
to a multiplicity of user devices.” PO Resp. 40. Petitioner contends that the “broadest reasonable interpretation” of “speech recognition engine” should be
“hardware and/or software used to identify spoken
words.” Pet. 15–16. Patent Owner relies on a proposed claim construction proposed by Petitioner in a
district court proceeding and asserts Petitioner “cannot dispute that the [S]pecification expressly defines
‘speech recognition engine’ to require the ability to
process speech from multiple user devices.” PO Resp.
41–42 (citing Ex. 2010, 22). Petitioner maintains its
“proposed construction recognizes that the ‘speech
recognition engine’ can process voice commands from
one or more user sites (i.e., the construction permits
but is not limited to receiving voice commands from
multiple users).” Reply 19.
Patent Owner’s construction involves putting a
constraint on the connection scheme in the network of
the “speech recognition engine.” In other words, Patent Owner’s construction involves using a generic

178a
speech recognition engine “accessible to a multiplicity
of user devices” by connecting the speech recognition
engine near a network node via a switch, cable splitter, or other circuitry, so that multiple users can access it (similar to the system disclosed in the IBM
Technical Disclosure Bulletin (“IBMTDB”) discussed
below). During the Oral Hearing, Patent Owner verified that its construction seeks to limit the accessibility of the speech recognition engine based on its location or connection in the network, as opposed to limiting the speech recognition functionality itself. See Paper 28 (arguing “local (i.e., on a user’s device) speech
processing remains excluded from the reissue
claims”). Patent Owner cites the Specification in an
effort to show that the ’326 inventors solve prior art
problems by providing speech recognition to a collection of users over a network. See PO Resp. 43 (quoting
Ex. 1001, Abstract, 4:54–56, 4:66–5:1, 5:18–22).
Notwithstanding these disclosures that support
providing speech recognition to a variety of users,
even if these disclosures relate to the connection or location of the speech recognition engine, this does not
mean the term “speech recognition engine” itself carries a definition or construction requiring a specific
connection or location. Rather, as Patent Owner
makes clear in the issued patent claims prior to reissue, constraints on the connectivity for a multiple users must result from details recited about the connectivity. For example, prior to reissue, issued claim 1 in
the ’523 patent recited in the preamble “[a] method of
using a back channel containing a multiplicity of
speech channels from a multiplicity of user devices
presented to a speech recognition system in a network
supporting content delivery,” and the body of claim recited, inter alia, “partitioning a received back channel
containing a multiplicity of speech channels from a

179a
multiplicity of user devices into a multiplicity of received identified speech channels; processing said multiplicity of received identified speech channels to create recognized speech for each of said received identified speech channels.” Supra Section I.D (emphases
modified).
Patent Owner’s claim construction during the district court litigation agrees with our analysis, as Patent Owner proposed construing a “speech recognition
engine” as “computer running software that accepts
spoken language as input and determines (or identifies) what words and phrases or semantic information
are present.” Ex. 2010, 20. This construction represents a functional description of a generic speech
recognition engine. It does not constrain the functionality to anything more than what an artisan of ordinary skill expects from a generic speech recognition
engine (i.e., it recognizes speech). Patent Owner’s proposed claim construction in the district court litigation
does not constrain the speech recognition engine by
any specific connection, network location, or functionality.
The Specification supports the claim construction
of a generic speech recognition engine that Petitioner
proposes here, and that Patent Owner proposed in the
district court. First, as noted above, the Specification
specifically contemplates almost any location for a
speech recognition engine in a network “near a wireline node.” Supra Section I.A; Ex. 1001, 1:38–40
(“This invention relates to voice recognition performed
near a wireline node of a network supporting cable television and/or video delivery.” (emphases added)).
The Specification also discloses a wide variety of
speech recognition engines as background art. Ex.

180a
1001, 1:51–52 (“There have been numerous patents issued regarding voice recognition”), 1:42–2:4 (describing prior art voice recognition systems). The ’326 patent does not define a “speech recognition engine,” but
it generically describes “[t]he speech recognition engine [as] process[ing] speech packets to create speech
content and formulate the response to the speech content for each of the user sites.” Id. at 18:23–25. The
’326 patent also describes embodiments that include
parallel processors to handle multiple users. See id.
at Fig. 3 (server farm 3000), 17:60–62 (“[M]any system
installations may require multiple AgileTVTM Voice
Processing Unit (AVPU) boxes 3000 to meet the performance needs of the subscriber base.”).
The description of different types of speech recognition systems, the generic description for processing
speech packets for each of the user sites (id. at 18:23–
25), the disclosure of the invention as locating a speech
recognition engine anywhere “near a wireline node”
(id.), and the depiction at Figure 3 of only one user
site, reveals that the Specification contemplates a generic speech recognition engine that processes speech
from a single user connected in the network. The
Specification contemplates modifying the speech
recognition engine depending on the number of users,
but it does not require reading multiple users into the
broadened reissue claims. See id. at Fig. 3 (server
farm 3000), 17:60–62. Challenged claim 1 tracks this
finding, because at most it only requires one user site,
by reciting “receiving speech information at a first
[wireless device],” for example, a microphone. Patent
Owner agrees that claim 1 requires “a single user’s interaction”: “[S]imply because the reissue claims are
drawn to a single user’s interaction with a multi-user
system does not mean the claims read on a single-user
system.” Paper 28, 2.

181a
As indicated above, Figure 3 depicts a single user,
even if Figure 3 contemplates more than one user. See
supra Section IA (noting microphones at a single user
site as depicted in Figure 3 and as described in the
’326 patent). In light of the Specification, “[t]he
speech recognition engine processes speech packets to
create speech content and formulate the response to
the speech content for each of the user sites” connected in the network, which might be a one. See Ex.
1001, 18:23–25. The Specification also contemplates
one speech channel for a single user site: “At least one,
and possibly all, of the identified speech channels may
have an associated user site.” Id. at 22:54–55 (emphases added). As reissued, claim 1 does not require identifying a single speech channel. 4
As indicated above, the ’326 patent describes an
embodiment of “a speech recognition server array
3200” for handling one or more users. Id. at 20:58–59.
The Specification states “[e]ach of these arrays will
process over 1K speakers concurrently and fit into a
single rack mount enclosure.” Id. at 21:48–49. It refers to the “speech processing system coupled to a
wireline node in the network. The wireline node provides multiple received identified speech channels to
the speech processing system.” Id. at 22:34–36. The
Specification also describes using “an AVPU input
multiplexor” to render “a high speed speech pro-

Claim 7 depends from claim 1 and recites “determining a
user site associated with a user of said first device.” It does not
require determining more than one user at respective sites. Also,
claim 11 recites “uniquely identified with said user device[s].” In
other words, claim 11, as reissued, like all the challenged claims,
eliminated a previous recitation in the ’523 patent claims to plural “device[s]” by eliminating the “s” at the end of “device.”
4

182a
cessing unit capable of processing the data from several nodes.” Id. at 12:43–47. The Specification explains “the AgileTVTM Voice Processing Unit (AVPU)
is a high speed speech processing unit capable of processing data from several nodes.” Id. at 12:43–45.
The Specification also states “[t]he AVPU[]Engine
may provide speech recognition and control services
for existing services such as Interactive Programming
Guides, Video on Demand (VOD) Services or access to
the Internet or World Wide Web.” Id. at 12:61–64.
The Specification also describes “an array of processors as shown as 3200 in FIG. 3.” Id. at 21:1–2.
Patent Owner does not urge a construction for a
“speech recognition engine” that requires the disclosed “AVPU” or “an array of processors.” See id. at
12:43–45, 21:1–2. Patent Owner also does not urge a
construction that requires the “speech recognition engine” to include, or be combined with, a “multiplexor,”
or to include a “high speed speech processing unit,” or
be capable of providing “control services” or “access to
the Internet or World Wide Web.” See id. at 12:43–45.
Hence, the ’326 patent describes a “speech recognition
server array,” a “speech processing system,” and an
“AVPU Engine” as providing speech recognition for
multiple users, and also describes using a multiplexor
to handle multiple nodes, but the challenged claims do
not recite or require these features of the narrower
embodiments (even if the claims do not preclude these
described features).
Mr. Lipoff contends “[a] person of ordinary skill in
the art would understand the term ‘speech recognition
engine,’ as used in the ’326 Patent, to refer broadly to
‘hardware and/or software used to identify spoken
words.’” Ex. 1029 ¶ 106; see Pet. 15 (citing Ex. 1029
¶ 106). Mr. Lipoff credibly describes certain narrower

183a
embodiments including the array embodiment discussed above (see Ex. 1029 ¶¶ 70–72, 108) and cites to
passages that describe the speech recognition functionality in more generic terms (id. ¶¶ 107–108). For
example, Mr. Lipoff refers to the following generic
passages in the Specification (Ex. 1029 ¶ 107):
1). “The system can recognize and process speech
so that the key words of spoken commands are recognized and displayed.” Ex. 1001, 5:33–35;
2) “The speech engine determines the most likely
spoken request based on statistical analysis, and may
return a text string corresponding to the spoken request.” Id. at 16:33–36; and
3) “The speech recognition engine processes
speech packets to create speech content and formulate
the response to the speech content for each of the user
sites.” Id. at 18:23–25. 5
Given these disclosures, Mr. Lipoff credibly testifies “[t]he claims recite ‘recognizing said speech information’ ‘at said speech recognition engine,’ but do not
limit the engine to any particular device or technique,
and do not identify any particular device or technique
for performing speech recognition.” Ex. 1029 ¶ 106.
Patent Owner does not challenge this testimony
with expert testimony. In support of its construction,
Petitioner persuasively contends

Mr. Lipoff does not quote “for each of the user sites” at the
end of the sentence, but provides the citation to the sentence. See
Ex. 1029 ¶ 107. Claim 1 does not recite a “user site,” but it implicitly requires at most only one user site, so “each of the user
sites” as disclosed in that sentence refers to one site in the context of claim 1.
5

184a
[t]he [S]pecification describes several embodiments with “speech engines,” some of which
contain a “speech processor computer 1520.”
’326 Patent at 29:4–32:13, 33:8–41:19, Figs.
23–24, 26– 31. The [S]pecification also provides examples of speech recognition performed using software and hardware. Id. at
1:42–47 (current voice recognition “applications use voice recognition technology running
on a computer or voice recognition chip technology”), 1:62–65 (“There is, however, another
class of voice recognition technology referred
to as natural language, which requires state
of the art processing software and hundreds of
megabytes of RAM to support.”).
Pet. 15–16.
As Petitioner and Mr. Lipoff show, the ’326 patent
describes several embodiments of speech recognition
engines. In other words, the challenged claims recite
a “speech recognition engine,” instead of a “speech
recognition server array,” “speech processing system”
(Ex. 1001, 20:58–59, 21:48–49), “computer,” or “voice
recognition chip” (id. at 1:42–47). This indicates the
claims recite a speech recognition engine that performs the generic function of recognizing speech as
Mr. Lipoff contends (see Ex. 1029 ¶ 106), thereby covering the several types of speech recognition engines
disclosed in the ’326 patent.
As discussed above, the ’326 patent refers to locating the speech recognition engine at a “central” location in several places. However, as also discussed
above, the claims do not specify any location and the
Specification describes the invention as providing
voice recognition anywhere near a wireline node. See
Ex. 1001, 1:38–40 (“This invention relates to voice

185a
recognition performed near a wireline node of a network supporting cable television and/or video delivery.” (emphases added)). The Specification also generally explains “[a]s used herein, a central location
may include a node, Headend, or metropolitan
Headend for a residential broadband network.” Ex.
1001, 12:18–19 (emphasis added). In another place,
the ’326 patent states “[a] speech processor system
may be centrally located in or near a wireline node,
which may include a Cable Television (CATV) central
location.” Id. at 18:16–18 (emphasis added). By specifically referring to the invention as involving speech
recognition without any reference to location, generally referring to where a speech recognition engine
“may” be located, and generally defining a central location as near any node in the system, the Specification supports the challenged claims as allowing the
speech recognition engine to be located near any node
in the network.
Furthermore, Patent Owner contends Petitioner
“abandoned” its requirement in district court for a
“centralized” location, and Patent Owner contends the
panel need not determine if the speech recognition engine must be centrally located. See PO Resp. 42
(“[T]he Board need not decide that issue to resolve the
instant dispute between the parties.”). Although Patent Owner contends the panel need not resolve the
“centralized” location issue, as discussed further in
the next section, Patent Owner urges the claims otherwise “require remote speech processing accessible to
a multiplicity of user devices.” Id. at 46.
Patent Owner also argues that reading the claims
on a “single-user device . . . is baseless” because
“[r]eissue claim 1 expressly recites multiple user devices, a ‘first device’ and a ‘second device.’” PO Resp.

186a
40. This argument obfuscates the issue. Petitioner
does not attempt to read the claims on a “single-user
device.” Rather, Petitioner refers to a single user or
single user site connected in the network (with that
user or site employing both the first and second devices).
The prosecution history supports our analysis and
shows a speech recognition engine need not be “accessible to a multiplicity of user devices,” contrary to Patent Owner’s arguments here. See PO Resp. 40. During prosecution of the ’523 patent, Patent Owner
stated Houser does not disclose or suggest the claimed
subject matter of “providing said speech recognition
system at a back channel accessible by a multiplicity
of user devices coupled to said network,” as recited in
original claim 7. Ex. 1004, 1344 (Patent Owner quoting original claim 7) (emphasis added). Then, in the
next sentence, Patent Owner argued “Houser is completely silent about speech recognition system . . . accessible by a multiplicity of user devices coupled to said
network.” Id. (emphasis added). Patent Owner argued similarly with respect to original claim 1. Id. at
1343 (“Houser has nothing to do with partitioning a
received back channel containing a multiplicity of
speech channels from a multiplicity of user devices
into a multiplicity of received identified speech channels.”) (emphasis added).
Accordingly, the prosecution history verifies that
Patent Owner understood that the claimed “speech
recognition system” (now a “speech recognition engine” in that system) does not include the separate requirement of being “accessible to a multiplicity of user
devices.” This prosecution history likewise verifies
that un-recited claim limitations must be employed to
provide the requirement urged by Patent Owner, for

187a
example, recited limitations in issued claims 1 or 7 of
the ’523 patent (as Patent Owner understood based on
its prosecution history arguments).
Although the speech recognition engine as construed herein does not preclude the capability of handling multiple users, it does not require that capability, contrary to Patent Owner’s urging. See PO Resp.
40. Therefore, in light of the discussion above, the
speech recognition engine as construed here includes
the capability of handling only one user at a time, for
example, via an unclaimed multiplexor (see Ex. 1001,
12:43–47 (describing “an AVPU input multiplexor” to
render “a high speed speech processing unit capable
of processing the data from several nodes”)), or otherwise.
Apart from arguing a certain connection scheme
(i.e., via a “network path” as discussed in the next section) and the “accessible to a multiplicity of user devices” interpretation, Patent Owner does not urge a
construction that requires the speech recognition engine itself (i.e., hardware/software) to be capable of
handling more than one speech channel simultaneously. Neither party explicitly addresses this issue.
Nevertheless, to the extent the claimed “speech recognition engine” must be capable of processing one or
more users based on internal or external software or
hardware, as indicated in the Specification and elsewhere, conventional speech recognition engines at the
time of the invention handled multiple users at least
one at a time using a multiplexor or otherwise. See,
e.g., infra Section I.E.3; Ex. 1029 ¶¶ 46, 49, 54, 56–58,
119. 6
“Whether [a] structural recitation limits a [method] claim depends on the language of the claim, the specification, prosecution
6

188a
Based on the foregoing and the further discussion
below, we maintain our initial implicit interpretation
in the Institution Decision, namely, the speech recognition engine represents a generic device that performs the basic functions of recognizing speech. See
Inst. Dec. 30–31. Accordingly, we adopt Petitioner’s
and Mr. Lipoff’s materially same construction, namely
a “speech recognition engine” includes ‘hardware
and/or software used to identify spoken words.” Pet.
15; Ex. 1029 ¶ 106.

history, and other claims.” Moleculon Research Corp. v. CBS,
Inc., 793 F.2d 1261, 1271 (Fed. Cir. 1986), abrogated on other
grounds by Egyptian Goddess, Inc. v. Swisa, Inc., 543 F.3d 665
(Fed.Cir.2008) (en banc) (“[D]irect evidence of a fact is not necessary.”); see also E-Pass Tech., Inc. v. 3COM Corp., 222 F.Supp.2d
1147 (N.D. Cal. 2003) (“A structural limitation on a method claim
is not absolute . . . . As stated before, the size of the card is a
structural limitation that is central to the very essence and purpose of the ’311 patent—substitutability.”) (citing Moleculon 793
F.2d at 1271). Here, requiring the “speech recognition engine” of
the challenged claims to be capable of processing speech from
more than one user site, simultaneously or otherwise, unnecessarily imposes a structural limitation in a method that only requires processing speech from one user at most. Patent Owner
agrees “the reissue claims are drawn to a single user’s interaction.” Paper 28, 2. The Specification generally implies that the
speech recognition engine must be capable of processing speech
from the number of users connected to the network, i.e., a single
user in the challenged claims. See Fig. 3 (disclosing one user site
1000), 18:54–55 (“At least one, and possibly all, of the identified
speech channels may have an associated user site.”), 18:12–15
(“A Speech Packet Processor may be centrally located in or near
a wireline node specifically to capture and prepare the upstream
speech packets that are to be fed to the Speech Recognition Engine.”), 18:23–25 (“The speech recognition engine processes
speech packets to create speech content and formulate the response to the speech content for each of the user sites. (emphasis
added)).

189a
2. First Network Path and Second Network Path
The parties do not construe explicitly the terms
“first network path” and “second network path” as recited in challenged independent claims 1 and 12. Rather than relying on a central location per disclosures
of some embodiments in the ’326 patent as imposing
an implied location for the claimed speech recognition
engine as discussed above, Patent Owner relies on
these terms as invoking its alleged “accessibility [of
the speech recognition engine] to a multiplicity of users” requirement. See PO Resp. 37–40. Patent
Owner’s argument, relying on the recited “first network path” and “second network path,” as precluding
“[l]ocal speech processing,” further supports our interpretation above that the speech recognition engine itself does not carry a connection requirement for a plurality of users. See id. at 39.
In general, without construing the terms, Patent
Owner contends the “first network path” and “second
network path” somehow require the speech recognition engine to be accessible to a plurality of users. For
example, Patent Owner argues “[l]ocal speech processing . . . has not crept back into the claims” based
on the recitation of “transferring said speech information . . . to a first network path to a speech recognition engine . . . and effecting information delivery to a
second device via a second network path.” PO Resp.
37. As discussed above, however, the Specification includes examples of a microphone (first network device) sending wireless signals to a local set-top box
(second network device), and a speech recognition engine may be located at or near any node in the system,
including at or near a set-top box. Supra Sections I.A,
I.E.1; PO SMG 5–6 (Patent Owner agreeing the
claimed first device (a wireless device) may include a

190a
microphone and the second device may include a settop box: “The claims here recite a specific implementation of remote speech recognition by receiving a spoken command at a wireless device to effect information delivery to a different device . . . . [and] the different device may be a television and set-top box.”).
Petitioner persuasively contends “[t]he claims
broadly recite a speech recognition engine communicating with devices via network paths, which could be
in a local or home network, a cable television network,
or any other network.” Reply 20. In another instance,
Patent Owner agrees location does not play a decisive
role in accessibility to a number of users, because Patent Owner argues that even Houser’s local set-top
box’s speech recognition engine may be accessible to a
plurality of users. 7 Specifically, Patent Owner contends that Petitioner
presents no evidence to support its assertion
equating “speech recognition at a terminal
unit” with single-user implementations only.
For example, one could perform speech recognition at a terminal unit (e.g., on a primary
set-top box in a living room) to independently
control the television content displayed on
other televisions in the same house. This
would perform speech recognition at a terminal unit and still support multiple users.
PO Sur-Reply 14 n.4.
The argument above confuses the issues here. Petitioner’s single user implementation refers to the
claims as reading on a single user site in a network as

The same Houser reference plays a dominant role in the recapture issue below. Infra Section IV.
7

191a
opposed to requiring multiple user sites in the network. Whether the claims also read on multiple users
at a single user site in a network needs no analysis,
because it bears no relevance to any issue here.
In any event, Petitioner notes “Patent Owner argued that the Board should adopt [its] proposed construction of ‘network path’ in the pending IPR proceedings challenging the ’326 Patent.” Reply 21 (citing ’342 IPR, Paper 22 at 11; ’343 IPR, Paper 24 at 11).
In the related ’342 IPR cited by Petitioner, Patent
Owner urged the Board to adopt the construction of a
“network path” as a “physical route through which
data is transmitted from [a] source to [a] destination,”
a construction Patent Owner urged in the related district court litigation. ’342 IPR, Paper 22 at 11. Patent
Owner contended “Petitioner agreed to that construction [in the district court litigation], which should also
be applied here [in the ’342 IPR].” Id. Further urging
this construction in the related ’342 IPR, Patent
Owner asserted “there is no reason to deviate from
what the claim means ‘on its face’ when, even ‘[u]nder
a broadest reasonable interpretation, words of the
claim must be given their plain meaning, unless such
meaning is inconsistent with the specification and
prosecution history.’” Id. (quoting Trivascular, Inc. v.
Samuels, 812 F.3d 1056, 1062 (Fed. Cir. 2016) (citation omitted)). Even though the ’342 IPR involves
prior art challenges to the same ’326 patent involved
here, and Houser plays a dominant role in each proceeding (see supra note 7), Patent Owner asserted in
the ’342 IPR “[t]he Board need not construe” a “speech
recognition engine.” ’342 IPR, Paper 22 at 8.
The Board agreed with, and adopted, Patent
Owner’s claim construction in the ’342 IPR, which the

192a
same Petitioner did not dispute there and does not dispute here. ’342 IPR, Paper 54 at 15–20; Reply 21. 8 We
agree with, and adopt, the Board’s analysis and claim
construction of a “network path” as a “physical route
through which data is transmitted from [a] source to
[a] destination,” in the ’342 IPR. Id. The two cases
involve the same intrinsic evidence, namely the ’326
patent Specification and claims, and we see nothing in
this record to deviate from the construction and analysis in the ’342 IPR. Although in the ’342 IPR Patent
Owner also urged the Board to interpret a source and
destination as requiring “nodes that both send and receive messages” (see id. at 19–20), Patent Owner does
not urge that construction of a “node” here. Even if
the “node” issue somehow presents a material issue
here, no party argues that issue here, and the two
cases involve materially the same intrinsic evidence
(the ’326 patent Specification and claims). No reason
exists to deviate from the Board’s analysis in the ’342
IPR. Therefore, we also adopt the Board’s rationale
and reasoning in the ’342 IPR on the “node” issue here.
See id. at 15–20.
Therefore, the claim construction of a “network
path” does not alter the claim construction of a
“speech recognition engine.” Accordingly, and for the
reasons explained in the preceding section, we adopt
Petitioner’s proposed claim construction of a “speech
recognition engine” as supported by the Specification
and extrinsic evidence. As we indicated in the previous section, the speech recognition engine represents

The Board employed the same claim construction in the related ’343 FWD. ’343 IPR, Paper 56 at 16–21; see supra Section
I.B (Related Matters).
8

193a
a generic device that includes “hardware and/or software used to identify spoken words.” Supra Section
I.E.1.
3. Extrinsic Evidence
Extrinsic evidence also supports our claim construction of a speech recognition engine and conforms
with the Specification. As noted in the Institution Decision, Mr. Lipoff cites “articles and disclosures attached as Exhibits evidencing known voice recognition technology.” Inst. Dec. 32 (citing Ex. 1029 ¶¶ 52–
58). Exhibit 1020 represents a “May 1995 article disclosing a remote control with a microphone providing
natural voice-control technology to control a digital
set-top with menus via control at a headend.” Exhibit
1021 represents an “August 1995 IBM Technical Disclosure Bulletin [IBMTDB] disclosing ‘methods for using speech recognition to select or modify images,
sound, and data transmitted on a cable television system’ using a microphone or wireless telephone.” Pet.
32 (quoting Ex. 1021, 285).
The 1995 IBMTDB, titled “Speech Recognition
Methods for Controlling Cable Television,” discloses a
centralized “speech recognition system 8 . . . connected to a cable television signal generator” “[a]t a
remote location” relative to a subscriber TV 2, cable
box 4, and telephone 5. See Ex. 1021, 285, Fig. 1.
Three embodiments, illustrated in Figures 1–3, describe centrally located speech recognition system 8,
20, or 29, accessible by multiple users through “the
telephone company switch,” 7 or 15, or signal splitter
17. See id. at 285–286, Figs. 1–3. The embodiment of
Figure 3 involves microphone 24 and cable box 25,
such that “the user’s voice commands are passed unaltered onto a channel or sub-channel of the cable television system, are compressed prior to transmission,

194a
are intermixed with transmissions from other users,
or are labeled or partly decoded in the home before
transmission.” Id. at 287 (emphasis added). “In general, voice commands are directed from a signal splitter 27 to a speech recognition system 28, which in tum
controls a television signal generator 29 and a portion
of cable system 30.” Id. So the IBMTDB discloses a
centrally located speech recognition engine accessible
to multiple users. Id.; Ex. 1029 ¶ 57 (testifying
“acoustic data from the user is sent over the cable TV
network, either compressed or intermixed with transmissions from other users” in the IBMTDB system),
¶¶ 53–58 (testifying about other known speech recognition technology including the IBMTDB Figure 3).
As noted above, the ’326 patent acknowledges the
use of known technology in speech recognition. Ex.
1001, 1:42–2:4; Ex. 1029 ¶ 53 (“The ’326 [p]atent admits that speech recognition and voice control systems
existed in the prior art.”). Tracking the title, “System
and Method of Voice Recognition Near a Wireline
Node of a Network, Supporting Cable Television
and/or Video Delivery” (id. (54)), the ’326 patent specifically states “[t]his invention relates to voice recognition performed near a wireline node of a network
supporting cable television and/or video delivery”
without any requirement about accessibility to a plurality of users. Id. at 1:38–40 (emphasis added).
Accordingly, the recited speech recognition engine
represents a generic device for identifying spoken
words. See Inst. Dec. 30 (determining the claims require “types of generic devices” including “a conventional speech recognition device”). Based on the foregoing discussion and for the reasons explained in the
preceding two sections, as Petitioner proposes, a
“speech recognition engine” includes “hardware

195a
and/or software used to identify spoken words.” See
Pet. 15–16.
II. COVERED BUSINESS METHOD PATENT
Section 18 of the AIA provides for the creation of
a transitional program for reviewing covered business
method patents and limits review to persons or their
privies that have been sued or charged with infringement of a “covered business method patent.” AIA
§ 18(a)(1)(B); see 37 C.F.R. § 42.302. In addition,
the term “covered business method patent”
means a patent that claims a method or corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or service, except that the
term does not include patents for technological inventions.
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A patent
need have only one claim directed to a covered business method to be eligible for review. See Transitional
Program for Covered Business Method Patents—Definitions of Covered Business Method Patent and Technological Invention; Final Rule, 77 Fed. Reg. 48,734,
48,736 (Aug. 14, 2012) (“Final Rule”).
A. Charged with Infringement
Under 37 C.F.R. § 42.302(a),
[a] petitioner may not file with the Office a petition to institute a covered business method
patent review of the patent unless the petitioner, the petitioner’s real party-in-interest,
or a privy of the petitioner has been sued for
infringement of the patent or has been
charged with infringement under that patent.

196a
See AIA § 18(a)(1)(B). Under 37 C.F.R. § 42.302(a),
“[c]harged with infringement means a real and substantial controversy regarding infringement of a covered business method patent exists such that the petitioner would have standing to bring a declaratory
judgment action.”
Petitioner “certifies that it has been sued for infringement of the ’326 Patent and therefore satisfies
the standing requirement to seek CBM review.” Pet.
3 (citing Ex. 1026, 12–14 (Complaint)). Patent Owner
does not contest Petitioner’s certification.
Based on the foregoing, Petitioner shows persuasively it possesses standing to file the instant Petition
for CBM review of the ’326 patent.
B. Used in the Practice, Administration, or
Management of a Financial Product or Service
A covered business method (“CBM”) patent
“claims a method or corresponding apparatus for performing data processing or other operations used in
the practice, administration, or management of a financial product or service, except that the term does
not include patents for technological inventions.” AIA
§ 18(d)(1); 37 C.F.R. § 42.301. The Board must “examine the claims when deciding whether a patent is a
CBM patent.” Blue Calypso, LLC v. Groupon, Inc.,
815 F.3d 1331, 1340 (Fed. Cir. 2016) (emphasis omitted).
Petitioner points to claims 8 and 18 as each reciting assessing a user’s spoken request “to create a financial consequence” and then “billing a user . . .
based upon said financial consequence.” Pet. 19
(emphasis by Petitioner). Petitioner also points to
claims 9 and 19 as each reciting “assessing the user’s
spoken request ‘to create a financial consequence’”

197a
and “‘communicating said financial consequence’ to
the user and ‘confirming said communicated financial consequence to create a financial commitment’ before ‘billing said user based upon said financial commitment.’” Id. (quoting claims, Ex. 1001,
51:62–52:4, 53:33–40 (emphasis by Petitioner)).
Based on the foregoing, Petitioner shows that at
least one claim of the ’326 patent recites “a method . . .
for performing data processing or other operations
used in the practice, administration, or management
of a financial product or service.” AIA § 18(d)(1). Patent Owner does not contest the showing.
C. Technological Invention
As quoted above, under AIA § 18(d)(1), “the term
‘covered business method patent’ . . . does not include
patents for technological inventions.” Under 37
C.F.R. § 42.301(b), “[i]n determining whether a patent
is for a technological invention,” the Board considers
“whether [1] the claimed subject matter as a whole recites a technological feature that is novel and unobvious over the prior art, and [2] solves a technical problem using a technical solution,” respectively, the first
and second prongs of the technical invention exception. Both prongs must be met for a claim to fall under
the exception. See id.; cf. Fidelity Information Services, LLC, v. Mirror Imaging, LLC, Case CBM201700064, slip op. at 22 (PTAB Apr. 24, 2018) (Paper 26)
(“ [C]laim 1 . . . does not recite a technological feature
that is novel and unobvious over the prior art [under
the first prong of § 42.301(b)]. “Given that determination, we need not reach the second prong of whether
the claim solves a technical problem using a technical
solution.”)

198a
In general, the Office Patent Trial Practice Guide
(“TPG”) provides the following guidance with respect
to claim content that typically would not render a patent a technological invention:
(a) Mere recitation of known technologies,
such as computer hardware, communication
or computer networks, software, memory,
computer-readable storage medium, scanners, display devices or databases, or specialized machines, such as an ATM or point of sale
device.
(b) Reciting the use of known prior art
technology to accomplish a process or method,
even if the process or method is novel and nonobvious.
(c) Combining prior art structures to
achieve the normal, expected, or predictable
result of that combination.
TPG, 77 Fed. Reg. at 48,763–64.
With respect to the second prong of § 42.301(b),
Petitioner argues “[t]he ‘problem’ the ’326 [p]atent
purports to address is providing speech recognition
functionality in a cable television system.” Pet. 25
(quoting Ex. 1001, 4:54–56). Petitioner contends
[t]he patent discloses addressing this asserted problem by locating a “speech engine”
in the cable network. ’326 [p]atent at 49:14–
21. But the patent does not identify any technical problem that is solved by the challenged
claims. Lipoff Decl. ¶ 122. For instance, the
claims say nothing about how to solve any
purported “problem” with processing speech
in a cable television system. Instead, they
broadly recite the steps of (1) receiving speech

199a
information from the user, (2) transferring
that speech information to a speech recognition engine for recognizing the speech, and (3)
“effecting information delivery” based on that
recognized speech. Lipoff Decl. ¶ 123. Thus,
the claims do not recite a technological solution to any problem; rather, the claims merely
recite well-known steps to achieve the purported goal of the patent (i.e., providing
speech recognition functionality in a cable or
other video delivery network). Id.
Id.
Patent Owner responds that Petitioner fails to
“analyze the claims as a whole.” PO Resp. 8. Patent
Owner relies on “Petitioner’s own chief executive,”
Brian L. Roberts, quoting his statement from a 2004
article, as follows:
“[O]ne of my favorite” new pieces of technology
was a TV remote control that includes a
speech recognition feature. Customers would
use it to switch stations by saying “Go to
ESPN” or “Go to Channel 4,” and could call up
on their TV screen a listing of all the John
Wayne movies available through the on-demand service by saying “John Wayne movies.”
See PO Resp. 9 (quoting Ex. 2004, 1).
In discussing technology, Mr. Roberts’ statement
refers to speech recognition technology without referring to any of the ’326 claims, which did not issue until
9 years after the statement. Mr. Roberts does not include an analysis or a relevant statement with respect
to CBM eligibility or the breadth of the claims involved here. See Ex. 2004. Contrary to the related
arguments by Patent Owner, Petitioner shows at least

200a
one challenged claim does not solve a technical problem using a technical solution.
As indicated above, Petitioner initially lists the
three main steps of claim 1, contending claim 1 does
not solve a technical problem. Pet. 25 (citing Ex. 1029
¶ 123). As Mr. Lipoff explains, “[t]he claims simply
recite well-known steps to achieve the purported goal
of the patent (i.e., providing speech recognition functionality in a cable or other video delivery network).”
Ex. 1029 ¶ 123. Mr. Lipoff adds that the financial activity claims (identified in the previous section) “similarly do not solve any technical problem,” because
“[t]hose claims simply recite steps for using voice commands to perform financial transactions, and the
steps do not relate to, or purport to solve, any technical problem.” Id. ¶ 124. As Mr. Lipoff further explains, the ’326 patent purports to solve a problem related to providing speech recognition in a cable television system, but the claims do not require a cable system or embrace any proposed solution, and the ’326
patent neither describes a particular problem with
providing speech recognition to cable television systems nor provides any solution thereto. See id.
¶¶ 121–124 (citing Ex. 1001, 4:54–56).
With respect to prior art cable and speech recognition systems, the ’326 patent describes the following
problems:
While these innovations [in speech recognition] have been substantial, they do not resolve several central questions of great importance to cable television, video delivery
systems, and commerce. There is no present
system providing voice recognition to a collection of users over a cable television network.
There is no present system providing user

201a
identification based upon that voice recognition over a network that supports cable television and/or video delivery. There is no present
system sufficient for real-time auctions and
contracting to be conducted over a cable television and/or video delivery network, based on
user identification through voice recognition.
Ex. 1001, 4:52–62 (emphasis added). Notwithstanding the problems noted, challenged claims 1 and 12 do
not require “a collection of users,” let alone “providing
voice recognition to a collection of users over a cable
television network.” See id.; supra Section I.E.
Patent Owner describes a “two-fold” technological
problem:
(1) that cable networks did not have speech
recognition capabilities that could be provided
over a cable or video network, Ex. 1001, 2:5–
11, and (2) that they did not support multiple
users, . . . . The ’326 patent does not take the
prior art speech technologies, i.e., a powerful
local computer or using a telephone, and apply
them to a cable network. Ex. 1001, 1:41–2:4.
Instead, it claims the two-network-path solution, discussed above, that the Petition fails to
show was known in the art.
PO Resp. 10.
Notwithstanding the disclosure, claim 1 does not
require “a cable or video network.” See id. Also, none
of the challenged claims require multiple users. See
supra Section I.E (claim construction). Regarding the
“two-network path” solution, Patent Owner does not
explain what problem that solves or why that involves
anything more than a conventional network involving
different devices communicating with the network

202a
over different paths. See PO Resp. 2–7; infra Section
C.2; supra Section I.A (noting different paths or frequency allocations were conventional in cable systems); Section I.E (discussing known conventional devices and networks).
Patent Owner refers to a “purport[ed] . . . problem
of providing speech processing to multiple users,” and
argues “this problem can be solved by performing
speech recognition on a server.” PO Resp. 6 citing Ex.
2011 ¶ 197). Nevertheless, claim 1 does not require a
server, multiple users, or the two paths to be different.
See, e.g., Ex. 1001, 50:56–57 (claim 2, reciting “[t]he
method of claim 1, wherein said first network path
and said second network path are different paths.”);
supra Section I.E (claim construction). Also, nothing
in the ’326 patent reveals how the claimed first and
second network paths solves any problem.
Further regarding speech recognition and a wireless device, the ’326 patent admits as known “voice operated functions using the latest voice recognition
technologies,” including with “some computers” and
“cellular phones” (i.e., a wireless device). See Ex.
1001, 1:42–45; Pet. 5 (citing Ex. 1001, 1:42–2:4, 4:50–
52 as “acknowledg[ing] that many voice recognition
systems existed in the prior art”), 45 (reading the
claimed first and second devices and functions respectively on conventional wireless telephones or microphones and a set-top box, television, or combination of
the two and their associated predictable functions (citing Ex. 1023 ¶ 172)). The ’326 patent also admits
“[t]here has been extensive research into the mechanics of speech recognition. The progress has been sufficient to allow voice trading by stock brokers using
their desk top computers.” Ex. 1001, 4:49–52.

203a
Petitioner shows that the challenged independent
claims require at most the “[m]ere recitation of known
technologies, such as computer hardware, communication or computer networks, . . . or specialized machines,” “the use of known prior art technology to accomplish a process or method,” and/or “[c]ombining
prior art structures to achieve the normal, expected,
or predictable result of that combination.” See Pet. 21
(citing Ex. 1029 ¶¶ 54–58, 118–121; Ex. 1021; Ex.
1022); Ex. 1029 ¶¶ 118–124; TPG, 77 Fed. Reg. at
48,763–64. Similar to the challenged independent
claims, the challenged financial claims (i.e., claims 8,
9, 18, and 19, see supra Section IIB) also merely require the use of known technologies and predictable
results.
For example, claim 8 recites “[t]he method of
claim 1, further comprising the steps of: assessing a
response identified as to a user device comprising any
of said first device and said second device to create a
financial consequence; and billing a user associated
with said user device based upon said financial consequence.” As such, claim 8 recites additional steps that
involve using generic well-known devices for billing a
user. Accordingly, considering the steps of claim 1,
Petitioner shows sufficiently that at least claim 8
reads on combining a known wireless device such as a
wireless remote control with a microphone to transfer
speech data to a known speech recognition engine to
accomplish information data transfer to a known television or set-top box, and billing a user for the information transfer. See Pet. 13, 24–25.
Based on the foregoing, Petitioner persuasively
shows that at least one challenged claim of the ’326

204a
patent does not recite a technological feature that exempts the ’326 patent from CBM review under 37
C.F.R. § 42.301(b).
D. Conclusion––
A Covered Business Method Patent
The Board may institute a CBM patent review
based on the eligibility of a single claim because
§ 18(d)(1) of the AIA indicates CBM patent eligibility
if at least one claim directs its subject matter to a
CBM. See 35 U.S.C. § 324(a); Final Rule, 77 Fed. Reg.
at 48,736 (Response to Comment 8). In view of the
foregoing, on this preliminary record, the ’326 patent
constitutes a CBM patent under AIA § 18(d)(1).
III. 35 U.S.C. § 101
A. 35 U.S.C. § 101––Principles of Law
A patent-eligible invention must claim a “new and
useful process, machine, manufacture, or composition
of matter.” 35 U.S.C. § 101. However, the Supreme
Court interprets § 101 to include implicit exceptions:
“[l]aws of nature, natural phenomena, and abstract
ideas are not patentable.” Alice Corp. v. CLS Bank
Int’l, 573 U.S. 208, 216 (2014).
In determining whether a claim falls within an excluded category, the Court sets up a two-step framework, described in Mayo and Alice. Id. at 217– 18 (citing Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 566 U.S. 66, 75–77 (2012)). In accordance with
this framework, a tribunal first determines what concept the claim is “directed to.” See id. at 219 (“On their
face, the claims before us are drawn to the concept of
intermediated settlement, i.e., the use of a third party
to mitigate settlement risk.”); see also Bilski v. Kap-

205a
pos, 561 U.S. 593, 611 (2010) (“Claims 1 and 4 in petitioners’ application explain the basic concept of hedging, or protecting against risk.”).
Concepts determined to be abstract ideas, and
thus patent ineligible, include certain methods of organizing human activity, such as fundamental economic practices, Alice, 573 U.S. at 219–20; Bilski, 561
U.S. at 611; mathematical formulas, Parker v. Flook,
437 U.S. 584, 594–95 (1978); and mental processes,
Gottschalk v. Benson, 409 U.S. 63, 69 (1972). Concepts determined to be patent eligible include physical
and chemical processes, such as “molding rubber
products” (Diamond v. Diehr, 450 U.S. 175, 191
(1981)); “tanning, dyeing, making waterproof cloth,
vulcanizing India rubber, smelting ores” (id. at 182
n.7 (quoting Corning v. Burden, 56 U.S. 252, 267–68
(1854))); and manufacturing flour (Benson, 409 U.S.
at 69 (citing Cochrane v. Deener, 94 U.S. 780, 785
(1876))).
In Diehr, the claim at issue recited a mathematical formula, but the Court held that “[a] claim drawn
to subject matter otherwise statutory does not become
nonstatutory simply because it uses a mathematical
formula.” Diehr, 450 U.S. at 187; see also id. at 191
(“We view respondents’ claims as nothing more than
a process for molding rubber products and not as an
attempt to patent a mathematical formula.”). On the
other hand, the Court also indicated that a claim
“seeking patent protection for that formula in the abstract . . . is not accorded the protection of our patent
laws, . . . and this principle cannot be circumvented by
attempting to limit the use of the formula to a particular technological environment.” Id. (citing Benson
and Flook); see, e.g., id. at 187 (“It is now commonplace
that an application of a law of nature or mathematical

206a
formula to a known structure or process may well be
deserving of patent protection.”).
If the claim is “directed to” an abstract idea, a tribunal turns to the second step of the Alice and Mayo
framework, where it “must examine the elements of
the claim to determine whether it contains an ‘inventive concept’ sufficient to ‘transform’ the claimed
abstract idea into a patent-eligible application.” Alice,
573 U.S. at 221 (some quotation marks omitted). “A
claim that recites an abstract idea must include ‘additional features’ to ensure ‘that the [claim] is more than
a drafting effort designed to monopolize the [abstract
idea].’” Id. (quoting Mayo, 566 U.S. at 77). “[M]erely
requir[ing] generic computer implementation[] fail[s]
to transform that abstract idea into a patent-eligible
invention.” Id. In determining whether a method or
process claim recites an abstract idea judicial exception, during the inquiry, a tribunal must examine the
claim as a whole. Alice, 573 U.S. at 218 n.3. “[M]erely
requir[ing] generic computer implementation[] fail[ s]
to transform that abstract idea into a patent-eligible
invention.” Id. at 222.
The two steps Alice outlines may involve “overlapping scrutiny of the content of the claims.” Elec.
Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353
(Fed. Cir. 2016). The Guidance (see supra Section I)
similarly refers to “the recognized overlap in the steps
depending on the facts of any given case.” Guidance,
83 Fed. Reg. at 53.
According to Elec. Power, under Alice, “the firststage inquiry” involves
looking at the “focus” of the claims, their
“character as a whole,” and the second-stage

207a
inquiry (where reached) as looking more precisely at what the claim elements add—specifically, whether, in the Supreme Court’s terms,
they identify an “inventive concept” in the application of the ineligible matter to which (by
assumption at stage two) the claim is directed.
Elec. Power, 830 F.3d at 1353 (citing, inter alia, Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335–36
(Fed. Cir. 2016)).
B. USPTO 2019 Revised Patent Subject
Matter Eligibility Guidance
As indicated above, the PTO recently published
revised USPTO § 101 Guidance. Under the Guidance,
in Step 2A, the PTO determines (under two prongs)
whether the claim recites the following:
(1) any judicial exceptions, including certain
groupings of abstract ideas (i.e., mathematical
concepts, certain methods of organizing human activities such as a fundamental economic practice, or mental processes) (Prong
One); and
(2) additional elements that integrate the judicial exception into a practical application
(see MPEP §§ 2106.05(a}-(c), (e}-(h) (9th ed
Rev. 08.2017, Jan. 2018)) (Prong Two).
See Guidance, 84 Fed. Reg. at 51–55.
In Step 2B, only if a claim (1) recites a judicial exception and (2) does not integrate that exception into
a practical application, then the PTO determines
whether the claim
(3) adds a specific limitation beyond the judicial exception that is not “well-understood,

208a
routine, conventional” in the field (see MPEP
§ 2106.05(d)); or
(4) simply appends well-understood, routine,
conventional activities previously known to
the industry, specified at a high level of generality, to the judicial exception.
See Guidance, 84 Fed. Reg. at 56.
C. Section 101 Challenge
1. Statutory Claims and Guidance Step 1
Alice involves determining whether the claims recite an exception to an otherwise statutory category
under 35 U.S.C § 101. See Alice, 573 U.S. at 216–17.
Similarly, under the Guidance, the PTO first determines “whether the claim is to a statutory category
(Step 1).” Guidance, 84 Fed. Reg. at 53. Here, the
challenged claims recite a statutory process, namely a
process “for speech directed information delivery,” including “receiving speech information at a first device
. . . , transferring said speech information . . . to a
speech recognition engine; and . . . effecting information delivery to a second device.” See Ex. 1001,
50:27–44; Pet. 36.
2. USPTO Guidance Step 2A, Prong 1
Whether Challenged Claims Recite an Abstract Idea
“The § 101 inquiry must focus on the language of
the [a]sserted [c]laims themselves.” Synopsys, Inc. v.
Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed. Cir.
2016); see also Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336, 1345 (Fed.
Cir. 2013) (admonishing that “the important inquiry
for a § 101 analysis is to look to the claim”); Content
Extraction & Transmission LLC v. Wells Fargo Bank,
Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir. 2014) (“We

209a
focus here on whether the claims of the asserted patents fall within the excluded category of abstract
ideas.”). “An abstract idea can generally be described
at different levels of abstraction.” Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016).
As noted above, under Alice, determining whether
a process claim recites an abstract idea requires examining the claim as a whole under the first step of
Alice. Stated differently, according to Elec. Power, under Alice, “the first-stage inquiry” involves “looking at
the ‘focus’ of the claims, their ‘character as a whole,’”
Elec. Power, 830 F.3d at 1353 (citing, inter alia, Enfish, 822 F.3d at 1335–36). Courts have recognized
numerous categories of abstract ideas, such as “methods of organizing human activity,” Intellectual Ventures I LLC v. Capital One Bank (USA), N.A., 792 F.3d
1363, 1367 (Fed. Cir. 2015), “a fundamental economic
practice long prevalent in our system of commerce,”
Alice, 573 U.S. at 217 (quoting Bilski, 561 U.S. at 609
(Stevens J. concurring)), and steps “done mentally”
that “can be carried out in existing computers long in
use,” Benson, 409 U.S. at 67. The Guidance similarly
provides certain groupings of abstract ideas based on
what the claim recites: mathematical concepts, certain methods of organizing human activity, such as
fundamental economic principles or practices, and
mental processes. 9 84 Fed. Reg. at 52.

The Guidance also advises that the “Alice Step 1” analysis
should exclude analysis of whether elements represent well-understood, routine, and conventional activity. Guidance, 84 Fed.
Reg. at 55. “[R]evised Step 2A specifically excludes consideration
of whether the additional elements represent well-understood,
routine, conventional activity. Instead, analysis of well-understood, routine, conventional activity is done in Step 2B.” Id.
9

210a
Addressing claim 1’s character as a whole and specific recitations therein, Petitioner submits it “broadly
recites the steps performed in placing an order for a
delivery.” Pet. 36. Petitioner contends claim 12 adds
“only two implementation details” to claim 1 without
“chang[ing] the abstract nature of what is claimed.”
Id. at 41. Petitioner contends the dependent challenged claims do not “convert the underlying abstract
idea to patent-eligible subject matter.” Id. at 42. Finally, Petitioner contends all the challenged claims recite “‘purely functional and generic’ computer technologies” that “fail to add an inventive concept to the abstract idea.” Id. at 43 (quoting Alice, 573 U.S. at 226).
Addressing the Guidance, Petitioner asserts “[t]he
challenged claims fall into . . . certain methods of organizing human activity[] because they are directed to
. . . using speech recognition to process a transmitted
order to deliver information.” Pet. SMG Br. 2–3 (citing Pet. 37, 41; Inst. Dec. 24–26, 29). Petitioner also
contends “[t]he Petition specifically identifies examples of people making mail-order catalog purchases,
dialing directory assistance, and ordering food for
home delivery,” and notes the Guidance includes
“sales activities” as “examples of commercial interactions and managing interactions between people.” Id.
at 3. As a specific “example” of claims “that . . . add
only insignificant limitations to the patent-ineligible
abstract idea of processing an order for delivery,” Petitioner asserts “dependent claims 8–9 and 18–19 recite the abstract and uninventive concept of allowing
the user to place an order and then billing for it.” Id.
Petitioner additionally asserts “[t]he claims also
implicate Group (c) (mental processes) by using existing speech recognition technology to automate mental

211a
processes long performed by humans.” Id. at 3–4 (citing Pet. 37, 40; Inst. Dec. 25). Petitioner explains
“[t]he claims recite automating the mental process of
taking an order for delivery.” Id. at 4.
Petitioner explains further that the claims involve
“basic steps for placing an order [by telephone] to request delivery of a product or service have existed for
many decades (at least).” Pet. 37. Petitioner similarly
analyzes the steps of claim 1 as “broadly directed to
the concept of:
(1) receiving a spoken request, (2) transferring the request to another location where it can be understood,
and then (3) delivering the requested information.”
Id. at 36–37 (citing Ex. 1029 ¶ 152).
Petitioner quotes the ’326 patent Specification to
support its contention regarding the ordering and delivery of information embraced by the challenged
claims: “In these embodiments of the invention, spoken commands from a cable subscriber are recognized
and then acted upon to control the delivery of entertainment and information services, such as Video On
Demand, Pay Per View, Channel control, on-line shopping, and the Internet.” Id. at 37 n.8 (quoting Ex.
1001, 5:14–18).
Further discussing the concept of ordering and delivering information, Petitioner relates the focus of
the claims to mail order catalogs and telephone orders, as follows:
[M]ail order catalog companies have existed
for more than a century and began accepting
telephone ordering (i.e., “speech information”)
shortly after telephone service became widespread. [Ex. 1029] ¶ 153. As in claim 1, ordering a product by telephone involves the steps

212a
of: (1) receiving a spoken request (i.e., the
caller speaks into the telephone); (2) transferring the request to another location where it
can be understood (i.e., the request is transmitted over the telephone line to the merchant
who determines what specific product is being
requested); and then (3) delivering the requested information (i.e., the merchant sends
the requested product for delivery). Id. ¶ 153.
People have also performed these same basic
steps for decades when using telephone directory assistance or ordering food for home delivery. Id. ¶¶ 153–154.
Id. at 37.
Focusing on specific recitations in claim 1, Petitioner contends “receiving speech information” and
“‘transferring said speech information’ to speech
recognition engine” involves “no more than ‘collecting
information.’” Pet. 40 (quoting Elec. Power, 830 F.3d
at 1353). According to Petitioner, “[t]he recited
‘speech recognition engine’ merely processes the
speech information.” Id. (citing Ex. 1001, 50:42–43). 10
Petitioner analogizes such processing and analyzing
of speech information to claimed steps involved in
Elec. Power, 830 F.3d at 1353, wherein the court noted
“we have treated analyzing information by steps people go through in their minds, or by mathematical algorithms, without more, as essentially mental processes within the abstract-idea category.” Pet. 40
The analysis of the “speech recognition engine” properly belongs under Guidance Step 2A, prong two, and Step 2B, as addressed below, but our reviewing court and the Guidance recognizes the analysis sometimes involves and requires some overlap
under Alice, as noted above in Section III.A. See, e.g., Elec. Power,
830 F.3d at 1353.
10

213a
(quoting Elec. Power, 830 F.3d at 1353). In other
words, Petitioner contends the limitations of “receiving speech information” and “recognizing” the speech,
recite mental processes, and serve as part of a fundamental economic practice involving “effecting information delivery” under the final step of claim 1 (which
requires the earlier steps of “receiving speech information,” and “transferring” and “recognizing” it, to
“effect[] information delivery”). See id.; see also Pet.
SMG Br. 3–4.
In particular with respect to the final step of claim
1, “effecting information delivery to a second device
via a second network path,” Petitioner relies on Elec.
Power for its reasoning that “we have recognized that
merely presenting the results of abstract processes of
collecting and analyzing information, without more
(such as identifying a particular tool for presentation),
is abstract as an ancillary part of such collection and
analysis.” Pet. 40 (quoting Elec. Power, 830 F.3d at
1353). 11 Petitioner compares steps of claim 1, including the final step, and similar steps in claim 12 to “delivering rented digital data to a user.” See id. at 38
(citing Dish Network Corp. v. Customedia Techs.,
L.L.C., CBM2017-00031, Paper 10 at 18–19 (PTAB
July 18, 2017) (reasoning “that ‘delivering rented digital data to a user’ is little more than a generic ‘computerization’ of ‘the well-known and long-established
concept of renting media content such as videos’”)),
41–42 (similar analysis for claim 12).
These network paths and first and second devices discussed
below, like the speech recognition engine, properly fall under the
analysis of the next prong and next step under the Guidance, but
as indicated above, Petitioner presents an overlapping analysis
that our court and the Guidance recognizes as proper or required
in some cases. See supra note 10.
11

214a
In other words, as indicated above, Petitioner alleges specific claim steps and the claims as a whole,
respectively recite and focus on, mental steps of processing speech information and a fundamental economic contractual or commercial practice of placing
an order to effect product delivery. See Pet. SMG Br.
3–4; Pet. 37 (“People have also performed these same
basic steps for decades when using telephone directory assistance or ordering food for home delivery.”
(citing Ex. 1029 ¶¶ 153–154)). Stated another way,
the step of “recognizing said speech information and
effecting information delivery,” as independent claims
1 and 12 each recite, constitutes mental steps of processing speech information and a fundamental economic activity of delivering an order. See Pet. SMG
Br. 3–4 (“The challenged claims fall into . . . certain
methods of organizing human activity . . . because
they are directed to the abstract idea of using speech
recognition to process a transmitted order to deliver
information,” and “[t]he claims recite automating the
mental process of taking an order for delivery.”).
Petitioner explains why independent claim 12
does not alter the basic abstract nature of claim 1. For
example, Petitioner contends claim 12 “recites the
same method steps of claim 1, adding only two implementation details: (1) the information is delivered to
a ‘second device capable of displaying’ moving and still
images and ‘playing’ audio; and (2) the two network
paths are ‘different.’” Id. at 41. Petitioner analogizes
claim 12 as similar to
placing an order by telephone (i.e., “first device”) for delivery of a 35-mm film, video cassette, digital video disc, etc. to be played on a
film projector, VCR, DVD player, etc. (i.e.,
“second device”). The “first network path” for

215a
ordering (e.g., telephone line) is “different”
than the “second network path” for delivery
(e.g., U.S. mail, etc.).
Id. (citing Ex. 1029 ¶¶ 156–157).
Petitioner similarly analyzes dependent claims 2–
11 and 13–21 and contends they “recite parallel additional limitations—all of which are implementation
details that cannot convert the underlying abstract
idea to patent-eligible subject matter.” Pet. 41–42 (addressing claims 2–11, 13–21 citing Ex. 1029 ¶¶ 158–
168).
As one example, claim 7, which depends from
claim 1, follows:
7. [A method for controlling a speech recognition system coupled to a network.] The method of
claim 1, further comprising at least one of the
steps of:
[processing a multiplicity of received identified speech channels to create a multiplicity of recognized speech;
responding to said recognized speech to create
a recognized speech response that is unique to
each of said multiplicity of recognized speech; and
providing said speech recognition system at a
back channel accessible by a multiplicity of user
devices coupled to said network]
determining a user site associated with a user
of said first device;
determining said associated user site from
said recognized speech;

216a
determining said associated user site from
said recognized speech and a speaker identification library;
determining said associated user site from
said recognized speech and a speech recognition library; and
determining said associated user site from an
identification within said speech channel.
Ex. 1001, 51:2–43. Claim 7 only requires determining
a user site merely by using one of the recited “determining” steps. Claim 17 recites similar limitations.
Claims 10 and 20 require “identifying said user based
upon recognized speech and based upon said user profile list,” wherein “said user profile list contain[s] at
least one user profile.”
Petitioner contends “[c]laims 7 and 17 and claims
10 and 20 recite several different ways to identify the
user site sending the request, which is no more than
computerization of recognizing a frequent customer
by voice or simply stating: ‘May I ask who’s calling?’”
Id. at 43. As noted above, Petitioner summarizes the
dependent claims as reciting further limitations directed to mental processes and fundamental economic
practices (including commercial interactions), without
altering the character of the abstract idea recited in
independent claims 1 and 12. See Pet. SMG Br. 3–4
(summarizing claims as reciting limitations falling
into the two categories). As recited in these claims,
fundamental economic practices, including commercial or contractual practices, include transmitting a
spoken order for information, processing the order,
and delivering the information (using different ordering and delivering paths with respect to claims 17 and
20, similar to claim 12), while determining a user cite

217a
by recognizing one or more frequent customers associated with the spoken order, a mental process. See Pet.
43; Pet. SMG Br. 3–4.
Claims 10 and 20 further recite limitations directed to “a user profile list” and using the list and
speech to recognize a user. As noted above, Petitioner
contends the dependent claims do not alter the basic
character of the abstract idea recited in the independent claims. See Pet. 43; Pet. SMG Br. 3– 4. In other
words, “identifying said user based upon recognized
speech and based upon said user profile list” according
to claims 10 and 20 recites a mental process of recognizing a customer by collecting and analyzing data in
a list. See Smart Sys. Innovations, LLC v. Chi.
Transit Auth., 873 F.3d 1364, 1371 (Fed. Cir. 2017)
(noting a prior holding wherein “claims directed to the
collection, storage, and recognition of data are directed to an abstract idea” (citing Elec. Power Grp.,
830 F.3d at 1353 (indicating “collecting information”
may be “within the realm of abstract ideas” in some
circumstances)); Pet. 41–42 (addressing dependent
claims (citing Ex. 1029 ¶¶ 158–168)); Pet. SMG Br. 3–
4.
Petitioner also contends dependent claims 8–9
and 18–19 recite financial limitations “that clearly recite commercial interactions falling within Group (b),”
i.e., they recite limitations of a fundamental economic
practice “of allowing the user to place an order and
then billing for it” and the mental process of “taking
an order for delivery.” Pet. SMG Br. 3–4.
As another set of examples, with respect to claims
5, 15, 11, and 21, Petitioner summarizes the claims as
being directed to processing speech information “in an
‘unrecognized state’ to be recognized by the person re-

218a
ceiving the [telephone] order ‘based upon natural language.’” See Pet. 42. As indicated above, Petitioner
generally characterizes recognizing and processing
speech as reciting mental steps. See Pet. 40 (citing
Elec. Power, 830 F.3d at 1353 (“[W]e have treated analyzing information by steps people go through in
their minds, or by mathematical algorithms, without
more, as essentially mental processes within the abstract-idea category.”)); Pet. SMG Br. 3–4 (asserting
the claims recite a mental process).
The Specification does not discuss specifically
what an “unrecognized state” encompasses, but it implies that the system stores recognized commands for
comparison to a user’s commands (which, in one embodiment, the remote control digitizes before sending). See, e.g., Ex. 1001, 15:42–16:31, 19:27–60; 24:1–
59. If the disclosed system does not recognize a user’s
speech command initially (i.e., an unrecognized command), it may perform steps, in one embodiment, to
ascertain the user’s intent. See id. at 19:27–60. Petitioner’s arguments show that “natural language” constitutes at least one form of an unrecognized state,
consistent with the Specification. See id.; Pet. 46
(“The ’326 Patent itself admits that prior art systems
could recognize speech in ‘an unrecognized state’
(claims 5 and 15) ‘based upon natural language’
(claims 11 and 21), and the patent does not purport to
disclose any new technique or approach for doing so.”
(citing Ex. 1029 ¶¶ 93, 99, 176, 182)).
Patent Owner responds “the same claimed concepts also support the finding that the claims are not
directed to ‘placing an order and having something delivered,’ as the Petition asserts (Pet. 2), under Alice
step 1.” PO Resp. 13. Addressing the Guidance, Pa-

219a
tent Owner argues that the claims do not recite an abstract idea. According to Patent Owner, the independent claims of the ’326 patent “do not recite any judicial
exception” and “do not recite any abstract idea from
the Guidance.” PO SMG Br. 2. Patent Owner asserts
“the claims do not recite placing an order for delivery.”
Id. at 3. Also, Patent Owner contends “dependent
claim 4 proves that the claims can be used for other
things like video searching.” Id. Patent Owner also
argues “the functionality of the ‘speech recognition engine,’ and how that engine receives and transmits information from and to the user sites along ‘network
paths,’ has nothing to do with any abstract idea or
other judicial exception.” Id.
Patent Owner’s arguments do not undermine Petitioner’s showing. Patent Owner’s argument that
“the claims do not recite placing an order for delivery”
present a literal argument about what the claims “recite” that does not explain whether and how Petitioner
mischaracterizes claim 1, or any claim, as a whole.
See PO SMG Br. 2. Regarding claim 4, it merely recites a type of information, “video search information,”
a mental construct, and the claim does not specify how
to use the search information. Based on the foregoing
discussion, Petitioner persuasively shows that specific
claims recite steps directed to a fundamental economic practice including commercial or contractual
interactions and a mental process.
The thrust of Patent Owner’s remaining arguments relate to the analysis under Step 2A, prong 2,
addressed in the next section. See supra notes 11, 12.
In summary, Petitioner persuasively shows the challenged claims recite a method of organizing human activity such as a fundamental economic commercial or

220a
contractual practice that includes effecting the delivering a product (information) based on a spoken request for the product. Petitioner persuasively shows
that the limitations recited in all of the challenged
claims, “receiving speech information” and “recognizing said speech information” further recite a mental
process of hearing and processing speech that humans
have been performing forever. Petitioner also persuasively shows the recited “effecting information delivery” step recites a fundamental economic practice,
similar to delivering products in a catalog or delivering or renting video information. See Pet. 38 (citing
Dish Network Corp. v. Customedia Techs., L.L.C.,
Case CBM2017-00031, Paper 10 at 18–19 (PTAB July
18, 2017)). Petitioner also shows that none of the challenged claims alter the basic abstract character of the
claims. Pet. 41–42 (addressing claims 2–11, 13–21 citing Ex. 1029 ¶¶ 158–168).
Petitioner summarizes that claim 1 “as a whole is
‘clearly focused on the combination of those abstractidea processes.’” Id. at 40–41 (quoting Elec. Power,
830 F.3d at 1353 (indicating “a process of gathering
and analyzing information of a specified content, then
displaying the results” under circumstances including
“no inventive technology for performing those functions” may be “directed to an abstract idea”)). According to our reviewing court, as Petitioner contends,
combining several abstract ideas does not render the
combination any less abstract. RecogniCorp, LLC v.
Nintendo Co., 855 F.3d 1322, 1327 (Fed. Cir. 2017)
(“Adding one abstract idea . . . to another abstract idea
. . . does not render the claim non-abstract.”); see also
FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d
1089, 1093–94 (Fed. Cir. 2016) (patent-ineligible
claims directed to a combination of abstract ideas).

221a
Also, summarizing the recitations involved in different levels of abstraction does not undermine Petitioner’s showing. Apple, Inc. v. Ameranth Inc., 842
F.3d 1229, 1240 (Fed. Cir. 2016) (“An abstract idea
can generally be described at different levels of abstraction.”).
As indicated above, Patent Owner’s arguments directed to the first device, the second device, the speech
recognition engine, and other recitations in the dependent claims, relate to the second prong of the inquiry, i.e., “additional elements,” discussed in the next
two sections. See Guidance, 84 Fed. Reg. at 55 n.24.
3. USPTO Guidance Step 2A, Prong 2
Integration of the Abstract Ideas into a
Practical Application
The challenged claims recite limitations beyond
the judicial exception-i.e., “additional elements.”
Guidance, 84 Fed. Reg. 54. As Petitioner shows and
as discussed herein, these additional elements do not
integrate the recited judicial exception into a practical
application. See id. at 55 nn.25 & 27–32 (citing MPEP
§§ 2106.05(a)–(c), (e)–(h)). Under the Guidance, the
“additional elements” may integrate the judicial exception when they reflect an improvement to technology or a technical field singly or as a combination. See
id. at 55.
Petitioner argues that the challenged claims do
not recite limitations integrating the abstract idea
into a practical application. Petitioner explains “the
challenged claims do not improve any technology or
solve any technical problem; they instead use generic
computer technology (i.e., devices, network paths, and
[a] speech recognition engine) to implement the abstract idea of ordering information for delivery.” Pet.

222a
SMG Br. 5–6. According to Petitioner, “[t]hat this abstract process is automated using conventional networked ‘devices’ and a computerized ‘speech recognition engine’ does not remove it from the realm of abstract ideas.” Pet. 41 (citing Alice, 573 U.S. at 222–
26; Dish Network, CBM2017-00031, Paper 10 at 18–
19); accord id. at 40 (citing Elec. Power, 830 F.3d at
1353). Petitioner contends that the “first network
path” and “second network path” recite “‘components
. . . at a high level of generality and are merely invoked as tools to perform’ the transmitting part of the
abstract idea.” Pet. SMG Br. 6 (citing USPTO Subject
Matter Eligibility Exam 42).
Addressing the dependent claims, Petitioner summarizes as follows: “The limitations of the dependent
challenged claims similarly recite (or incorporate) conventional, generic components or steps that are not inventive and do not change the abstract nature of the
claims.” Pet. 45–46 (citing Ex. 1029 ¶¶ 90–93, 173–
176, 182). As an example, addressing claims 2–4 and
14–14, Petitioner contends “[r]equiring that the first
device and second device ‘are different devices’ (claims
3 and 13), that the ‘network paths are different’
(claims 2 and 12), or that the requested information is
‘video information’ (claims 4 and 14) does not add any
technical innovation to the underlying abstract idea.”
Id. at 46.
As determined above, individual steps and the
claims as a whole focus on the abstract idea of a fundamental economic process and mental step. The
claims recite transmitting a spoken order for information, processing the order using generic speech
recognition software, and delivering the information
using generic devices and network paths. See id. at
37 (“These basic steps for placing an order to request

223a
delivery of a product or service have existed for many
decades (at least).”) & n.8 (quoting the Specification).
As stated above, the inquiry here under the Guidance
involves analyzing the recited claim steps for “any additional elements . . . beyond the judicial exceptions”
to determine if “those additional elements individually and in combination . . . integrate the exception
into a practical application.” Guidance, 84 Fed. Reg.
at 54–55.
As noted above under prong 1 of Step 2A, Patent
Owner argues “the functionality of the ‘speech recognition engine,’ and how that engine receives and
transmits information from and to the user sites along
‘network paths,’ has nothing to do with any abstract
idea or other judicial exception.” PO SMG Br. 4. Patent Owner contends “[t]he claims here recite a specific implementation of remote speech recognition by
receiving a spoken command at a wireless device to
effect information delivery to a different device.” PO
SMG Br. 5. Regarding the “first device” and “second
device” recited in claims 1 and 12, Patent Owner contends that “while not expressly required until dependent claims 6 and 16, the first device may be a remote
control (i.e., a device ‘used for input and output for
control purposes’), and the different [second] device
may be a television and set[-]top box.” See id.
Further, Patent Owner contends
[t]he claims even further limit that specific
implementation of speech recognition to one
specific solution using two network paths: (1)
a first path to transfer the received speech information to a speech recognition engine, and
(2) a second path to deliver information to the
second device. See POR at 3–5; Ex. 1001,
50:23–44. This combination of claim elements

224a
recites a practical application of any judicial
exception Comcast may assert. Indeed, this
combination of elements, tied to a practical
application, makes the claims more than a
mere “drafting effort designed to monopolize
the judicial exception.” Guidance at 54.
Id. at 5–6.
As Patent Owner recognizes, “Step 2A specifically
excludes consideration of whether the additional elements represent well-understood, routine, conventional activity; that analysis occurs in Step 2B.” Id. at
4. Nevertheless, Patent Owner’s arguments do not
undermine Petitioner’s showing.
As Patent Owner states, the claimed first device
may include a remote control device, and the claimed
second device may include a television set-top box. PO
SMG 5–6. These claimed additional devices represent
generic devices, as does the speech recognition engine
as construed above. See Section I.E. Also, and as explained further below, with a microphone on a first
network path and a set-top box in the second network
path, Petitioner shows the first and second network
paths represent generic network paths connecting generic devices to a generic speech recognition device.
See Ex. 1001, Figs. 1 and 2 (showing generic cable networks with set-top boxes); supra Section 1.A (describing microphones as part of a network path); infra Section IV (addressing the breadth of the claims under
recapture). With respect to different network paths
as claims 2 and 12 require, the Specification admits
“[d]ownstream control data transmission typically occurs in a separate frequency band from the upstream
channels.” Ex. 1001, 3:46–47. The claims here do not

225a
recite different frequency bands, indicating the generic nature of the same or different network paths
(depending on the claim).
In addition, the Specification explains networks
typically use the same or different fibers and cables
with multiplexing schemes to manage upstream and
downstream transmission:
Typically, HFC networks employ an optical fiber from a central office, or Headend, to
a neighborhood node. The fiber has forward
and reverse transmission capability, which
can alternatively be accommodated on separate fibers. Wavelength Division Multiplexing (WDM) can be used to implement both on
a single fiber. At the node, coaxial cable connects the users through a shared frequency division multiplexing (FDM) scheme with contention resolution protocols used to manage
upstream data flows.
Ex. 1001, 3:48–56. The generic network paths in the
challenged claims fail to specify optic cables, coaxial
cables, or multiplexing schemes.
None of the challenged claims require any improvement over a conventional or generic speech
recognition engine, as construed above. See supra
Section I.E. And no claims require an improvement
over a conventional or generic first device, a second
device, a first network path, or a second network path.
See Pet. 45–46; DDR Holdings, LLC v. Hotels.com,
L.P., 773 F.3d 1245, 1257–58 (Fed. Cir. 2014) (discussing an improvement to hyperlink protocol), cited in
Guidance, 84 Fed. Reg. at 55 n.25; see also MPEP
§ 2106.05(a).

226a
Challenged independent claims 1 and 12 recite
“transferring said speech information from said first
wireless device via a first network path to a speech
recognition engine; and at said speech recognition engine, recognizing said speech information and effecting information delivery to a second device via a second network path.” 12 (Emphasis modified to reissue
challenged claims 1 and 12). As indicated above and
in light of the Specification, this recitation shows a generic first device connected to a speech recognition engine over a first network path, with a generic second
device connected to the speech recognition over a second network device. 13
Again, these network paths, although different,
represent generic paths, with the first path including
a wireless portion, but with no other requirement or
specificity, for example, the carrier frequency, the
bandwidth, the modulation scheme, the multiplexing
scheme, or even whether or not the claims require a
physical cable path or optical path. The claims also
do not require or preclude the paths from overlapping

Claim 2 depends from claim 1, and like independent claim
12, adds “wherein said first network path and said second network path are different.”
12

Even though the claimed concept includes speech recognition
(i.e., “a speech recognition engine”), “claims are not saved from
abstraction merely because they recite components more specific
than a generic computer.” See BSG Tech. v. BuySeasons, Inc.,
899 F.3d 1281, 1286 (Fed. Cir. 2018) (citing In re TLI Commc’ns
LLC Patent Litig., 823 F.3d 607, 612–13 (“holding claims were
directed to an abstract idea despite the claims’ recitation of telephone units and servers”); Content Extraction & Transmission
LLC v. Wells Fargo Bank, Nat’l Ass’n, 776 F.3d 1343, 1347 (Fed.
Cir. 2014) (“holding claims were directed to an abstract idea despite the claims’ recitation of a scanner”)).
13

227a
to some extent. See PO Resp. 5 (annotating hypothetical red and blue network paths in Figure 3 of the ’326
patent as partially overlapping through what the
Specification describes as through “a high speed physical transport 1400” in one embodiment (Ex. 1001,
7:16–17)); supra Section I.A (finding the Specification
does not require the entirety of the paths to be different, noting for example, “each subscriber” sends signals to “the Headend via either the same fiber used for
the downstream video carriers, or a separate fiber.”
(citing Ex. 1001, 3:25–28 (emphasis added)).
Patent Owner also argues as follows:
The claims also recite additional features
that the patent identifies as inventive and/or
improving the technology.
For example,
claims 4, 6, 12, 14, and 16 further capture the
concept of providing speech recognition in a
video or cable television network, which the
patent discloses as inventive. Ex. 1001, 4:5359. Claims 7–11 and 17–21 further capture
the concept of determining a user device,
which the patent discloses as inventive and
advantageous.
Id. at 6:55–60; 10:20–38,
14:18–23. And claims 10 and 20 further capture to concept of identifying the user based
on speech, which the patent discloses as inventive and advantageous. Id. at 4:56–62;
5:1–6; 18:30–35.
PO Resp. 13.
Patent Owner’s arguments do not undermine Petitioner’s showing. The argument that “claims 4, 6,
12, 14, and 16 further capture the concept of providing
speech recognition in a video or cable television network, which the patent discloses as inventive,” merely

228a
shows that the disclosure contemplates a speech
recognition engine with video and cable. The claims
do not recite or require any improvement in video, cable, or a speech recognition engine. Video information
simply constitutes a generic type of information transmitted for years over television. The claims do not
specify if the information includes analog or digital information. Also, none of the claims specifically recite
cable, contrary to Patent Owner’s arguments. For example, claim 6 recites “wherein said information delivery is to said second device which comprise a television and STB.” This claim at most recites generic
equipment that theoretically could be used in a a generic cable system, without requiring an improvement
in television or TV technology. At best, the “additional
element does no more than generally link the use of a
judicial exception to a particular technological environment or field of use,” i.e., cable television. See
Guidance, 84 Fed. Reg. 55.
The argument that “[c]laims 7–11 and 17–21 further capture the concept of determining a user device,
which the patent discloses as inventive and advantageous” also does not undermine Petitioner’s showing.
PO Resp. 13. The ’326 patent Specification states
“[t]here is no present system providing voice recognition to a collection of users over a cable television network. There is no present system providing user identification based upon that voice recognition over a network that supports cable television and/or video delivery.” Ex. 1001, 4:54–59 (emphases added). Although
the ’326 patent describes “providing voice recognition
to a collection of users over a cable television network”
as lacking in prior art systems, claims 7–11 and 17–
21 do not require “providing voice recognition to a collection of users,” let alone voice recognition of a user

229a
in a cable television system. Rather, these claims essentially only require recognizing (by voice recognition or otherwise) a user at a single user site.
Furthermore, under Petitioner’s abstract idea
analysis, given the breadth of claims 7–11 and 17–21,
recognizing a frequent customer and associating the
user with something else like a generic device
amounts to merely recognizing a sole customer. Even
if the claims somehow require recognizing more than
one customer and associating a device with that customer, people have been recognizing others based on
speech for a long time. The claims do not improve
upon any computer functionality. The additional elements of the challenged claims individually and as a
combination do not integrate the exception into a
practical application, mainly because they rely on conventional or generic components and network configurations. The additional elements do not improve
upon the functioning the conventional or generic
speech recognition engine and network paths, as recited in the challenged claims.
In summary, Petitioner shows that the additional
elements recited in the challenged claims do not integrate the recited judicial exception into a practical application.
4. Alice-Mayo, Second Step, Guidance,
Step 2B, Inventive Concept
The second step of the Alice inquiry, a tribunal
must “scrutinize the claim elements more microscopically” for additional elements that might be understood to “transform the nature of the claim” into a patent-eligible application of an abstract idea. Elec.
Power, 830 F.3d at 1353–54. In other words, the in-

230a
quiry involves whether the claims include an “inventive concept,” i.e., an element or combination of elements sufficient to ensure that the patent in practice
amounts to significantly more than a patent on the
abstract idea itself. Alice, 573 U.S. at 220–22. The
relevant inquiry includes whether “additional substantive limitations . . . narrow, confine, or otherwise
tie down the claim so that, in practical terms, it does
not cover the full abstract idea itself.” Accenture Glob.
Servs., GmbH v. Guidewire Software, Inc., 728 F.3d
1336, 1341, 1345 (Fed. Cir. 2013) (internal quotations
and citation omitted).
Similar to the second step of Alice-Mayo, under
the Guidance, to determine whether a claim provides
an inventive concept, the additional elements are considered––individually and in combination––to determine whether they (1) add a specific limitation beyond
the judicial exception other than something “well-understood, routine, conventional” in the field or (2)
simply append well-understood, routine, conventional
activities previously known to the industry, specified
at a high level of generality, to the judicial exception.
Guidance, 84 Fed. Reg. at 56.
“For the role of a computer in a computer-implemented invention to be deemed meaningful in the context of this analysis, it must involve more than performance of ‘well-understood, routine, [and] conventional
activities previously known to the industry.’” Content
Extraction, 776 F.3d at 1347– 48 (quoting Alice, 573
U.S. at 225). “To save a patent at [Alice] step two, an
inventive concept must be evident in the claims.”
RecogniCorp, LLC v. Nintendo Co., 855 F.3d 1322,
1327 (Fed. Cir. 2017).
Scrutinizing the recited method claims, for the
reasons explained above, Petitioner contends that the

231a
claimed elements, viewed individually and as an ordered combination, do not transform the nature of the
claims into patent-eligible application of an abstract
idea. See Pet. 43–46. As determined above in the previous section, Petitioner explains that claims 1 and 12
are directed to an abstract idea and require no more
than generic, conventional computer technology—e.g.,
a generic “first device,” which may include a conventional wireless telephone or microphone, a generic
“second device,” which may include a generic or conventional television or STB, and a generic or conventional speech recognition engine, with each performing conventional functions as disclosed and claimed.
See Pet. 22–24 (citing Ex. 1029 ¶¶ 54–58, 118–121),
43–46 (citing Ex. 1029 ¶¶ 90–99, 170–182); Ex. 1029
¶¶ 52–58 (citing articles and disclosures attached as
Exhibits evidencing known voice recognition technology); Ex. 1020 (May 1995 article disclosing a remote
control with a microphone providing natural voicecontrol technology to control a digital set-top with
menus via control at a headend); Ex. 1021, 285, 287
(August 1995 IBM Technical Disclosure Bulletin disclosing “methods for using speech recognition to select
or modify images, sound, and data transmitted on a
cable television system” using a microphone or wireless telephone). Petitioner also shows that the challenged dependent claims embrace the use of prior art
conventional technology that fail to alter the nature of
the claims because they fail to add any technological
improvement. See Pet. 45–46.
As indicated above, Petitioner contends challenged independent claim 12 focuses on the abstract
idea of using speech recognition to process a transmitted order to deliver information using different ordering and delivery paths. See id. Petitioner also explains that the challenged dependent claims focus on

232a
the abstract idea of using speech recognition to process a transmitted order to deliver information, using
different ordering and delivery paths with respect to
claims 2, 3, 4, and 12–21; billing a user with respect
to claims 8, 9, 18, and 19; requiring a financial commitment with respect to claims 9 and 19; providing
certain types of information (e.g., video, images, audio) with respect to claims 4 and 14; and recognizing
the user or user device via speech recognition with respect to claims 5, 7, 10, 11, 15, 17, 20, and 21. See id.
at 42–43. Similar to limitations recited in claim 12,
claims 6, 13, and 16 require different devices or types
of generic devices that fail to alter the basic abstract
idea underlying claims 1 and 12. See id. at 41, 43.
In addition, Petitioner contends the challenged
claims involve automation using conventional networked devices and a conventional speech recognition
device, which does not remove the challenged claims
from the realm of abstract ideas. See Pet. 35–36, 38–
43; Alice, 573 U.S. at 217–221; Elec. Power., 830 F.3d
at 1354 (noting “the two stages [of Alice] involve overlapping scrutiny of the content of the claims”). As
summarized in Elec. Power, “the focus of the claims is
not on . . . an improvement in computers as tools, but
on certain independently abstract ideas that use computers as tools.” 830 F.3d at 1354.
Patent Owner asserts as follows:
First, the claims recite how the implementation was designed to support multiple users in
an information delivery network. POR at 2–
7. Second, the claimed implementation was
not routine or conventional. The conventional
wireless device effecting the delivery of information to a different device was a standard remote control that sent information to a user’s

233a
television or set top box, and the ability to control information delivery by speaking into a
remote or other wireless device (for sending
speech information to a remote speech processing engine) has only recently entered
widespread use. But the ’326 patent claims
priority back to the year 2000: 15 years before
Comcast released its X1 system. Comcast improperly conflates obviousness with its analysis of what was routine/conventional.
PO SMG Br. 7.
Patent Owner also argues that the claims recite
an inventive concept under step 2 of Alice: “The twonetwork-path method for providing speech directed
information delivery using a remote system recited by
the ordered combination of the claim elements in
claims 1 and 12 of the ’326 patent, which the patent
and its provisional assert is an inventive concept,
makes the claims patent eligible.” PO Resp. 13. Patent Owner also analogizes its claims as similar to
those involved in BASCOM and involving “claims being eligible under Alice step two.” Id. (citing BASCOM Glob. Internet Servs., Inc. v. AT&T Mobility
LLC, 827 F.3d 1341, 1349 (Fed. Cir. 2016); Enfish, 822
F.3d at 1337).
Patent Owner’s arguments do not undermine Petitioner’s showing that the claims recite conventional
well-understood routine devices, for the reasons discussed above. The arguments assume the claims require “a remote speech processing engine,” and they
do not. See supra Sections I.A, I.E; infra Section IV.
As noted at several instances in this Final Written Decision, the first substantive sentence of the ’326 patent
states “[t]his invention relates to voice recognition performed near a wireline node of a network supporting

234a
cable television and/or video delivery.” Ex. 1001,
1:38–40 (emphasis added). The Specification contemplates local or remote processing near a wireline node.
Also, the claims do not require supporting multiple users, but even if they do, the record shows that
conventional cable systems supported multiple users.
See Ex. 1029 ¶¶ 52–58, 169–182 (testifying about conventional technology, including conventional television networks); Ex. 1021 (IBMTDB); supra Section I.E
(claim construction describing IBMTDB (Ex. 1021) as
disclosing conventional cable television with a remote
speech recognition engine).
Although Patent Owner agrees that standard remote controls or set-top boxes represent conventional
devices (PO SMG Br. 7), Patent Owner also agrees the
claims read on or include those devices. See id. at 5
(“[W]hile not expressly required until dependent
claims 6 and 16, the first device may be a remote control (i.e., a device ‘used for input and output for control
purposes’”), and the different [second] device may be a
television and set[-]top box”). Even though the ’326
patent claims priority to the year 2000, as explained
above, Petitioner shows persuasively that the claims
embrace standard and generic cable technology, microphones, speech recognition engines, and set-top
boxes, all well-understood, routine, and conventional,
existing at the time of the invention. See Pet. 22–24
(citing Ex. 1029 ¶¶ 54– 58, 118–121), 43–46 (citing Ex.
1029 ¶¶ 90–99, 170–182); Ex. 1029 ¶¶ 52–58 (citing
articles and disclosures attached as Exhibits evidencing known voice recognition technology); Ex. 1020
(May 1995 article disclosing a remote control with a
microphone providing natural voice-control technology to control a digital set-top with menus via control
at a headend); Ex. 1021, 285, 287 (August 1995 IBM

235a
Technical Disclosure Bulletin disclosing “methods for
using [a remote] speech recognition to select or modify
images, sound, and data transmitted on a cable television system” using a microphone or wireless telephone); supra Section I.E.
Addressing Patent Owner’s argument based on
BASCOM, Petitioner distinguishes it on several
fronts, as follows:
According to [BASCOM], “[t]he inventive
concept described and claimed in the [challenged] patent is the installation of a filtering
tool at a specific location, remote from the endusers, with customizable filtering features
specific to each end user.” 827 F.3d at 1350.
Here, the challenged claims of the ’326 Patent
do not recite any limitation comparable to the
[BASCOM] claims’ explicit requirement of “installation of a filtering tool at a specific location” that is “remote from the end-users.” Cf.
’326 Patent at claims 1, 12. Nor has Patent
Owner attempted to amend the claims to impose such limitations.
[BASCOM]] also found that the patent at
issue there claimed “a technology-based solution . . . to filter content on the Internet that
overcomes existing problems with [prior art]
Internet filtering systems.” 827 F.3d at 1351.
Unlike the patent in [BASCOM], there is no
discussion in the ’326 Patent of any particular
problems with prior art methods that would
be solved by transmitting information to and
from a speech recognition engine via first and
second network paths. Lipoff Decl. ¶¶ 122–
124. While Patent Owner refers to a “two-network path solution,” it does not identify any

236a
particular problem overcome by this purported solution.
Reply 8.
As Petitioner argues, the claims here do not require any specific location for the generic speech
recognition engine. Moreover, even if somehow something limits a speech recognition to be located remotely, as discuss above, that feature already existed
as a conventional cable feature in the prior art. See,
e.g., Ex. 1020 (May 1995 article disclosing a remote
control with a microphone providing natural voicecontrol technology to control a digital set-top with
menus via control at a headend); Ex. 1021, 285, 287
(August 1995 IBM Technical Disclosure Bulletin disclosing “methods for using [a remote] speech recognition to select or modify images, sound, and data transmitted on a cable television system” using a microphone or wireless telephone); supra Section I.E. Unlike the claims in BASCOM, the claims do not require
“customizable [speech recognition] features specific to
each user.”
Finally, as Petitioner argues, unlike in BASCOM,
the ’326 patent does not refer to a two-network path
solution as overcoming any problem. It does not even
refer to a two-network path, other than describing
prior art cables or configurations, and referring to
such known generic “forward and backward paths” as
“loops herein.” See, e.g., Ex. 1001, 3:26–27, 3:47–58,
4:25–30; supra Sections IA, I.E.1. As also discussed
above, the ’326 patent describes server arrays of processors for speech recognition to handle a multiplicity
of back channels, using one channel for each user,
which appears to be part of any solution described, but
not claimed. See supra Sections I.A, I.E.1; Ex. 1001,
claim 1 (bracketed portion, indicating deleted matter

237a
from the ’523 patent claims, formerly reciting “partitioning a received back channel containing a multiplicity of speech channels from a multiplicity of user
devices into a multiplicity of received identified
speech channels”).
Patent Owner also refers to disclosed embodiments and litigation remarks by Petitioner as showing what “the ’326 claims are based on.” See PO SMG
Br. 7 (citing Ex. 2010, 15). However, Patent Owner
characterizes “[t]hese bespoke components” as those
components “upon which the claims are based.” Id.
Nevertheless, the claims do not require the disclosed
components, even if based on some disclosed components for written description or other purposes. In
any event, as Petitioner persuasively shows “with the
exception of generic computer-implemented steps,
there is nothing in the claims themselves that forecloses them from being performed by a human, mentally or with pen and paper.” Intellectual Ventures I
v. Symantec, 838 F.3d 1307, 1318 (Fed. Cir. 2016); Reply 6–7 (quoting same).
5. Conclusion–Non-Statutory Subject Matter
Based on the foregoing discussion and a review of
the record, Petitioner shows by a preponderance of evidence that challenged claims 1– 21 recite abstract
concepts and do not recite patent-eligible subject matter. See Alice, 573 U.S. at 224–25.
IV. 35 U.S.C. § 251
A. 35 U.S.C. § 251––Principles of Law
Section 251 permits a patentee to seek a reissue
of a patent where, “through error,” the patentee originally claimed “less than he had a right to claim.” In
re Mostafazadeh, 643 F.3d 1353, 1358 (Fed. Cir. 2011).
However, “[t]he recapture rule bars a patentee from

238a
recapturing subject matter, through reissue, that the
patentee intentionally surrendered during the original prosecution in order to overcome prior art and obtain a valid patent.” In re Youman, 679 F.3d 1335,
1343 (Fed. Cir. 2012) (citing In re Mostafazadeh, 643
F.3d at 1358).
The recapture rule involves a three-step process
to determine (1) whether and in what aspect, the reissue claims are broader than the patent claims; (2) the
reissue claims’ broader aspects relate to surrendered
subject matter; and (3) the reissue claims materially
narrow the claims relative to the claims prior to the
surrender such that full or substantial recapture of
the subject matter surrendered during prosecution is
avoided. See Youman, 679 F.3d at 1343–47; Mostafazadeh, 643 F.3d at 1358–59 (citing In re Clement,
131 F.3d 1464, 1468–70 (Fed. Cir. 1997)).
Under the second step, “to determine what the applicants surrendered, we look to the change of scope
between the original and patented claim . . . and the
accompanying arguments applicants made during the
original prosecution.” Youman, 679 F.3d at 1344 (“We
have consistently held that when a patentee narrows
the original claim in an effort to overcome a prior art
rejection and makes arguments in support, the patentee surrenders the subject matter broader than the
patented claim.”).
Under the third step,
the court must “determine whether the surrendered subject matter has crept into the reissue claim.” [Clement, 131 F.3d at 1469.] In
discussing this third step, it is important to
distinguish among the original claims (i.e., the
claims before the surrender), the patented

239a
claims (i.e., the claims allowed after surrender), and the reissue claims. Violation of the
rule against recapture may be avoided under
this final step of the analysis if the reissue
claims “materially narrow” the claims relative
to the original claims such that full or substantial recapture of the subject matter surrendered during prosecution is avoided.
Mostafazadeh, 643 F.3d at 1358.
In summary, under the third step, the material
narrowing must relate to the surrendered subject
matter to avoid recapture. Id.; Youman, 679 F.3d at
1347–48. 14
B. Section 251 Challenge
Petitioner contends under the first step that during the reissue proceeding, Patent Owner broadened
the issued claims of the ’523 patent. Essentially, Petitioner contends that Patent Owner removed limitations recited in the ’523 patent claims directed at least
to receiving and processing speech from “a multiplicity of user devices.” See Pet. 28–29. Section I.A supra
reveals the broadening changes to claim 1. Reissued
claim 11, which depends from claim 1, and independent 12, depicted below with changes to the originally
issued claims, reveal materially the same broadening
changes as claim 1:
11. [An apparatus for speech recognition in a network] The method of claim 1, further comprising
the steps of providing:

Here, no party asserts that the present situation involves
“overlooked aspects.” See Youman, 679 F.3d at 1347 (citing Mostafazadeh, 643 F.3d at 1360).
14

240a
[a speech recognition system coupled to said
network for receiving a back channel from a multiplicity of user devices;
a back channel receiver for receiving said back
channel;
a speech channel partitioner for partitioning
said received back channel into a multiplicity of
received identified speech channels;
a processor for processing said multiplicity of
said received identified speech channels to create]
responding to recognized speech [for each of said
received] identified [speech channels; and responding] as to said [recognized speech] first device based upon natural language to create a
[unique] response [for transmission to each of]
uniquely identified with said user device[s].
12. [The apparatus of claim 11, said processing] A
method for speech directed information delivery
comprising [means for]:
[determining a user associated with a user device from said received identified speech channel;
determining said associated user from said
recognized speech;
determining said associated user from said
recognized speech and a speaker identification library;
determining said associated user from said
recognized speech and a speech recognition library; and
determining said associated user from an
identification within said speech channel]

241a
receiving speech information at a first device,
wherein said first device is a wireless device;
transferring said speech information in an unrecognized state from said first device via a first
network path to a speech recognition engine; and
at said speech recognition engine, recognizing
said speech information and effecting information
delivery to a second device via a second network
path, wherein said second device is capable of displaying electronically coded and propagated moving or still images and playing electronically
coded and propagated audio; wherein said first
network path and said second network paths are
different.
Ex. 1001, 52:12–54.
Based on the foregoing, and a review of the record,
Petitioner shows persuasively that the challenged
claims recite broader aspects by eliminating at least
these following steps: “partitioning a received back
channel containing a multiplicity of speech channels
from a multiplicity of user devices into a multiplicity
of received identified speech” (issued claim 1) and “a
speech recognition engine coupled to said network for
receiving a back channel from a multiplicity of user
devices” (issued independent claim 11 and claim 12
dependent therefrom). Patent Owner agrees that the
reissue claims are broader than the claims of the original patent under the first recapture step. PO Resp.
23 (Patent Owner “admits, as did its prosecuting attorney when seeking reissue, that the ’326 Patent
claims are broader in scope than the Original Patent
claims” under “[s]tep one of the recapture analysis”);
Reply 23 (noting Patent Owner does not dispute the
reissue claims meet the first recapture step).

242a
Under the second step, a tribunal must determine
if “the broader aspects relate to the surrendered subject matter.” Mostafazadeh, 643 F.3d at 1358. Petitioner contends Patent Owner surrendered the “the
subject matter of a single user configuration” during
prosecution. See Pet. 30–31 (citing Ex. 1029 ¶132). In
other words, Petitioner contends that Patent Owner
distinguished the prior art by relying on multiple user
devices as recited in the claims during prosecution of
the ’523 patent. See id. Patent Owner then added
broader features during reissue that only require a
single user configured in a network (e.g., “receiving
speech information at a first device” in independent
claims 1 and 12). See id. These broader features aspects relate to the surrendered “subject matter of a
single user configuration.” See id. Patent Owner, on
the other hand, for a number of reasons, contends it
did not surrender “any subject matter.” PO Resp. 24.
Typically, “[t]o determine whether an applicant
surrendered particular subject matter, we look to the
prosecution history for arguments and changes to the
claims made in an effort to overcome a prior art rejection.” Mostafazadeh, 643 F.3d at 1360 (citing Clement, 131 F.3d at 1468). During prosecution, Patent
Owner inserted language from the preamble into the
body of claim 1 of the ’523 patent. Patent Owner does
not dispute that it amended claim 1 to clarify that it
requires the underlined portion of “partitioning a received back channel containing a multiplicity of
speech channels from a multiplicity of user devices
into a multiplicity of received identified speech channels,” but contends claim 1 already expressly recited
the element in the preamble. See PO Resp. 24–25.
Even in the absence of any amendments, a tribunal
must investigate “arguments . . . made in an effort to
overcome a prior art rejection.” See Hester Indus., Inc.

243a
v. Stein, Inc., 142 F.3d 1472, 1480 (Fed. Cir. 1998)
(quoting Clement, 131 F.3d at 1469 (emphasis by Hester) (“This statement in Clement indicates that a surrender can occur by way of arguments or claim
changes made during the prosecution of the original
patent application.”).
In particular, quoting the prosecution history of
the ’523 patent (Ex. 1004), Petitioner contends
the applicants amended claim 1 to clarify that
it requires “partitioning a received back channel containing a multiplicity of speech channels from a multiplicity of user devices into a
multiplicity of received identified speech
channels.” [Ex. 1004] (Original Patent File
History), 1337 (added language underlined).
They then argued that “Houser has nothing to
do with partitioning a received back channel
containing a multiplicity of speech channels
from a multiplicity of user devices into a multiplicity of received identified speech channels.” Id. at 1343; see also id. at 1343–44
(“[B]ecause Houser’s teachings are concerned
necessarily with the speech recognition processing being performed on the subscriber’s
terminal unit, Houser’s teachings [are] totally
irrelevant to the claimed features of Claim
1.”); 1344 (distinguishing claim 7 and arguing
“there is no notion in Houser whatsoever
about the speech recognition system being accessible to a multiplicity of user devices, when
the processing occurs on the subscriber’s terminal unit.”).
Based on the applicant’s
amendments and arguments, the examiner allowed the claims of the original ’523 Patent.
Pet. 30–31 (citing Ex. 1029 ¶ 133).

244a
As Petitioner contends, during prosecution, “[t]o
overcome the examiner’s rejection based on Houser,
the applicants amended claim 1 to clarify that it requires “partitioning a received back channel containing a multiplicity of speech channels from a multiplicity of user devices into a multiplicity of received identified speech channels.” See Pet. 31 (quoting Ex. 1004,
1337). During prosecution, Patent Owner also argued
that independent claims 7 and 11, containing materially similar limitations, overcame the prior art for materially the same reasons as claim 1. See Ex. 1004,
1337–45.
Patent Owner contends the preamble of claim 1 of
the ’523 patent before the clarifying amendment already contained the phrase “containing a multiplicity
of speech channels from a multiplicity of user devices,”
so Patent Owner contends it “did not add this element
to secure allowance of the claims—the examiner believed original claim 1 included this element and that
Houser disclosed it.” PO Resp. 26. Contrary to this
argument, nothing indicates the Examiner “believed
original claim 1 included this element.” In any event,
the parties agree that the amendment clarified claim
1. See PO Resp. 26 (“Thus, ‘[i]t should be appreciated
that Claim 1 was amended for clarification purposes
only . . . .’” (quoting Ex. 1004, 1341)); Pet. 30–31
(quoted above). Also, as Petitioner explains, “[t]he
amendment also confirms that the applicants did not
believe the examiner understood the preamble to be
limiting. If they had, there would have been no reason
to make the ‘clarifying’ amendment.” Reply 14 (noting
the Examiner “did not provide any citation to Houser
following the preamble,” asserting this “reflect[s] that
the examiner did not read the preamble as a limitation Houser had to disclose to anticipate”); see Ex.
1004, 1305–06 (showing no citation to Houser after

245a
the preamble and in contrast, citations after all the
other claim limitations).
Other than inserting the preamble phrase of “containing a multiplicity of speech channels from a multiplicity of user devices” into the body of claim 1 during prosecution, the claims did not change appreciably
during prosecution of the ’523 patent. See Ex. 1004,
1337–40 (prosecution history showing changes to
claims). Accordingly, with the exception as to the preamble noted, the claims as issued in the ’523 patent
serve as the reference point for analysis of recapture
here. Inspection of reissued claim 1 (supra Section
I.D) reveals that Patent Owner removed the entire
partitioning portion, including underlined claim limitation added during prosecution of the ’523 patent application as a clarification to overcome the prior art
(i.e., “containing a multiplicity of speech channels
from a multiplicity of user devices”). See Ex. 1004,
1337; Ex. 1001, 50:34–44 (claim 1). Similarly, inspection of the other reissue claims challenged here reveals Patent Owner removed materially similar limitations that it argued overcame the prior art with respect to claims 7 and 11 during prosecution of the ’523
patent. See Ex. 1004, 1337–45; Ex. 1001, 51:24–43
(claim 7), 52:12–28 (claim 11). The broader single
user speech channels and devices of the reissue claims
per these removed “multiplicity of speech channel”
and “multiplicity of user devices” delimitations relate
to the surrendered subject matter of what we refer to
here, for short-hand purposes, as a single user or single user site limitation.
To clarify the analysis, the surrendered single
user site limitation refers to reading the challenged
claims to cover a single user site in the network of the

246a
method for speech directed information. During prosecution of the ’523 patent, as discussed further below,
Patent Owner argued the prior art did not cover multiple user sites in the network of the method for
speech directed information, as discussed further below. See Ex. 1004, 1342–43.
Patent Owner argues it did not surrender anything because Patent Owner did not clearly “admit”
Houser discloses a claim element, and it did not
“clearly and unmistakably” surrender anything to
overcome Houser. PO Resp. 30–34. Patent Owner
similarly argues Houser does not anticipate the
claims, so no recapture occurred. See Sur-Reply 17–
18. Patent Owner also contends “[i]f anything was
surrendered, it was speech recognition processing at a
terminal unit (or ‘local speech processing’) which was
repeatedly admitted as having been both disclosed in
Houser and outside the scope of the plain language of
the claims.” PO Resp. 34. Patent Owner also argued
it “did not surrender specific type of back channel, or
a specific type of partitioning, as [Petitioner] argues
[Pet. 30], because [Patent Owner] never argued that
Houser disclosed receiving any back channel or performed any partitioning.” Id. at 35.
Under the second step, “[t]he recapture rule is
triggered only where the reissue claims are broader
than the patented claims because the surrendered
subject matter has been reclaimed in whole or substantial part (i.e., an added limitation has been eliminated or revised).” Mostafazadeh, 643 F.3d at 1360.
Here, Patent Owner eliminated limitations that Patent Owner argued distinguished Houser, namely, the
limitation of “a received back channel containing a
multiplicity of speech channels from a multiplicity of

247a
user devices” as recited in claim 1 and similar limitations in issued claim 7 of the ’523 patent.
To overcome Houser with respect to claim 1 during prosecution of the ’523 patent application, Patent
Owner focused on the multiple user limitations, as Patent Owner’s prosecution arguments reproduced below show:
[B]ecause Houser’s teachings are concerned
necessarily with the speech recognition processing being performed on the subscriber’s
terminal unit, Houser’s teachings is [sic] totally irrelevant to the claimed features of
Claim 1. For example, Houser has nothing to
do with partitioning a received back channel
containing a multiplicity of speech channels
from a multiplicity of user devices into a multiplicity of received identified speech channels.
Because Houser is completely silent on such
claimed feature, Houser simply could not enable Claim 1.
Ex. 1004, 1342–43 (emphases added). This passage
shows that Patent Owner argued a distinction over
Houser based on the limitation of “partitioning a received back channel containing a multiplicity of
speech channels from a multiplicity of user devices,”
as recited in issued claim 1 of the ’523 patent.
With respect to issued claim 7 of the ’523 patent,
during prosecution, Patent Owner argued a similar
distinction, after noting the similarities between
claims 1 and 7:
Claim 7 recites features which are similar
to claim 1. Based on a similar rationale,
Houser does not disclose, teach or suggest the
subject matter of claim 7. For example, Claim

248a
7 recites “providing said speech recognition
system at a back channel accessible by a multiplicity of user devices coupled to said network.” Houser teaches speech recognition
processing at the subscriber’s terminal unit
and is completely silent about a speech recognition system . . . accessible by a multiplicity
of user devices coupled to said network. As
shown above, there is no notion in Houser
whatsoever about the speech recognition system being accessible to a multiplicity of user
devices, when the processing occurs on the
subscriber’s terminal unit.
Ex. 1004, 1344 (emphasis added). Patent Owner’s arguments show it argued a distinction over Houser
based on the limitation of “providing said speech
recognition system at a back channel accessible by a
multiplicity of user devices coupled to said network,”
as recited in claim 7. Id. After reciting that limitation, Patent Owner argued “Houser . . . is completely
silent about a speech recognition system . . . accessible
by a multiplicity of user devices coupled to said network.” Id. (emphasis added). Patent Owner advanced
the same “rationale” for independent claim 11, which
contained a similar limitation, as it did for claims 1–
6. Id. at 1339, 1334.
As indicated above (Section I.E.1 (Claim Construction)), the prosecution history arguments by Patent Owner about a “speech recognition system” as recited in ’523 patent claim 7 correlates to what Patent
Owner urges here must be included in the claim construction of a “speech recognition engine.” See PO
Resp. 40 (“Moreover, the reissue claims require a
‘speech recognition engine’ that is accessible to a multiplicity of user devices.”). Therefore, Patent Owner

249a
seeks to recapture by claim construction what it surrendered during prosecution of the ’523 patent, and
the prosecution history verifies that Patent Owner understood the claimed speech recognition system (and
a speech recognition engine) did not require being “accessible to a multiplicity of user devices”––because
claims 1 and 7 of the ’523 patent specifically included
that requirement.
By focusing on the lack of a plurality of speech
channels and user devices in Houser to distinguish
the claims, the record shows that Patent Owner
clearly conceded that Houser discloses a single user
site in a network––i.e., regardless of the location of the
speech recognition engine. 15 The prosecution arguments Patent Owner advanced with respect to claim
7 (quoted above) bolster the finding here, as does the
amendment made during prosecution to ensure the
language from the preamble of claim 1 about a “multiplicity” also appeared in the body of the claim. See
Reply 13–17 (noting Patent Owner made the same argument for claim 7). As an example, as quoted above,
to distinguish claim 7 (which Patent Owner asserted
as allowable for similar reasons to claim 1), Patent
Owner argued “Houser teaches speech recognition
processing at the subscriber’s terminal unit and is
completely silent about a speech recognition system

As noted above in Section I.E.2 (Claim Construction), Patent
Owner now argues Houser’s local speech processor could have
processed input from multiple users located at the site. See PO
Sur-Reply 14 n.4. Patent Owner did not make this argument (or
concession) during prosecution, so it does not bear on what Patent Owner surrendered during prosecution. In addition, the argument obscures the issue concerned with reading the challenged claims on a surrendered single site connected in a network (i.e., regardless of the number of users at that single site).
15

250a
. . . accessible by a multiplicity of user devices coupled
to said network.” Ex. 1004, 1344.
This argument refers to “speech recognition processing at the subscriber’s terminal unit” only to show
why such a unit does not teach or suggest “a speech
recognition system . . . accessible by a multiplicity of
user devices coupled to said network.” Id. In other
words, Patent Owner disclaimed clearly and unequivocally a single user site network configuration by emphasizing “Houser . . . is completely silent about a
speech recognition system . . . accessible by a multiplicity of user devices coupled to said network.” Id.
The arguments advanced with respect to claim 1
during prosecution support this understanding. Patent Owner argued “because Houser’s teachings are
concerned necessarily with the speech recognition
processing being performed on the subscriber’s terminal unit, Houser’s teachings is [sic] totally irrelevant
to the claimed features of Claim 1.” Ex. 1004, 1342–
43 (emphasis added). Immediately after this “because” statement, Patent Owner argued “[f]or example, Houser has nothing to do with partitioning a received back channel containing a multiplicity of speech
channels from a multiplicity of user devices into a multiplicity of received identified speech channels. Because Houser is completely silent on such claimed feature, Houser simply could not enable Claim 1.” Id. As
seen, immediately after specifying Houser’s “silen[ce]
on such claimed feature” including “a multiplicity of
user devices,” Patent Owner argued “Houser simply
could not enable Claim 1.” Id. at 1343. Hence, similar
to the argument Patent Owner advanced for allowance of claim 7, the location based argument in the
“because” statement Patent Owner advanced for al-

251a
lowance of claim 1 merely served to preface an evidentiary basis as to why Houser has “nothing to do with
. . . a multiplicity of user devices . . . . [and] simply
could not enable Claim 1.” Id. (emphasis added).
According to Hester, “[t]here is no unfairness in
binding the patentee to deliberate assertions made in
order to obtain allowance of the original patent claims
over the prior art.” Hester, 142 F.3d at 1481 (emphasis
added). Although Patent Owner stresses “[t]here was
no surrender of claim scope by argument because [Patent Owner] never admitted that Houser disclosed
any claim element” (PO Resp. 32), Hester shows that
Patent Owner’s “deliberate assertions . . . to obtain allowance” over Houser constitute a disclaimer under
the recapture rule. See Hester, 142 F.3d at 1481.
Regarding the location (i.e., “at the subscriber’s
terminal unit”), Patent Owner contends “[i]f anything
was surrendered, it was speech recognition processing
at a terminal unit (or ‘local speech processing’) which
was repeatedly admitted as having been both disclosed
in Houser and outside the scope of the plain language
of the claims.” PO Resp. 34 (emphasis added). Patent
Owner does not hedge in its Sur-Reply (i.e., does not
repeat “[i]f anything was surrendered”). Rather, Patent Owner argues “[r]eading [Patent Owner’s] fivepage remarks to the examiner’s Office Action in their
entirety . . . shows Houser was distinguished because
it describes performing speech recognition locally, at
the user’s terminal device, not at a remote speech
recognition engine, as claimed.” PO Sur-Reply 13 (citing Ex. 1004, 1341– 45).
This line of argument does not help Patent Owner.
Even if Patent Owner surrendered clearly and unequivocally a local user site configuration that includes
a speech recognition engine, that surrender does not

252a
mean that Patent Owner failed to surrender the single user network configuration by arguing clearly and
unequivocally that “Houser . . . is completely silent
about a speech recognition system . . . accessible by a
multiplicity of user devices coupled to said network.”
Ex. 1004, 1344. Patent Owner clearly surrendered a
single user network configuration based on that argument and others.
Despite admitting “Houser was distinguished because it describes performing speech recognition locally” (PO Sur-Reply 13), Patent Owner also argues it
“could not surrender what it never claimed to possess,” contending that it did not “admit” anything
about “local” speech processing, rather it “simply
acknowledged that the ’326 Patent does not perform
speech recognition at a terminal unit” (id. at 14–15).
Patent Owner attempts to support this argument with
the following disclosure in the Specification: “[The invention] is unique in that the speech command which
originates at the user site, often the home of the subscriber, is sent upstream via the return path (often
five to 40 MHz) in the cable system to a central speech
recognition and identification engine.” Id. at 15 (citing Ex. 1001, 5:18–22) (bracketed information supplied by Patent Owner). But Patent Owner’s supplied
bracketed information does not accurately tell the
story, because the full quote begins with “[t]his system” instead of “[t]he invention,” and “[t]his system”
refers back to the previous sentence, which begins
with “these embodiments of the invention.” Ex. 1001,
5:14–22 (emphasis added). Moreover, as we determine above (supra Sections I.A., I.E), the Specification
contemplates a speech recognition engine connected
near any node, including a local node. Furthermore,
the Examiner deemed the ’523 patent claims to cover
a single local site network configuration by reading

253a
the claims on Houser, as Patent Owner acknowledges.
See Ex. 1004, 1305–09; PO Sur-Reply 13–14. As indicated above in several places, the first substantive
sentence of the ’326 patent states “[t]his invention relates to voice recognition performed near a wireline
node of a network supporting cable television and/or
video delivery.” Ex. 1001, 1:38–40 (emphases added);
supra Sections I.A, I.E.1. In other words, “this invention” includes a speech recognition engine connected
near any node according to the Specification, contrary
to Patent Owner’s argument that it did not “possess”
that feature. See PO Sur-Reply 15.
Patent Owner also argues that Petitioner did not
assert in the related ’342 IPR that Houser anticipates
the reissue claims, so this shows no recapture occurs
here. See PO Sur-Reply 17–18. But regardless of
whether Houser anticipates or renders obvious the
claims, Patent Owner disclaimed subject matter via
“deliberate assertions” to overcome Houser. See Hester, 142 F.3d at 1481. Patent Owner does not provide
a precedential case citation or any citation supporting
the argument that the recapture rule also requires a
separate finding or trial to show that the reissued
claims anticipate the prior art that Patent Owner distinguished during prosecution. Such a requirement
facially renders the recapture rule useless as a separate tool of invalidity under equity principles.
In any event, to the extent a separate finding of
invalidity might be relevant in the recapture issue
here, in the ’342 IPR, the Board determined in a final
written decision that Petitioner showed Houser rendered claims 1–7 and 12–17 of the ’326 patent claims
obvious. See ’342 IPR, Paper 54 at 73. The ’342 IPR
final written decision also implies Houser discloses
each claim element, finding obviousness over Houser

254a
alone, without discussing any modifications to
Houser. 16 Also, Petitioner contends that asserting obviousness does not mean Houser fails to anticipate.
See Reply 21 n.8. And as Patent Owner notes, Petitioner “responds that it ‘does contend that Houser anticipates the claims of the ’326 Patent as explicitly
stated in its invalidity contentions in the related litigation.’” PO Sur-Reply 17–18 (quoting Reply 21 n.8).
In addition, Mostafozadeh states, as quoted above,
that a patentee triggers “[t]he recapture rule . . . only
where the reissue claims are broader than the patented claims because the surrendered subject matter
has been reclaimed in whole or substantial part (i.e.,
an added limitation has been eliminated or revised).”
Mostafazadeh, 643 F.3d at 1360. Here, the reissue
claims reclaim broader aspects of the single user network configuration after Patent Owner eliminated requirements for multiple speech channels and user devices that Patent Owner argued distinguish over
Houser, and Houser fairly teaches the single user configuration now claimed in the reissue claims, as the
final written decision in the ’342 FWD indicates. See
’342 IPR, Paper 54 at 39–60.
Furthermore, Hester indicates that a patent
owner cannot avoid recapture simply by avoiding an
anticipation rejection, especially here where Patent
Owner did not confine its prosecution history arguments to a lack of anticipation. For example, Patent
Owner argued Houser is “totally irrelevant to the
In the ’342 IPR FWD, the Board determined obviousness
based on a finding of a remote speech recognition engine at node
517 in Houser in one embodiment (’342 IPR, Paper 54 at 22, 21–
60), and the Board also found that Houser discloses a local speech
recognition engine at set-top box terminal unit 16 in another embodiment (id. at 9). See Ex. 1006, Fig. 1, Fig. 15.
16

255a
claimed features” and “has nothing to do with partitioning a received back channel containing a multiplicity of speech channels from a multiplicity of user
devices into a multiplicity of received identified
speech channels.” Ex. 1004, 1343 (emphasis added).
Patent Owner similarly argued “nowhere does Houser
disclose or suggest transmitting a unique response to
each of said user devices based upon the recognized
speech, which was created for each of the received
identified speech channels, as explicitly recited in
Claim 1.” Id. (emphases added). 17
Patent Owner’s prosecution history arguments asserting what Houser fails to disclose or suggest track
the prosecution arguments advanced in Hester. See
Hester, 142 F.3d at 1476 (Patentee “Williams placed
even greater reliance on the ‘solely with steam’ and
‘two sources of steam’ limitations in an attempt to
overcome the obviousness rejection” and then Williams essentially repeated the arguments during an
appeal to the Board, asserting “the two sources of
steam interact to provide a ‘synergy’ that is ‘novel and
nowhere suggested in any of the cited [prior] art.’” (emphases added)). Hester also reasons “[t]here is no unfairness in binding the patentee to deliberate assertions made in order to obtain allowance of the original
patent claims over the prior art.” Id. at 1481 (emphasis added).

In each of the ’326 patent’s challenged reissue claims, Patent
Owner eliminated references to plural “user devices.” See, e.g.,
Ex. 1001, claim 11 (reproduced above, with brackets indicating
deleted text and italics indicating added text: “as to said [recognized speech] first device based upon natural language to create
a [unique] response [for transmission to each of] uniquely identified with said user device[s]”).
17

256a
Based on the foregoing discussion, Petitioner
shows persuasively that Patent Owner surrendered
claim scope of a single user network configuration to
distinguish Houser during prosecution and reclaimed
that single user network configuration so that the
challenged claims here relate to the surrendered subject matter under the second recapture step.
Under the third step, Petitioner contends “a limitation that is added during prosecution to overcome
prior art cannot be entirely eliminated on reissue
because doing so would constitute recapture of the
surrendered subject matter.” Pet. 32 (quoting Mostafazadeh, 643 F.3d at 1359) (emphasis by Petitioner).
Petitioner contends the ’326 patent applicants “entirely eliminat[ed] the limitation requiring processing
speech data from ‘a multiplicity of user devices,’ which
was required by all of the original ’523 Patent claims.”
Id. (citing Ex. 1029 ¶¶ 135, 146). Accordingly, under
the third step, Petitioner contends “the surrendered
subject matter has crept into the [challenged] reissue
claim[s],” see Clements, 131 F.3d at 1469, amounting
to a “full or substantial recapture of the subject matter
surrendered during prosecution.” Mostafazadeh, 643
F.3d at 1358. See Pet. 31–34. 18

In its Sur-Reply, Patent Owner argues “the issue is whether
the speech recognition engine is local—i.e., on—the claimed first
device.” PO Sur-Reply (citing PO Response, 37–38). This argument constrains “local” to “the claimed first device,” which includes a disclosed microphone, rather than constraining “local”
to a user’s home, including a set-top box, or Houser’s terminal
unit. This Sur-Reply argument appears to be a mistake by Patent Owner, because Patent Owner otherwise recognizes the
claimed first device (a wireless device) may be a microphone. See
PO SMG Br. 5–6 (“The claims here recite a specific implementation of remote speech recognition by receiving a spoken command
18

257a
Patent Owner contends “even if there was some
surrender, the reissued claims did not recapture what
was surrendered because they expressly require remote speech processing.” PO Resp. 38. Under one argument, Patent Owner relies on its claim construction
proposal that a “speech recognition engine” must be
“accessible to a multiplicity of user devices.” Id. For
the reasons explained herein and above (Section I.E
(Claim Construction)), the record does not support Patent Owner’s claim construction of a “speech recognition engine,” and Patent Owner’s arguments during
prosecution reveal that a “speech recognition engine”
need not be “accessible to a multiplicity of user devices.” See supra Section I.E; PO Resp. 40; Ex. 1004,
1344.
Under a second argument, Patent Owner argues
the reissue claims require a remote speech processor
because the reissue claims recite “transferring said
speech information . . . to a first network path to a
speech recognition engine . . . and effecting information delivery to a second device via a second network path.” See PO Resp. 37. Patent Owner maintains “even if there was some surrender, the reissued
claims did not recapture what was surrendered because they expressly require remote speech processing.”
Id. at 38 (emphasis added). In a similar argument,
Patent Owner contends “[t]he original and issued
claims required speech recognition processing to occur
at a location remote from a user device,” and “[t]he
same concept remains in reissued claim 1, which requires that the speech recognition engine receive
speech information from a first device via a first network path and effect information delivery to a second
at a wireless device to effect information delivery to a different
device.”).

258a
device via a second network path.” Id. at 39. According to Patent Owner, based on these “network path”
limitations, “Houser remains excluded from the
claims.” See id.
As indicated above, with respect to the last argument, Petitioner need not show that Houser anticipates the claims to show recapture. Patent Owner argues Houser does not anticipate as a vehicle to show
“[l]ocal speech processing, to the extent that [it] is held
to have been surrendered, has not crept back into the
claims.” See PO Resp. 37. But even if we adopt Patent
Owner’s theory that Patent Owner only surrendered
local speech processing, local speech processing
clearly has crept back into the claims, because the
“network path” does not preclude local speech processing (or a single user site), contrary to Patent
Owner’s arguments (see id. at 37–38), and according
to the claim construction above (supra Section I.E).
Also, as noted above and assuming relevance to recapture here, the Board determined Houser renders the
reissue claims obvious in a final written decision in
the ’342 IPR.
Moreover, as construed above, the claimed first
and second network paths do not constrain the speech
recognition as argued by Patent Owner. See supra
Section E.2. Nothing in the claims requires remote
speech processing. As Petitioner also explains, Patent
Owner fails to provide a claim construction for a “first
network path” or a “second network path” and fails to
explain how a network path requires a remote “speech
recognition engine.” See Reply 20– 21 & n.7. Of
course, Petitioner bears the burden of showing unpatentability, but nothing in claim 1 or claim 12 requires a remote “speech recognition engine” based on
the “network path” recitations, as Petitioner argues,

259a
and as we construed the terms above. See supra Section I.E; Reply 5 (“[T]he patent does not use the term
‘network path’ (except in the claims) and never refers
to a ‘two-network-path’ solution to any purported
problem.”).
As Petitioner persuasively argues,
Patent Owner never proposes a construction
of the term “network path” to support its argument, and indeed did not include such a
limitation in the agreed construction in the related district court action (i.e., “physical route
through which data is transmitted from [a]
source to [a] destination”). Ex. 1034 at 20.
The claims broadly recite a speech recognition
engine communicating with devices via network paths, which could be in a local or home
network, a cable television network, or any
other network. The claims do not impose any
particular limitation on the location of the
speech recognition engine (remote or local),
and it would be inappropriate for the Board to
rewrite the claims to add such a limitation
now.
Reply 20–21 (internal and external footnote omitted). 19
Petitioner persuasively shows that Patent Owner
entirely eliminated the noted multiple user device and
channel limitations during the reissue proceeding

In omitted footnote 7 of the Reply, Petitioner contends “Patent Owner argued that the Board should adopt this proposed
construction of ‘network path’ in the pending IPR proceedings
challenging the ’326 Patent.” Reply 21 n.7 (citing ‘342 IPR, Paper
22 at 11; ‘343 IPR, Paper 24 at 11).
19

260a
that Patent Owner argued overcome the prior art during prosecution. Accordingly, nothing in those eliminated steps exist for Patent Owner to narrow to avoid
recapture per the third step. See Mostafazadeh, 643
F.3d at 1361 (“[T]he recapture rule is violated when a
limitation added during prosecution is eliminated entirely, even if other narrowing limitations are added
to the claim. If the added limitation is modified but
not eliminated, the claims must be materially narrowed relative to the surrendered subject matter such
that the surrendered subject matter is not entirely or
substantially recaptured.”); Youman, 679 F.3d at 1345
(“where the patentee eliminates the added limitation
in its entirety . . . it is clear that the surrendered subject matter has been recaptured”).
Petitioner also contends that the reissue claims do
not involve “overlooked” aspects, which include “patentably distinct (1) inventions; (2) embodiments; or
(3) species not originally claimed–-not mere incidental
features of the originally-claimed invention.” Pet. 33
n.7 (citing Mostafazadeh, 643 F.3d at 1360). Petitioner shows persuasively that the claims recite broad
generic aspects of the disclosed invention, instead of
patentably distinct inventions, embodiments, or species relative to the originally issued claims. Patent
Owner does not address this point.
Based on the foregoing discussion, Petitioner
shows by a preponderance of evidence that claims 1–
21 impermissibly recapture surrendered subject matter.
V. 35 U.S.C. § 112, ¶ 2
Citing Nautilus, Inc. v. Biosig Instruments, Inc.,
134 S. Ct. 2120, 2123 (2014) and In re Packard, 751
F.3d 1307, 1313 (Fed. Cir. 2014), Petitioner contends

261a
claims 11 and 21 are indefinite. See Pet. 46–49.
Claim 11 recites “[t]he method of claim 1, further comprising the steps of providing: responding to recognized speech identified as to said first device based
upon natural language to create a response uniquely
identified with said user device.” Ex. 1001, 52:12–28
(bracketed information and emphasis omitted, emphasis added). Claim 21 similarly recites “[t]he
method of claim 12, further comprising the steps of:
responding to recognized speech identified as to said
first device based upon natural language to create a
response uniquely identified with said user device.”
Id. at 53:47–50 (emphasis omitted).
Petitioner contends “said user device” lacks antecedent basis, rendering claims 11 and 21 indefinite.
As Petitioner contends, claim 11 refers back to claim
1, and neither claim recites a “user device.” Pet. 47.
Rather, claim 1 recites a “first device” and a “second
device.” Id. Similarly, claim 21 refers back to claim
12, and neither claim recites a “user device.” Id. at
48–49. Rather, claim 12 recites a “first device” and a
“second device.” See id. at 48 (arguing “claim 21 suffers from the same defect” as claim 11).
Therefore, according to Petitioner, “said user device” may refer to the “first device” or the “second device,” or it may introduce a separate device (i.e., a user
device). See id. at 48. According to Petitioner, “[t]here
is no basis in the claim language, [S]pecification, or
prosecution history for a person of ordinary skill in the
art to resolve the ambiguity created by this defect.”
Id. at 47–48 (citing Ex. 1029 ¶¶ 188–191). Petitioner
concludes “the meaning of the claim language is unclear and also fails to inform, with reasonable certainty, those skilled in the art about the scope of the
invention.” Id. at 48 (citing Ex. 1029 ¶ 193).

262a
Patent Owner contends under Nautilus, “a patent
is invalid for indefiniteness if its claims, read in light
of the specification delineating the patent, and the
prosecution history, fail to inform, with reasonable
certainty, those skilled in the art about the scope of
the invention.” PO Resp. 47–48 (quoting Nautilus,
572 U.S. at 901). Patent Owner contends Nautilus applies to issued patents, and under this standard, the
claims are not indefinite. See id.
According to Patent Owner, the term “said user
device,” despite lacking an antecedent basis, clearly
refers to “a user device.” PO Resp. 50. Yet on the
same page, Patent Owner states “it is clear . . . that
‘said user device’ refers to the ‘first device’ and ‘second
device,’” as recited in claims 1 and 12. Id. So Patent
Owner does not state unequivocally whether “said
user device” refers to “a user device,” the “first device,”
or the “second device” of claim 1. Petitioner points to
this inconsistent position. Reply 23–24 (“Patent
Owner further confirms that the antecedent basis is
not ‘clear’ by arguing elsewhere in its response that
the term ‘said user device’ does not mean the ‘first device’ and ‘second device’ but instead means ‘a user device,’ which is different and broader than its first proposed construction.”). In its Sur-Reply, Patent Owner
does not contend the term includes “a [separate] user
device” and instead argues “one of skill in the art
would understand ‘said user device’ in dependent
claims 11 and 21 refers to either of the two user devices (a ‘first device’ or ‘a second device’) recited in independent claims 1 and 12, respectively.” PO Sur-Reply 24.
In any event, Petitioner shows that “said user device” may refer to the “first device” or the “second device,” or it may introduce a separate device (i.e., a user

263a
device). See Pet. 48. Even if Nautilus applies, Petitioner shows that claims 11 and 21 are indefinite, because they “fail to inform, with reasonable certainty,
those skilled in the art about the scope of the invention.” PO Resp. 47–48 (quoting Nautilus, 572 U.S. at
901). 20 One of skill in the art would not have “reasonable certainty” of whether a method for speech directed information delivery infringes claims 11 and 21
by using only a first device and a second device on the
one hand, or whether on the other hand, the method
infringes only by using a first device, a second device,
and a third “user device.” In addition, even if “said
user device” only refers back to either the first device
or the second device as Patent Owner argues, one of
skill in the art would not be reasonably certain of
which one to identify to avoid infringement per the
phrase “uniquely identified with said user device,” as
recited in claims 11 and 21.
Based on the foregoing discussion and review of
the record, Petitioner persuasively shows that claims
11 and 21 are indefinite under Nautilus and Packard.
VI. CONSTITUTIONAL CHALLENGES
Patent Owner contends this CBM proceeding “violates both the Takings and Due Process clauses of the
Constitution by its retroactive application to patents
whose disclosures published before the AIA was enacted.” PO Resp. 55. As Petitioner points out, however, the ’326 patent issued after the CBM proceedings became effective, so this CBM proceeding does
Patent Owner’s arguments assume Nautilus applies a
stricter standard than Packard. See id. Regardless, Petitioner
shows that the claims lack clarity under Packard for the same
reasons that the claims lack reasonable certainty under Nautilus.
20

264a
not constitute a retroactive application with respect to
the ’326 patent. Reply 25 (“[T]he AIA’s CBM procedure was implemented in September 2012 and therefore was in place when the ’326 Patent issued in June
2013.”).
Even for retroactive applications of the AIA, our
reviewing court recently held “the retroactive application of IPR proceedings to pre-AIA patents is not an
unconstitutional taking under the Fifth Amendment.”). Celgene Corp. v. Peter, 931 F.3d 1342 (Fed.
Cir. 2019). Then, after Peter, in a situation similar to
the timing involved here, our reviewing court determined “[w]e need not reach the merits of the issue, . . .
because the [challenged] patent issued . . . almost
three years after passage of the AIA and almost two
years after the first IPR proceedings began.” Anthrex,
Inc. v. Smith & Nephew, Inc., No. 2018-1584, 2019 WL
3938271, at *8 (Fed. Cir. Aug. 21, 2019) (also noting
“even if Arthrex’s patent had issued prior to the passage of the AIA, our court recently rejected arguments
similar to Arthrex’s in Celgene Corp. v. Peter[, 931
F.3d 1342 (Fed. Cir. 2019)]”).

265a
VII. CONCLUSION 21
In summary:
Claims
Claims
Shown
Not shown
Ground Basis Claims
UnUnpatentpatentaable
ble
Abstract § 101 1–21
1–21
None
Recapture § 251 1-21
1–21
None
Indefinite- § 112, 11 and
11 and 21 None
ness
¶2
21
Overall
1–21
None
Outcome
VIII. ORDER
In consideration of the foregoing, it is hereby
ORDERED that claims 1–21 of the ’326 patent are
unpatentable; and
FURTHER ORDERED that because this is a final
written decision, parties to the proceeding seeking judicial review of the decision must comply with the notice and service requirements of 37 C.F.R. § 90.2.

Should Patent Owner wish to pursue amendment of the challenged claims in a reissue or reexamination proceeding subsequent to the issuance of this Decision, we draw Patent Owner’s
attention to the April 2019 Notice Regarding Options for Amendments by Patent Owner Through Reissue or Reexamination During a Pending AIA Trial Proceeding. See 84 Fed. Reg. 16654
(Apr. 22, 2019). If Patent Owner chooses to file a reissue application or a request for reexamination of the challenged patent, we
remind Patent Owner of its continuing obligation to notify the
Board of any such related matters in updated mandatory notices.
See 37 C.F.R. § 42.8(a)(3), (b)(2).
21

266a
PETITIONER:
James Day
jday@fbm.com
Daniel Callaway
dcallaway@fbm.com
Leo Lam
llam@kvn.com
PATENT OWNER:
Joshua Goldberg
Joshua.goldberg@finnegan.com
Jacob Schroeder
Jacob.schroeder@finnegan.com
Cory Bell
Cory.bell@finnegan.com
Daniel Klodowski
Daniel.klodowski@finnegan.com

267a
APPENDIX F
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. art. II, § 2
Section 2. The President shall be Commander in
Chief of the Army and Navy of the United States, and
of the Militia of the several States, when called into
the actual Service of the United States; he may require the Opinion, in writing, of the principal Officer
in each of the executive Departments, upon any Subject relating to the Duties of their respective Offices,
and he shall have Power to Grant Reprieves and Pardons for Offences against the United States, except in
Cases of Impeachment.
He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose Appointments are not herein otherwise provided for, and
which shall be established by Law: but the Congress
may by Law vest the Appointment of such inferior Officers, as they think proper, in the President alone, in
the Courts of Law, or in the Heads of Departments.
The President shall have Power to fill up all Vacancies that may happen during the Recess of the Senate, by granting Commissions which shall expire at
the End of their next Session.

